<html>
<title> - HEALTH AND PRODUCT SAFETY ISSUES ASSOCIATED WITH IMPORTED DRYWALL</title>
<body><pre>[Senate Hearing 111-442]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-442
 
   HEALTH AND PRODUCT SAFETY ISSUES ASSOCIATED WITH IMPORTED DRYWALL 

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-750 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

MARK PRYOR, Arkansas, Chairman       ROGER F. WICKER, Mississippi, 
BYRON L. DORGAN, North Dakota            Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             JOHNNY ISAKSON, Georgia
TOM UDALL, New Mexico                DAVID VITTER, Louisiana
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 21, 2009.....................................     1
Statement of Senator Pryor.......................................     1
Statement of Senator Wicker......................................     2
Statement of Senator Nelson......................................     3
Statement of Senator Warner......................................    33
Statement of Senator Klobuchar...................................    35

                               Witnesses

Lori Saltzman, Director, Division of Health Sciences, U.S. 
  Consumer Product Safety Commission, prepared statement.........     6
Michael McGeehin, Ph.D., Director, Division of Environmental 
  Hazards and Health Effects, National Center for Environmental 
  Health, Centers for Disease Control and Prevention, U.S. 
  Department of Health and Human Services, prepared statement....     8
Elizabeth Southerland, Acting Deputy Director, Office of 
  Superfund Remediation and Technology Innovation, U.S. 
  Environmental Protection Agency, prepared statement............    10
Dr. David Krause, State Toxicologist, Florida Department of 
  Health, prepared statement.....................................    11
Richard J. Kampf, Retired Federal Employee, Cape Coral, Florida, 
  prepared statement.............................................    20
Randy Noel, President, Reve, Inc., on behalf of The National 
  Association of Home Builders, prepared statement...............    22
Hon. Senator Mary L. Landrieu, U.S. Senator from Louisiana.......    29
    Prepared statement...........................................    29

                                Appendix

Robert D. Gary, Private Attorney, Representing Victims of 
  Contaminated Drywall, prepared statement.......................    55
Brenda Brincku, Florida Homeowner, prepared statement............    57
Joan D. Glickman, Town Home Homeowner in Pompano Beach, Florida, 
  prepared statement.............................................    58
Jennifer Rzewnicki, Bradenton, Florida, prepared statement.......    59
Holly D. Krulik, Florida Homeowner, prepared statement...........    61
John Medico, Husband, Parent and Florida Homeowner, prepared 
  statement......................................................    62
Cindy Shannon, Wife, Parent and Florida Homeowner, prepared 
  statement......................................................    65
Michael J. Ryan, Esquire, Attorney Representing Florida 
  Homeowners, prepared statement.................................    69


   HEALTH AND PRODUCT SAFETY ISSUES ASSOCIATED WITH IMPORTED DRYWALL

                              ----------                              


                         THURSDAY, MAY 21, 2009

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
                             Safety, and Insurance,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:33 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARIZONA

    Senator Pryor. I'll go ahead and call the meeting to order.
    I want to thank all the witnesses and the audience for 
being here this morning, and I want to thank my colleagues. 
We're going to have a few more join us.
    I'm going to make a very brief opening statement, but I 
want to welcome everyone to the Consumer Protection, Product 
Safety, and Insurance Subcommittee. Today, we are going to be 
talking about a very important issue for the country, and that 
is Chinese drywall. This issue creates new challenges for our 
Subcommittee, the full Committee, and the Federal agencies 
charged with protecting consumers from harmful products.
    Chinese drywall was imported in large volumes during the 
height of the building market, and used extensively in Florida 
and Louisiana following the devastating hurricanes in 2005. In 
reviewing complaints against Chinese drywall, we are grappling 
with a potential dangerous and embedded product built into the 
very fiber of hundreds of family homes--apartments, and 
mansions built with some Chinese drywall, maybe making 
residents sick rather than providing them a place of home 
sanctuary. This crisis is a double threat to homeowners, as it 
destroys the value of a family's largest investment.
    In early 2008, homeowners in Florida and Louisiana began 
complaining of a peculiar odor, describing it as a rotten-egg 
smell, that was permeating their houses and serious metal 
corrosion, including air-conditioning units that had turned 
black with corrosion within 2 years after new construction. 
Residents of these homes also reported health problems that 
included bloody noses, recurrent headaches, irritated eyes and 
skin, and asthma attacks. As many residents reported that their 
symptoms abated after leaving their homes, investigators began 
examining products in the home as the potential cause.
    Florida health officials and homebuilders eventually 
narrowed down the cause of these problems to an unlikely 
source: drywall imported from China used for home construction. 
While there are several theories about the root of the Chinese 
drywall problem, we're here today to establish for the record 
the likely cause of this health and economic threat, as well as 
the scope of the Chinese drywall crisis.
    More importantly, we will hear how our State and Federal 
agencies are responding and we'll work to complete a record to 
see if there are any steps we need to take to make sure that 
this situation does not happen again. The impact on people's 
lives is immense, both financially and emotionally.
    I implore all the parties involved to always consider the 
well-being of innocent people who have been evicted from their 
uninhabitable homes.
    I congratulate those homebuilders who have begun taking 
remedial action in the affected homes. The courts and all the 
parties involved need to quickly develop a solution so that 
these families have a safe place that they can call home.
    I want to welcome Senator Nelson. Senator Landrieu will 
join us shortly. But, before I let them give an opening 
statement, we'd love to hear from the Ranking Member, Senator 
Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman. And I appreciate 
the hearing.
    Earlier this year, we started hearing news reports of homes 
built during 2006-2007 in Florida plagued by strong odors and 
failed electronics due to metal corrosion. We also heard 
reports of the symptoms that Senator Pryor just described. 
These reports have increased in frequency, and now they're 
coming from other States. Mississippi, Louisiana, and Virginia, 
for example, are investigating similar health and home related 
problems.
    The United States has consumed an average of 31 billion 
square feet of drywall since the year 2000. To handle the 
increased demand during post-Katrina rebuilding along the Gulf 
Coast, as well as during the Nation's housing boom, domestic 
producers expanded their facilities and increased capacity. Our 
current domestic production capacity exceeds 37 billion square 
feet of drywall, and that's enough drywall to cover the entire 
State of Rhode Island. It's also a significant increase in the 
domestic capacity in 2000, which was only 31 billion square 
feet.
    Despite this increase in domestic production, our demand 
caused us to import drywall from sources outside North America, 
notably China. The United States imported almost 280 million 
square feet of drywall in 2006, and roughly 32 million square 
feet in 2007. These numbers seem high. They do represent only 
one-half of 1 percent of the amount used in the United States 
for the 2-year period.
    According to the Department of Commerce, the Chinese 
drywall entered through ports in some 14 States, including my 
home State of Mississippi. No doubt, the product has been 
distributed to other States also.
    The widespread distribution of the suspect drywall makes it 
very important to have the CPSC, the CDC, and the EPA testify 
today. I'm eager to hear their preliminary findings, Mr. 
Chairman, the elemental analysis of the drywall samples, and 
their suggestions on how best to move forward.
    It's my hope that these agencies will keep us informed of 
progress on identifying the specific issue with the imported 
drywall--What was the problem?--and the efforts to establish 
the testing methodology to test homes which might be affected.
    I also appreciate the attendance today of Mr. Noel, who's 
speaking on behalf of the National Association of Homebuilders. 
These builders play a vital role in the issue. And I'm glad to 
know that he can join us today to discuss efforts the industry 
is taking regarding the suspect drywall.
    While it is clear we are not importing Chinese drywall 
currently, I'm sure we will discuss how to prevent this problem 
from occurring again in the future. I'm hopeful we will act 
rationally and make decisions based on sound science.
    Officials in the State of Mississippi are aware of the 
issue and are currently investigating complaints that have been 
made to our State agencies. I will continue to monitor the 
matter as these investigations continue.
    I look forward to working with the Senator from Florida, 
who's taken a lead on this issue, and our colleagues, to ensure 
that the Federal Government is providing the necessary 
expertise and assistance on this issue.
    Thank you.
    Senator Pryor. Thank you, Senator Wicker.
    And now I want to introduce Senator Bill Nelson of Florida, 
who really has taken a lead on this. He and Senator Landrieu 
have been working tirelessly to get this issue before this 
Subcommittee and before the Nation and try to get a resolution.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    I just wanted to show you some of the evidence of what's 
happening in the homes. I've been in several of these homes, 
and what you see here are coils on an air-conditioner. Now, 
they're copper, and you can see the copper shining through, 
here. When copper ages, it turns green, but look what has 
happened to all of these copper coils and pipes on an air-
conditioner. You can see the air-conditioning ducts, back here. 
So much so that I went in homes that had the coils replaced 
three times on their air-conditioners because the surface, not 
only turns black--and I took a screwdriver and scraped it off, 
down to the copper--but also it corrodes and eats into the 
actual metal. Now, that's one example.
    I'll give you another example. This is some kind of 
electrical thing that has a copper tube coming off. Again, you 
can see the discoloration of the copper tube in an electrical--
and this is the electrical wire.
    Or, look at a water heater. Look at the pipes. Now, this is 
a more recently installed pipe, and you can see that it still 
retains its copper color, but look at the tube that was there.
    In one case, there was an elderly couple whom I visited in 
their home, who had gone to Mexico the month before on a cruise 
and the wife had bought a silver bracelet. And she showed me 
the silver bracelet, and it was completely corroded and black. 
And that had only been a month.
    Look at the shower head, how it's popped. I can show you 
pictures of mirrors, the same thing for the silver behind the 
glass in a mirror.
    This is not even to speak of the questions of people's 
health.
    Now, I guess I'm like a canary in a coal mine, because I am 
highly allergic to mold and mildew, and I can walk into a room, 
and within 5 minutes my respiratory system starts contracting. 
The same phenomenon occurred when I walked into these houses. 
Others have experienced headaches, watery eyes. In my own case, 
it was congestion. There is the smell--there is a sulfur smell. 
Some describe it as the smell of rotten eggs. And in the case 
of children, pediatricians have been advising the parents to 
take the kids out of the house.
    Now, how do we know that this is Chinese drywall? Well, 
bring up that photograph, there. Yes, please.
    It's interesting, in the houses that don't have a problem, 
there's none of this, but in the houses that do, you can see 
the cutout of the wallboard and you can see the writing--this 
is upside-down--``C-h-i-n-a,'' upside-down. And that is a 
consistent phenomenon, that, where there are these effects, 
there is this drywall that is labeled having come from China.
    Now, we've been all over the Consumer Product Safety 
Commission to get moving. They have sent a team down to 
Florida. They gave the samples of this to the EPA, and they 
have just reported on their first test. And that test says 
that, compared to American drywall, there are three different 
elements. There are traces of elements that are in acrylic 
paint. There is sulfur and there is strontium.
    The next step is to have a test that simulates the 
environment like in places like Louisiana and Florida that is 
hot and humid, and to see what the gases are that come off from 
it. And the CPSC has said it doesn't have any money. Thanks to 
Senator Pryor, we reformed the CPSC last year, and they do have 
money. So, today, when we pass the supplemental appropriations 
bill, it's going to have $2 million in there for this test for 
the CPSC to coordinate with the Centers for Disease Control and 
the EPA in order to do that test and other tests. And we've got 
to get to the bottom of this because our people are potentially 
endangered.
    Now, the CPSC has, under legal authority that it was given 
in the reform, the ability to stop the importation of this 
drywall and to go out and basically impound it. And the CPSC is 
waiting until it gets better evidence. That's why we can't sit 
around and wait on this anymore.
    So, you're going to have the money after this supplemental 
is signed into law by the President.
    I want you to show that chart, right there. Now, this is 
just since 2006. We believe the drywall has been distributed in 
all of these states. We know that most of it has come into 
Florida: over 3 million drywall boards, 668,000 boards that 
came in through the Port of New Orleans, and so forth, 
throughout these particular States. And, of course, in our 
State of Florida, you can see that most of the drywall has come 
into the Port of Miami and the Port of Tampa.
    We have estimates indicating that as many as 100,000 homes 
nationwide may have been affected by this Chinese drywall. The 
estimates are that it could be anywhere from 35 to 50,000 homes 
just in our State of Florida.
    We needed drywall in the aftermath of the 2004 hurricanes. 
Louisiana needed drywall in the aftermath of Hurricane Katrina 
and Rita in 2005. And you can see the enormous problem that is 
facing the homeowners who have a mortgage and whose 
pediatrician is telling them to take their child out of this 
home. If they are fortunate, like the single mother and her 
child whom I visited in Bradenton, she had her mother with whom 
they could go and live. But, she's still paying the mortgage. 
But, if it's like another family that I visited, they don't 
have anyplace to move, except to pay rent, and still pay their 
mortgage because the banks are refusing to work with them on 
their mortgages.
    Look at the poor homebuilder. It's not like homebuilders 
aren't suffering enough with the economy as it is now. Is the 
homebuilder going to be responsible for this? It wasn't his 
fault that he got a faulty product. So, who is going to stand 
by this? And that's why we can't wait around anymore. We've got 
to get to the bottom of it. And the U.S. Government, in its 
role as a protector of consumers, has got to do its job, and to 
do it swiftly and accurately.
    Thank you, Mr. Chairman.
    Senator Pryor. Thank you, Senator Nelson.
    Let me inform our panel of witnesses what is going on. We 
understand that we're about to have a roll-call vote on the 
floor very soon--maybe as soon as 10 minutes from now. And I 
know that Senator Landrieu's on her way over, and we may have 
one or two others who are on the way over. What I would like to 
do is ask you all to dispense with your opening statements and 
just submit those for the record. I know you've prepared that 
testimony, and we appreciate that, but, in the interest of 
time--what I'd like to do is just dive right in on questions.

      STATEMENTS OF: LORI SALTZMAN, DIRECTOR, DIVISION OF 
         HEALTH SCIENCES, U.S. CONSUMER PRODUCT SAFETY 
        COMMISSION; MICHAEL McGEEHIN, Ph.D., DIRECTOR, 
         DIVISION OF ENVIRONMENTAL HAZARDS AND HEALTH 
EFFECTS, NATIONAL CENTER FOR ENVIRONMENTAL HEALTH, CENTERS FOR 
                      DISEASE CONTROL AND 
   PREVENTION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES; 
             ELIZABETH SOUTHERLAND, ACTING DEPUTY 
   DIRECTOR, OFFICE OF SUPERFUND REMEDIATION AND TECHNOLOGY 
                INNOVATION, U.S. ENVIRONMENTAL 
          PROTECTION AGENCY; DR. DAVID KRAUSE, STATE 
          TOXICOLOGIST, FLORIDA DEPARTMENT OF HEALTH; 
    RICHARD J. KAMPF, RETIRED FEDERAL EMPLOYEE, CAPE CORAL, 
 FLORIDA; AND RANDY NOEL, PRESIDENT, REVE, INC., ON BEHALF OF 
           THE NATIONAL ASSOCIATION OF HOME BUILDERS

    [The prepared statements of all witnesses follow:]

            Prepared Statement of Lori Saltzman, Director, 
  Division of Health Sciences, U.S. Consumer Product Safety Commission
    Good Morning, Mr. Chairman and Senators,
    My name is Lori Saltzman. I am a toxicologist and the Director of 
the Division of Health Sciences at the U.S. Consumer Product Safety 
Commission (CPSC). With approximately 450 employees across the nation, 
the CPSC is a small, independent and bipartisan Federal commission 
charged with protecting the public from unreasonable risks of injury 
and death associated with thousands of consumer products.
    Since its establishment in 1973, CPSC's work has contributed 
substantially to the decline in the rates of death and injury related 
to the use of consumer products, and it has been my privilege to work 
at the agency for over 25 years.
    I am pleased to have this opportunity to testify today regarding 
CPSC's work on the emerging drywall problems that home owners are 
experiencing, particularly in Florida, but also in Louisiana, Virginia, 
Mississippi, and other states as well. The CPSC is the lead agency in a 
coordinated Federal investigation involving the Environmental 
Protection Agency, the Centers for Disease Control and Prevention, and 
the Agency for Toxic Substances and Disease Registry.
    We are working closely with state and local government agencies as 
well. Close coordination of our enforcement and regulatory activities 
among the various state, local and Federal agencies is essential given 
the many Federal agencies with responsibilities and the myriad of state 
and local housing standards and codes that regulate construction. 
Historically, our Federal partners, along with the Occupational Safety 
and Health Administration and the Department of Housing and Urban 
Development, have addressed other housing hazards, such as lead, 
asbestos, formaldehyde and carbon monoxide, in close cooperation with 
state and local regulatory and enforcement officials.
    In the investigation of drywall problems, we are engaging in a 
systematic, multidisciplinary and comprehensive scientific 
investigation that recognizes the urgency of the problem and the 
difficult situation facing homeowners who have been affected.
    To date, the CPSC has heard from over 320 residents in 16 states 
and the District of Columbia who report that they are experiencing 
health symptoms or the corrosion of certain metal components in their 
homes that they believe are related to the presence of drywall produced 
in China.
    Common complaints in the reports submitted to the CPSC include:

  <bullet> a ``rotten egg'' smell within the consumer's home;

  <bullet> health concerns such as irritated and itchy eyes and skin, 
        difficulty in breathing, persistent cough, runny noses, 
        recurrent headaches, sinus infection, nosebleeds, and asthma 
        attacks; and

  <bullet> blackened and corroded metal components in the home and 
        frequent replacement of components in air conditioning units.

    These consumers largely report that their homes were built in 2006 
and 2007 when an unprecedented increase in new construction occurred in 
part due to the hurricanes of 2004 and 2005.
    CPSC's investigation of drywall is proceeding simultaneously on 
three distinct tracks:

        1. evaluating the relationship between the drywall and the 
        reported health symptoms;

        2. evaluating the relationship between the drywall and 
        electrical and fire safety issues in the home; and

        3. tracing the origin and the distribution of the symptom 
        producing drywall.

    CPSC field staff is continuing to collect samples of various 
drywall and degraded electrical, gas and fire safety components and 
working to identify points along the distribution chain that link 
manufacturers to U.S. consumers.
    Additionally, field staff is following up with a number of 
residents to discuss their particular drywall issues and to document 
their experiences in greater detail. We have field investigators 
permanently stationed in the affected states, and we are shifting 
additional staff to those areas to assist in this investigation.
    One challenge for our field investigators has been to determine the 
quantity of problem drywall present in a particular home, given that it 
is already installed, likely painted and may not be clearly marked. The 
drywall in question could fill the entire house or be just a few sheets 
in one or two rooms.
    To assess the impact on human health, the CPSC, in coordination 
with other Federal and state agencies, has advanced a multi-tracked 
test program. The specific elements of the test program include 
laboratory elemental characterization testing, chamber testing of 
domestic and imported drywall, and in-home air sampling.
    It is important that our scientists carefully determine how the 
reported symptoms may be related to the drywall as opposed to other 
environmental factors or pollutants in the home. In this regard, we are 
aggressively conducting a scientific investigation and researching 
scientific literature and reports for evidence which could link the 
identified chemical emissions from the drywall chamber testing and in-
home air sampling to the reported health complaints.
    The laboratory elemental characterization testing will identify any 
fundamental differences between domestic and imported drywall samples 
so we can determine what is contained in the composition of each 
sample. The data from the elemental characterizations will guide us in 
focusing on what to analyze during the chamber and the in-home air 
sampling testing.
    The laboratory chamber tests will isolate the drywall's chemical 
emissions from those of other products found in the home (e.g., 
carpets, cleaners, paint, adhesives, and beauty products) so that we 
can determine what gases are being emitted from each drywall sample.
    Our in-home air sampling testing will involve real-time 
measurements of sulfur containing compounds, acid and other gases, 
including volatile organic chemicals, pesticides, and the possible 
presence of refrigerant byproducts. The presence of microorganisms will 
also be checked. Samples will be collected from indoor spaces and from 
behind wall cavities. The measurements will take into account humidity 
and heat conditions and will take place at various times of day since 
some symptoms have been reported to occur in the morning after hours of 
sleeping.
    In addition to health symptoms, residents have also reported 
blackened and corroded components containing metal in their homes. 
Particularly, consumers have reported premature failures of central air 
conditioning evaporator coils located indoors and intermittent 
operation or failure of appliances, such as refrigerators and 
dishwashers, and electronic devices such as televisions and video game 
systems.
    To date, the CPSC has not received any confirmed reports of fire, 
electric shock or fire precursor incidents (such as discolored, 
overheated/burned out, or smoking components) related to problem 
drywall.
    Visual examination of electrical wiring within affected homes by 
CPSC engineers has shown varying levels of corrosion on the exposed 
portions of copper wires, in particular ground wires, since they are 
not insulated. The presence and extent of corrosion within a house, or 
even within a room, however, appeared inconsistent.
    The CPSC is focused on the potential electrical and fire safety 
issues in the home, including the corrosion of components related to 
fuel gas piping and fire safety devices. Electrical components are a 
particular target for this investigation. Electrical components include 
residential wiring, receptacles, switches, circuit breakers, panel 
boards, ground fault circuit interrupters, and arc fault circuit 
interrupters.
    CPSC engineers are investigating the deterioration of connections 
such as where a wire is connected to a receptacle or where a circuit 
breaker is installed in a panel board. A degraded connection could 
develop hot spots resulting in overheating and possibly fire.
    Engineers are also looking at the erosion of copper conductors over 
time, which would compromise their physical integrity. If the corrosion 
is progressively eating away at a wire, the wire would eventually lose 
its capacity to carry current and start to overheat or become 
physically weak and break.
    Another concern for our engineers is possible damage to circuit 
traces or electronic components on printed circuit boards which could 
cause failure of protective devices like ground fault circuit 
interrupters, arc-fault circuit interrupters, and smoke alarms.
    Shock and fire hazards could result from the loss of protection 
that these devices provide, and damage to gas service components, such 
as flexible connectors and copper piping, could lead to gas leakage and 
a fire or explosion hazard.
    With regard to smoke alarms, concerns include potential damage to 
electronic circuitry and degradation of the sensor. Either condition 
could result in an inoperable smoke alarm. For fire sprinklers that use 
metallic fusible elements, corrosion may adversely affect activation 
temperatures.
    CPSC's investigation into electrical and fire safety issues 
includes a two-part engineering component test program. Initially, a 
metallurgical analysis of various components collected from affected 
residences will be carried out. In addition, electrical/gas components 
and fire safety devices from homes will be tested for integrity, 
functionality, and possible safety hazards. This analysis will 
characterize the type and extent of any damage.
    The second track of this test program exposes new components to 
elevated levels of gases that are identified in the drywall chamber 
tests to simulate accelerated aging. Our engineers will compare the 
aged samples with the samples collected from the homes.
    It is critical that these interrelated elements of the test program 
coordinated by CPSC's technical staff be conducted with thoroughness 
and precision so that we can correctly identify the specific cause of 
the reported health symptoms and corrosion and develop an appropriate 
remedy for consumers.
    Additionally, our findings may be needed to support the agency in 
the event that we go to court to force a corrective action. The CPSC 
does not have the authority to order a company to conduct a recall 
without a trial, and we do not want to jeopardize any potential remedy 
for homeowners by having inadequate scientific proof to support and 
advance a possible court case.
    In addition to CPSC's technical work that I have discussed, agency 
staff has also been in contact with our counterpart agency in China, 
the Administration for Quality Supervision and Inspection and 
Quarantine (AQSIQ). AQSIQ has initiated an investigation and brought 
the Chinese Ministry of Commerce into the case, and we have a 
continuing exchange of information underway. Additionally, the CPSC has 
accepted AQSIQ's offer to send an expert team to the United States, and 
we plan to have a CPSC investigative team travel to China.
    Before closing, I would also like to refer you to the website that 
the CPSC has established--www.cpsc.gov/drywall--to report on our 
research and investigation into drywall and to provide updates and 
answers to your constituents' questions. The website includes important 
advice and information for your constituents who are experiencing 
health symptoms or mechanical and electrical degradation.
    Mr. Chairman, the Commission recognizes the severity of this 
problem, and resources from throughout our agency are being redirected 
to support this effort. We are working diligently to come up with the 
answers that we need to address this challenge in a comprehensive way 
that provides the fullest protection for your constituents.
    I appreciated the opportunity earlier this month to join other CPSC 
and EPA staff here in this room for our Congressional staff briefing on 
the drywall problem, and I am pleased to have the opportunity to be 
here again today to answer your questions.
                                 ______
                                 
 Prepared Statement of Michael McGeehin, Ph.D., Director, Division of 
     Environmental Hazards and Health Effects, National Center for 
   Environmental Health, Centers for Disease Control and Prevention, 
              U.S. Department of Health and Human Services
    Good morning Chairman Pryor, Senator Wicker, Senator Nelson, and 
other distinguished Members of the Committee. Thank you for the 
opportunity to be here today. I am Dr. Michael McGeehin, Director of 
the Centers for Disease Control and Prevention's (CDC's) Division of 
Environmental Hazards and Health Effects within the National Center for 
Environmental Health (NCEH).
    The Centers for Disease Control and Prevention/Agency for Toxic 
Substances and Disease Registry (CDC/ATSDR) recognizes the serious 
concerns that residents of Florida, Louisiana, and other affected 
states have regarding certain drywall manufactured in China and 
imported to the United States that has been used in construction and 
renovation of homes. My testimony today will focus on three aspects of 
CDC's ongoing support of the response to emerging concerns regarding 
this issue:

  <bullet> CDC's role in the coordinated Federal response to Chinese 
        manufactured drywall.

  <bullet> CDC's approach to understanding the possible human health 
        effects of exposure to potential environmental hazards.

  <bullet> CDC's development of recommended public health action.
CDC's Role in the Coordinated Federal Response to Chinese Manufactured 
        Drywall
    The Centers for Disease Control and Prevention/Agency for Toxic 
Substances and Disease Registry (CDC/ATSDR) is providing public health 
expertise in support of the Consumer Product Safety Commission's 
(CPSC's) leadership of the Federal response to concerns regarding 
Chinese manufactured drywall. As part of this response, CDC/ATSDR is 
collaborating with the CPSC, U.S. Environmental Protection Agency 
(EPA), the Florida Department of Health (FLDOH), the Louisiana 
Department of Health and Hospitals, and others to determine any 
possible health implications from living in a home where drywall 
imported from China exists and, most importantly, to be able to provide 
information for residents who may be adversely affected by these 
exposures.
    Critical to the response will be continued cooperation among 
involved agencies and use of existing resources to develop and 
implement the appropriate response strategy. CDC/ATSDR participated in 
a meeting on April 14, 2009, with CPSC, EPA, and other agencies to 
define appropriate roles for each agency and to define the next steps 
to drive the health and safety response.
    CDC/ATSDR has utilized its extensive network of contacts with state 
health and environmental agencies during weekly conference calls among 
the involved Federal and state agencies to help ensure that current and 
accurate information and approaches are rapidly shared, and to assist 
with coordination among the involved agencies and groups. In addition, 
CDC/ATSDR is providing technical input to the EPA and CPSC indoor and 
outdoor air sampling plans to ensure results can be interpreted for 
public health purposes.
    CDC's National Institute for Occupational Safety and Health (NIOSH) 
is also providing industrial hygiene expertise to the coordinated 
Federal response. NIOSH is preparing to conduct a health hazard 
evaluation and working with the Florida Department of Health and a home 
builder, to evaluate potential health hazards and make any needed 
recommendations to protect persons involved in drywall removal.
    Shortly after receiving a January 2009 request for assistance from 
the State of Florida, CDC/ATSDR established regular communication with 
the Florida Department of Health. We continue to expand our technical 
assistance to include other state health departments. For example, we 
are working with the states to create fact sheets for the public about 
imported drywall. We are also developing a fact sheet for health care 
providers who may be evaluating patients living in homes with Chinese 
manufactured drywall. The Florida Department of Health, Louisiana 
Department of Health and Hospitals, and other state health departments 
and poison control centers will distribute the educational material. It 
will also be available on the CDC/ATSDR website.
CDC's Approach to Understanding the Possible Human Health Effects of 
        Exposure to Potential Environmental Hazards
    The first step in assessing a possible link between an 
environmental contaminant and health outcomes is to determine the 
nature of the exposure accurately. The air and material sampling that 
CPSC and EPA are conducting is critical in moving us toward a better 
understanding of who is exposed to what contaminants and at what 
levels. Once we know the exposure, we will be able to more accurately 
evaluate the strength of possible links to human health. We will be 
meeting next week with Florida Department of Health staff to discuss 
further the options for addressing the health concerns associated with 
Chinese manufactured drywall.
Determination of Recommended Public Health Action
    CDC will collaborate with the other Federal agencies and with the 
states in driving a rapid, coordinated, appropriate, and effective 
public health response. We are likely to continue to be involved with a 
range of activities, including defining the type and extent of the 
hazard, educating the public and various health and environmental 
professionals about the potential hazard and how to avoid it, and 
working with partners (including regulatory agencies) to develop 
appropriate policy responses.
    If we determine that there are health threatening exposures in 
homes, we will work with all the agencies to recommend the appropriate 
response strategy. Actions now underway to define the type and extent 
of the exposure are an essential first step.
Conclusion
    In conclusion, CDC/ATSDR recognizes the urgency of this issue and 
is committed to working with Florida, Louisiana, and other affected 
states. Furthermore, we will continue to contribute to the overall 
Federal response consistent with our expertise and mandate.
    Thank you for the opportunity to present this information to you 
today. I would be happy to answer any questions.
                                 ______
                                 
 Prepared Statement of Elizabeth Southerland, Acting Deputy Director, 
      Office of Superfund Remediation and Technology Innovation, 
                  U.S. Environmental Protection Agency
    Mr. Chairman and members of the Subcommittee, my name is Elizabeth 
Southerland. I am the Acting Deputy Director of the U.S. Environmental 
Protection Agency's (EPA's) Office of Superfund Remediation and 
Technology Innovation. Thank you for the opportunity to testify on 
EPA's role in Federal agency efforts to address issues associated with 
suspect Chinese drywall.
    The Consumer Product Safety Commission (CPSC) is the lead Federal 
agency regarding the issue of suspect Chinese drywall. EPA is now 
working with CPSC, the Department of Health and Human Services' Centers 
for Disease Control and Prevention (CDC) and the Agency for Toxic 
Substances and Disease Registry (ATSDR), the Florida Department of 
Health, and other state and Federal agencies to help determine what 
health and environmental risks, if any, may be posed by suspect Chinese 
drywall.
    At the request of ATSDR, EPA's Environmental Response Team (ERT) in 
Edison, New Jersey is assisting Federal efforts by undertaking analysis 
of the chemical composition of samples of suspect Chinese drywall. ERT 
analyzed two samples of Chinese drywall product from Florida homes 
provided by ATSDR and four drywall product samples manufactured in the 
United States.
    EPA completed its initial content analysis of the drywall samples 
including the two samples of suspect Chinese drywall taken from Florida 
homes and further analysis is expected. It is important to note that 
the analysis included a very small sample size, and the results of this 
testing may not be representative of all drywall products.
    Beyond this initial analysis, EPA is chairing a Federal and state 
technical group to develop protocols for home indoor air sampling to 
characterize the gaseous emissions that may be causing indoor air 
problems under varying temperature and humidity. This effort consists 
of two phases. During Phase I, EPA may analyze other drywall samples, 
conduct literature searches, identify chemical(s) and sulfur gases of 
potential concern that may be responsible for observed odors, and 
develop/modify analytical methods for air monitoring.
    During Phase II, three houses in Florida and three houses in 
Louisiana will be selected to field test the validity of the draft 
protocol in consultation with CPSC, CDC, and the respective states. 
This activity will also help refine the list of suspected causative 
agents. Phase II is expected to begin during the first week of June.
    CPSC is currently designing a series of chamber tests to evaluate 
``off-gases'' derived when drywall samples from a variety of U.S. and 
Chinese manufacturers are exposed to varying temperature and humidity. 
The results obtained from EPA Phase I and II activities will be used to 
prepare a protocol for CPSC and states to use when conducting indoor 
air sampling of homes in Florida, Louisiana and other states throughout 
the Nation. EPA expects a joint Federal-state agreed upon air 
monitoring protocol to be completed by the end of June 2009.
    Once the joint Federal-state agreed upon air monitoring protocol is 
established, CPSC may utilize a contractor to conduct large scale home 
testing in accordance with this protocol. CDC/ATSDR is providing 
recommendations to EPA and CPSC to ensure that results can be 
interpreted for public health purposes.
    EPA will continue to support Federal and state efforts to evaluate 
suspect Chinese drywall and help our Federal, state, and local partners 
determine what actions will be necessary to ensure protection of human 
health and the environment. Thank you again for inviting me to testify 
here today, and I look forward to answering any questions that you 
might have.
                                 ______
                                 
      Prepared Statement of Dr. David Krause, State Toxicologist, 
                      Florida Department of Health
Florida DOH Activities Related to Complaints from the Public of Copper 
        Corrosion in Homes Associated with the Presence of Drywall 
        Imported from China
    In August 2008, County Health Department and Florida Department of 
Health staff began receiving reports of sulfur-like odors in relatively 
new homes built since 2004. Initial reports were limited to homes in 
south Florida counties. Inspections by County Health Department indoor 
air program staff revealed these homes also exhibited severe corrosion 
of copper on air conditioning coils that eventually caused the air 
conditioning systems to fail due to the loss of Freon. A connection 
between the sulfur odors, copper corrosion, and Chinese Made Drywall 
was reported by some builders and their consultants. This eventually 
led to discussions between Florida Department of Health (FL DOH) staff 
and a handful of environmental consultants who were studying the 
problem. Throughout September and October of 2008 DOH staff learned of 
studies by private consultants representing a builder, a drywall 
manufacture and a handful of homeowners.
    As the number of citizen complaints and effected counties increased 
FL DOH initiated steps to register complaints in a systematic manner; 
solicit information from consultants and builders; request assistance 
from technical specialists in Federal Agencies, primarily the Consumer 
Product Safety Commission (CPSC), U.S. Environmental Protection Agency 
(EPA), and Centers for Disease Control and Prevention (CDC)/ Agency for 
Toxic Substances and Disease Registry (ATSDR); We conducted media 
interviews in response to requests from local and national news outlets 
and sought funding to conduct some preliminary site visits and 
laboratory tests. In late January 2009 Mr. Tim Wallace and I performed 
our first site assessment of 12 homes in 6 different south Florida 
counties.
    During our preliminary assessment of these homes we collected 
samples of gypsum drywall from homes experiencing copper corrosion for 
material testing and analysis, but did not collect any air samples to 
measure chemical concentrations. These preliminary site visits revealed 
that the ``sulfur-like'' odors were often not present in homes and, 
when present, did not resemble the ``rotten-egg odor'' described in 
some reports. The great variability of odors experienced in effected 
homes suggests that odor is a poor predictor of this problem. However 
black corrosion of copper on air conditioning coils and other Freon-
carrying lines was a consistent visual indicator in homes with this 
problem. Further inspection revealed wide spread corrosion of exposed 
copper electrical wires in all affected homes, with some homeowners 
reporting electrical appliance and light switch failures. Some homes 
had natural gas furnaces with brass and other metal fittings that could 
suffer from accelerated corrosion.
    Information gathered during these preliminary assessments enabled 
FL DOH to develop a Case Definition for homes experiencing copper 
corrosion associated with the use of Chinese made drywall. Using the 
case definition FL DOH has published on its website a ``self assessment 
guide'' that enables homeowners and inspectors to quickly determine if 
a home is affected by performing a thorough visual inspection and 
asking a few specific questions, without chemical testing.
    A review of air sampling data provided by Environ International, a 
private consulting firm hired by Lennar Homes, did not reveal levels of 
sulfur-containing gasses that exceeded any published health thresholds 
or that posed a health hazard to building occupants. However, 
limitations in the data suggested the need for a more robust assessment 
of occupant exposures to corrosive gasses and possible by-products of 
chemical interactions they may have with other building materials or 
household chemicals.
    Florida DOH has engaged other state agencies to address the 
potential fire hazards related to corrosion of electrical wiring, 
safety equipment, and gas service fittings; the remediation of effected 
homes; drywall disposal; and consumer protection from unscrupulous 
groups seeking to defraud homeowners with unproven and potentially 
dangerous ``overnight remedies.'' These efforts are being orchestrated 
through an Incident Management Team currently lead by the Florida 
Department of Health.
    Participation of our Federal partner agencies has so far consisted 
of analyzing two samples of drywall by an EPA laboratory, a preliminary 
site visit by a technical team from the Consumer Products Safety 
Commission (CPSC) on March 26, 2009, and a site visit by a team of 
technical specialists from U.S. EPA and ATSDR on May 4, 2009. A 
multitude of conference calls and planning meetings have occurred and 
more are scheduled with U.S. EPA and ATSDR, however communications with 
the CPSC have been limited.
    Efforts are currently underway to perform indoor air testing in 
effected homes to quantify the concentrations of corrosive gasses 
emitted from problematic drywall, and other potential by-products of 
chemical reactions with building materials, paints, or household 
chemicals. Testing in Florida homes is proceeding in three phases, each 
necessary to build the foundation for interpreting the volumes of data 
that will be generated in later studies. The type of testing being used 
to measure the highly reactive reduced sulfur gasses emitted from 
Chinese made drywall is technically challenging, requiring strict 
protocols to ensure valid and reproducible results. In order to produce 
data with the sensitivity and accuracy needed to assess human health 
risks, labor intensive sample collection and laboratory analysis is 
required because direct reading instruments are not readily available 
for many of the gasses being tested. The three phased study begins with 
a assessment and validation of available test methods (Phase I), an in-
depth assessment of chemicals present and their concentrations in a 
small number of homes (Phase II), and finally a focused 
characterization of occupant exposures to chemicals of concern in a 
wide population of effected homes (Phase III).
    Initial hesitation by Federal agencies to fully engage the 
necessary resources is transforming into a more active partnership. 
Letters from Governor Crist on April 3 and 29 to the heads of the EPA, 
CDC, and CPSC, in addition to inquiries from Senator Nelson have 
prompted clear commitments from the U.S. EPA and the CPSC (See attached 
correspondence). However a commitment to conduct the testing necessary 
to determine if a health hazard exists has been unclear and falls short 
in some ways. Acting on the request of Florida DOH, ATSDR, and the 
CPSC, the U.S. EPA has committed to testing 2 affected homes and 1 
control home in Florida. This testing is scheduled to begin during the 
first week of June. Florida DOH will perform parallel testing of a 
third affected home and control home, demonstrating our commitment to 
safeguarding the health of Floridians, by increasing the available data 
from these early efforts.
    While the results anticipated from testing of three affected homes 
are absolutely necessary to develop the scientific foundation for later 
evaluations, they cannot be expected to deliver all of the information 
necessary to conclude if a public health hazard exists in the vast 
number of homes where this product may have been installed.
    At least five major areas of investigation should proceed in order 
to understand the impacts on public health and safety. First we must 
validate the estimated amount of Chinese made drywall imported during 
the period in question. How these estimates were derived are uncertain, 
and could grossly over or under estimate the number of potentially 
effected homes. Second, a wide scoping study of homes throughout 
Florida and other states to quantify the chemical exposures that 
occupants experience in homes with problematic drywall and corrosion. 
We understand that the CPSC is commissioning such a study, however FL 
DOH requests the ability to provide input on the study design and 
implementation. The number of homes and what testing protocols will be 
used are critical aspects of such a study and greatly impact the 
relevance of its findings. Third, determine how the corrosion of 
electrical wiring, appliances, and gas fittings affect the risk of fire 
and electrical shock. Fourth, an assessment of exposure to the 
chemicals present in affected homes and what effects they may have on 
the long term health of families living in these homes. Due to the 
sparse chronic toxicity data available on some of the chemicals emitted 
from problematic drywall, a direct answer to the question of chronic 
health risks may be unavailable. Meetings with epidemiologists from the 
Centers for Disease Control-National Centers for Environmental Health 
(CDC-NCEH) are scheduled with FL DOH to consider the need and utility 
of a registry and/or cohort study to follow exposed and unexposed 
populations. Finally, a comprehensive program to develop evidence-based 
recommendations for remediation and repair of effected homes is 
necessary to ensure the long-term health and safety of occupants.
    The multitude of policy decision necessary to address questions of 
liability, insurance, resale of homes, and the implication these homes 
will have on mortgage holders are beyond the authority and expertise of 
public health officials. However, these are commonly asked questions I 
have received from effected homeowners. It is likely that the need to 
develop public policy related to these homes will outpace the results 
of scientific studies.
    Florida requests the three following commitments:

        1. Funding and resources to enable FL DOH and its Federal 
        partners to move forward with efforts to assess the scope and 
        severity of this issue and ascertain if there are threats to 
        public health associated with the use of Chinese made drywall.

        2. Commitment from the CPSC and U.S. EPA to integrate FL DOH 
        and other relevant state agencies in the development of 
        assessment strategies, review of resulting data, and 
        development of public health and safety messages.

        3. Funding and resources for CDC-NCEH to perform appropriate 
        long term follow-up of exposed families to address questions of 
        chronic health concerns.

                Summary of Agency Activities in Florida
    The following description of agency objectives and activities has 
been provided to demonstrate the broad spectrum of issues under 
consideration by the State of Florida. This summary reflects the 
respective agencies' activities and priorities as of Monday, May 18, 
2009. Input from the Florida Department of Environmental Protection 
(FDEP) was not available by the deadline to submit written testimony 
for this hearing by the Senate Committee on Commerce, Science, and 
Transportation.
DOH Objectives
        1. Determine if volatiles (reduced sulfur gases and volatile 
        organic compounds) pose a health hazard to occupants (w ATSDR).

        2. Assess the need for possible long-term epidemiological study 
        (w CDC).

        3. Occupational health issues of mitigation personnel (w OSHA/
        NIOSH)
Recently Completed Tasks
  <bullet> DOH:

    --Conducted Operation Drywall state partner's meeting Wednesday 
            afternoon (5-13-09)

    --Provided drywall samples to State Fire Marshal for testing 
            Chinese drywall effects on fire safety of electrical 
            outlets and smoke and carbon dioxide detectors

    --Submitted samples for DEP (UF) analysis for presence/absence of 
            asbestos in drywall

    --Extended invitation for Federal partners' participation in 
            Operation Drywall State Partners conference calls Fridays 
            at 9 a.m.

    --Working with EPA, ATSDR, and CPSC to develop testing protocol for 
            Phase II and
DOH Future Actions
  <bullet> DOH:

    --Develop coordinated integrated Incident Action Plan, IAP (ongoing 
            weekly)

    --CDC/NCEH site visit in May (29th ?) to consider potential cohort 
            study and registry

  Communications

    --Develop a graphical timeline projecting milestones into the 
            future

    --Develop press/media plan for June sampling in Lee County

    --Request assistance with steps 3A and 5 of DOH's self-assessment, 
            re: hiring professionals with DCA/DBPR to provide 
            appropriate guidelines to professionals

    --Media Briefing TBA for end of May 2009 (week of May 25?)

    --Consider Operation Drywall state website on myflorida.com to link 
            unified command agencies. Link to building code 
            professional guidance provided by DCA

  Testing

    --Identify and coordinate a location in Lee County for EPA mobile 
            lab (end of May through June)

    --Chris Dowell, NIOSH representative, has contacted Lennar to 
            arrange for NIOSH representatives to visit a few 
            remediation projects and initiate some guidance on 
            remediation for Chinese Drywall. Coordination through Dr. 
            David Krause's office and the CHDs has been requested 
            before their arrival for on-site visits [David]

    --Submit DOH and EPA ERT test results to Department of 
            Agricultures' Environmental Services for possible presence 
            and impact of fungicide

    --Finalize Phase II testing protocol & Quality Assurance Plan (QAP) 
            to define testing and data handling procedures (w/ EPA, 
            CPSC, ATSDR)

    --Develop MOU with CPSC for their intended testing and to define 
            each agencies' roles and responsibilities regarding 
            interpretation and release of findings.

    --3 Phase Testing Strategy:

                Phase I--Scoping and Validation study to evaluate 
                available test methods. Preliminary data should be 
                available May 21, 2009 re: indoor and outdoor reduced 
                sulfide gas and VOC testing methods
                Phase II DOH, U.S. EPA-ERT mobile lab will arrive the 
                last week in May 2009 sampling 3 homes in June. Testing 
                will be 24 hours in severely affected homes, for 
                hydrogen sulfide, and other sulfur gas emissions from 
                drywall and from chemical reactions with building 
                materials and household chemicals. Preliminary data at 
                end of June to be used to develop protocols for Phase 
                III testing.
                Phase III: To be completed by CPSC ? (DOH's role is 
                uncertain).

    Target Date of August 31, 2009 for delivery of Public Health 
Message and publication of Interim Guidance for . . .

        1. Testing and Assessment;

        2. Remediation and;

        3. Disposal of drywall from homes.
_______________________________________________________________________
State Fire Marshal
Agency Representative: Julius Halas, Director, Division of State Fire 
            Marshal
Phone: (850) 413-3600
E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e340b12170b0d50361f121f0d3e13071812110c171a1f1d1811501d1113">[email&#160;protected]</a>
Web: http://www.fldfs.com/SFM
A Report of Activities by the State of Florida, Department of Financial 
        Services, Division of State Fire Marshal as Regards Effects of 
        Tainted Drywall in relation to Fire Investigations
    The Division of State Fire Marshal led by Director Julius Halas and 
representing the Honorable Alex Sink, Chief Financial Officer and State 
Fire Marshal of the State of Florida provide this synopsis of 
activities to the U.S. Senate hearing set for Thursday, May 21, 2009:
    To date the Division of State Fire Marshal has reviewed the current 
known data on the suspect drywall as well as the reports of corrosion 
of electrical connections and other metallic surfaces.
    The Bureau of Fire and Arson Investigation has advised field 
investigation personnel to be aware of the issue, to familiarize 
themselves with the indicators of the use of the tainted product, and 
in the course of their normal investigations, to document any found 
indicators and inform their superiors via Chain-of Command. If 
instances are found, the information will be transmitted to the Unified 
Command so that the appropriate agency can seek to obtain any wiring or 
appliances for forensic engineering evaluations by the appropriate 
State, Federal, or Contract partner.
    The Bureau of Forensic Fire and Explosives Analysis is constructing 
test chambers made of new untainted materials and materials from homes 
suspected of containing tainted drywall. These chambers will be 
equipped with smoke detectors (2), a carbon monoxide detector, 
electrical wiring, a sprinkler head, and other materials. Due to their 
size and construction, the chambers will concentrate the vapors emitted 
by the drywall. The concentrated vapor's effects on these various 
materials and systems can be documented. Periodic samples for chemical 
analysis will be withdrawn. At the end of the 90 day testing period, an 
engineering evaluation of the effect of the concentrated vapors on the 
system and whether they would suffer failure or present an increase in 
fire risk will be performed. During the test period the information and 
data will be funneled to the Consumer Products Safety Commission and 
other State and Federal partners in this project. Should a fire risk be 
demonstrated by the data and testing, an advisory will be prepared for 
field investigators and inspectors discussing indicators and methods 
for assessment.
    A site visit coordinated by the State of Florida Department of 
Health may be attended by representatives of the Division of State Fire 
Marshal, but is dependent on availability of personnel and travel 
funds.
    In order to see this work to its completion, the Division of State 
Fire Marshal is investing significant hours by its personnel away from 
their normal tasks. The Division is also purchasing the materials and 
supplies for the chambers and testing. Existing monitoring equipment 
will be used. Travel funds for any site visits will have to be diverted 
from other projects.
    Should funding by the Federal Government become available, the 
supplemental funding to aid in the completion of our efforts is 
estimated at:
     Overtime funds for personnel for the next 90 days         $12,500.00
    Contract funds for engineering evaluations of materials   $10,000.00
    Travel Funds for personnel to assess suspected sites      $ 6,000.00
    Materials for construction of test chambers and the       $ 1,500.00
     components in them
    Upgrade to testing instruments and monitoring devices     $12,000.00
                                                            ------------
      Total                                                   $42,000.00
                                                            ============
_______________________________________________________________________
Office of the Attorney General of Florida
Agency Representative: Michael Palecki, Chief, Bureau of Economic 
            Crimes
Phone: 850-414-3634
E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="511c38323930343d7f01303d34323a38113c28373d3e233835303d3436303d7f323e3c">[email&#160;protected]</a>
Web: http://myfloridalegal.com

  <bullet> We have met with builders, suppliers and one of the major 
        manufacturers, Knauf. Our fact- finding efforts continue. We 
        are in the process of requesting or subpoenaing the records of 
        entities in the supply chain.

  <bullet> We have discussed the possibility of a universal settlement 
        fund with Knauf, suppliers and builders. These discussions 
        continue.

  <bullet> We have been receiving and documenting consumer complaints 
        and identifying victims. We have conducted field investigations 
        of affected homes.

  <bullet> We are gathering evidence and preparing for possible legal 
        action against parties involved in the manufacture, import and 
        distribution.

  <bullet> We are investigating reports of scams against home owners. 
        These include bogus test kits, home inspections by ``experts'' 
        with no qualifications, sale of sprays and applications that do 
        nothing to solve the corrosion problem and sale of ozone 
        generators that may actually accelerate the corrosive process. 
        We have issued a consumer alert, widely reported in Florida 
        media, to warn consumers.

  <bullet> We are preparing to meet with persons who claim to have 
        developed technology to remediate the corrosive properties of 
        tainted drywall without the need to remove it from the home. 
        They will be asked to present their methodologies for study and 
        review by scientists with our task force.

  <bullet> We have met with homebuilders and one supplier that have 
        been remediating homes by removing and replacing the tainted 
        drywall. We have scheduled a meeting with this group to discuss 
        their drywall removal experiences, methodologies, costs, and 
        best practices.
_______________________________________________________________________
Department of Business and Professional Regulation
Agency Representative: G. W. Harrell, Executive Director, Construction 
            Industry Licensing Board
Phone: 850-487-9516
E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7433235a3c15060611181834101604065a07001500115a12185a0107">[email&#160;protected]</a>
Web: http://myflorida.com/dbpr

  <bullet> The DBPR has received less than ten complaints against 
        construction contractors for the installation of defective 
        (Chinese) drywall. None of these complaints have contained 
        sufficient evidence to warrant contractor discipline, as there 
        is no indication that the contractors knew, or should have 
        known, the drywall was defective.

  <bullet> The DBPR has posted information on the department's website 
        regarding licensure requirements and the submission of 
        complaints for defective drywall installation. The DBPR has 
        also posted a link to the Department of Health drywall 
        information on the department's website.

  <bullet> The DBPR has worked with the Department of Community Affairs 
        and other state agencies to develop remediation guidelines for 
        the identification and removal of defective drywall. The DBPR 
        is prepared to assist with the electronic dissemination of the 
        remediation guidelines to construction contractors and the 
        public when completed.

  <bullet> The DBPR has assigned the Executive Director of the 
        Construction Industry Licensing Board and the Deputy Director 
        of the Division of Regulation to represent the department on 
        the Department of Health's ``Operation Drywall'' incident 
        response team.
_______________________________________________________________________
Department of Community Affairs
Agency Representative: Sherri Coven, Director of Intergovernmental and 
            Public Affairs
Phone: (850) 922-1600
E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5003383522397e133f26353e103433317e23243124357e363c7e2523">[email&#160;protected]</a>
Web: http://www.dca.state.fl.us

    Long term objective is to improve the Florida Building Code 
provisions that currently cover the performance testing and evaluation 
of gypsum board materials so that this problem does not happen again.
    Resource(s)/information needed to carry-out this objective:

        1. Conclusive determination the gypsum elements/substances 
        caused the problem.

        2. Collaboration and coordination between the impacted states, 
        model building code organization (i.e., International Code 
        Council ``ICC''), Standard promulgation entities (i.e., ASTM 
        International), and Federal Government (EPA) to better 
        determine how best to revise the current codes and standards 
        with regard to gypsum board materials. The State of Florida/
        Florida Department of Community Affairs/Florida Building 
        Commission will be a partner in this effort.

        3. Repository for research and information accumulated from all 
        sources, i.e., states, Federal, ICC, ASTM, etc.

        4. Resource will be needed for Items 2 and 3.
      
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                                 ______
                                 
                                                      April 3, 2009
Hon. Lisa Jackson,
Administrator,
Environmental Protection Agency,
Ariel Rios Building
Washington, DC.

Hon. Richard E. Besser, M.D.,
Acting Director,
Centers for Disease Control and Prevention,
Atlanta, GA.

Dear Administrator Jackson and Director Besser:

    On behalf of the State of Florida, I am requesting assistance from 
the United States Environmental Protection Agency and the Centers for 
Disease Control and Prevention to develop and implement chemical 
testing strategies in homes that are experiencing severe copper 
corrosion associated with Chinese made drywall. The resources housed in 
the Environmental Response Teams (ERT) and Industrial Hygienists from 
the Agency for Toxic Substances and Disease Registry (ATSDR) capable of 
evaluating the health hazards possibly associated with corrosive gasses 
emitted from Chinese made drywall will enable a timely assessment of 
exposure and public health implications. Media reports on the amount of 
drywall imported from China during the recent housing boom suggest that 
many Florida homes may be affected.
    In late January 2009, the Florida Department of Health (DOH) State 
Toxicologist and indoor Air Programs Coordinator performed a 
preliminary assessment of 12 homes throughout south Florida, where bulk 
samples of drywall were collected for laboratory analysis. Laboratory 
analysis of these materials confirmed many of the findings reported by 
private consultants, including the presence of strontium sulfide and 
elemental sulfur in drywall from China. Tests also confirmed that 
drywall from problem homes generated hydrogen sulfide, carbonyl 
sulfide, and carbon disulfide when exposed to high relative humidity or 
heat. All of these compounds are capable of causing the type of 
corrosion identified in the complaint homes, and at sufficient 
concentrations could pose a health hazard.
    These initial findings suggest that indoor air samples to determine 
occupant exposure to the corrosive gasses should be performed. Health 
related complaints from occupants living in these homes are sporadic 
and DOH is attempting to gather more health related information. The 
health hazards posed by exposure to chemicals in these homes are 
currently unclear, but we believe that a thorough and robust exposure 
assessment will enable DOH to determine if a health advisory is 
warranted.
    The Consumer Product Safety Commission (CPSC) has recently 
initiated an investigation focused on the suspected drywall and 
secondary damage it may be causing to electrical wiring, safety 
equipment, and natural gas connections. However, the resources and 
testing expertise necessary to evaluate occupant exposure in problem 
homes is not available from the CPSC.
    Until mid-March 2009, the problems associated with Chinese drywall 
had only been documented in Florida to any appreciable degree. Recent 
reports from Louisiana, Virginia, and North Carolina have demonstrated 
this is a multi-state issue directly connected with the importation of 
a foreign-made product.
    Any assistance you may be able to provide in accessing Federal 
resources to assess human health exposures in these homes will benefit 
the Floridians adversely impacted by this extraordinary event.
    Our point of contact for testing related to this project is our 
State Toxicologist:
David Krause, Ph.D., MSPH, CIH
Bureau of Environmental Public Health Medicine
Division of Environmental Health
Florida Department of Health
4052 Bald Cypress Way Bin A08
Tallahassee, FL 32399-1712
    We lock forward to working with you and your staff in the coming 
days.
            Sincerely,
                                             Charlie Crist,
                                                          Governor,
                                                      State of Florida.
cc: Surgeon General Ana M. Viamonte Ros
Florida Congressional Delegation
                                 ______
                                 
                                                     April 29, 2009
Hon. Richard E. Besser, M.D.,
Acting Director,
Centers for Disease Control & Prevention,
Atlanta, GA.

Hon. Lisa Jackson,
Administrator,
Environmental Protection Agency,
Washington, DC.

Nancy Nord,
Acting Chairman,
U.S. Consumer Product Safety Commission,
Bethesda, MD.

Dear Director Besser, Administrator Jackson, and Chairman Nord:

    On behalf of the State of Florida, thank you for your ongoing 
efforts to assist our state regarding Chinese drywall. I am again 
requesting assistance from our Federal partner agencies in response to 
the emerging concerns regarding homes which are exhibiting severe 
corrosion of copper and other metals associated with Chinese 
manufactured drywall.
    We request that parallel State-Federal efforts, rather than the 
more traditional tandem approach, be undertaken to evaluate the 
situation and provide guidance to citizens. We ask that the Federal 
agencies work with Florida to conduct parallel research in the 
following areas:

        1. Materials testing to identify underlying sources of 
        corrosive gas emissions and odors, and those which may have 
        adverse impacts on human health.

        2. Laboratory chamber testing to determine the emission rates 
        of corrosive gases and the impact of environmental conditions 
        and construction practices on the emission of gases from 
        Chinese manufactured drywall and resulting copper corrosion.

        3. In-home testing to assess occupant exposures to corrosive 
        gases and possible secondary by-products due to the interaction 
        of drywall emissions with other building materials, adhesives, 
        coatings, paints, insulation, flame retardants, or household 
        chemicals.

        4. Remediation of homes and establishment of the standard of 
        care needed to fully address and repair the secondary damage 
        caused by corrosive emissions from Chinese manufactured 
        drywall. A cooperative assessment of on-going remediation 
        efforts being carried out by builders and homeowners may allow 
        government agencies to identify the key factors necessary for a 
        successful remediation and repair of impacted homes.

    Parallel research efforts to develop guidance and eventually a 
``standard of care'' for testing potentially affected homes and 
remediation of those determined to be affected has some understandable 
disadvantages. A multi-prong effort may be more expensive and may 
result in some redundant testing and doubling back on research paths. 
However, the time savings likely to be achieved, along with the synergy 
of such a multidisciplinary approach, can be anticipated to deliver 
important findings and useful guidance to homeowners and builders in a 
significantly shorter timeframe. If research on the remediation of 
homes does not begin until a full understanding is achieved of the 
material chemistry, all of the contributing environmental conditions, 
and resulting occupant exposures, a scientifically-based evaluation of 
remediation protocols may be significantly delayed. If this issue was 
not adversely impacting Florida's citizens, a more traditional 
iterative study would certainly be advocated. However, I am urging a 
more productive and rapid research effort be implemented to achieve 
timely results that can deliver relevant information to affected 
homeowners and builders.
    I am also seeking a response to several inquiries made by the 
Florida Department of Health (DOH) to your agencies. The pending 
requests include:

  <bullet> Requests to the Consumer Products Safety Commission:

    1. Guidance for inspections needed to evaluate the safety of 
            compromised (corroded) electrical systems in homes 
            experiencing copper corrosion from Chinese manufactured 
            drywall (i.e., for private electricians, electrical 
            engineers, and others performing evaluations).

    2. Guidance for inspections needed to evaluate the safety of 
            compromised (corroded) natural gas systems in homes 
            experiencing copper corrosion from Chinese manufactured 
            drywall (i.e., electricians, electrical engineers, and 
            others performing evaluations).

    3. Findings from the initial evaluation of corroded electrical and 
            natural gas systems by CPSC's staff on March 26-27, 2009.

  <bullet> Requests to the Environmental Protection Agency:

    1. Confirmation of tentatively identified compounds in Chinese 
            manufactured drywall materials reported in the EPA's April 
            1, 2009 analysis.

    2. Broad technical assistance from the Environmental Response Team 
            to develop the scope of a study, including testing and 
            analysis protocols, for evaluating occupant exposures to 
            corrosive gases and secondary by-products in homes with 
            copper corrosion associated with Chinese manufactured 
            drywall. Of greatest need are technical and field personnel 
            to conduct testing of select homes experiencing copper 
            corrosion from Chinese manufactured drywall, including 
            equipment and analysis needed to perform testing.

  <bullet> Request to the Centers for Disease Control and Prevention:

    1. Agency for Toxic Substances Disease Registry: Technical 
            assistance to prepare educational materials for physicians 
            who may be evaluating patients living in homes with Chinese 
            manufactured drywall,


    2. The National Institute for Occupational Safety and Health: A 
            Health Hazard Evaluation (HHE) to assess occupational 
            hazards related to remediation and abatement of homes with 
            Chinese manufactured drywall.

    In order to ensure the most effective communication, please provide 
the name, title and contact information for your Agency Point of 
Contact (POC) to serve as your Agency's representative for Florida's 
Operation Drywall Incident Management Team. Please send this 
information to Nancy Leiva, Unified Command, Situation Status Unit 
Leader, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f0be919e9389afddddbc95998691b0949f98de8384918495de969cde8583">[email&#160;protected]</a> or 850-245-4250.
    I appreciate the assistance as requested in an expedited manner. I 
look forward to hearing from you and working with you on this important 
matter.
            Sincerely,
                                             Charlie Crist,
                                                          Governor,
                                                      State of Florida.
                                 ______
                                 
                                                     April 29, 2009
Hon. Dave Aronberg,
Senate Office Building,
Tallahassee, FL.

Dear Dave:

    Thank you for your recent letter regarding the problems associated 
with Chinese manufactured drywall in Florida homes. Please be assured 
that I recognize the impact of this issue on Florida homeowners and 
have taken several steps toward addressing the situation.
    I have tasked the Florida Department of Health (DOH) with 
coordinating the statewide response on this issue. DOH is working 
closely with the Florida Department of Business and Professional 
Regulation, the Florida Department of Community Affairs, the Florida 
Department of Environmental Protection, the Florida Attorney General's 
Office, the Florida Department of Agriculture, and the Florida Division 
of Financial Services and has established a Chinese Drywall Unified 
Incident Command Team composed of representatives from these 
departments and offices.
    Importantly, DOH is engaging in additional testing of homes 
containing Chinese-manufactured drywall to identify potential health 
hazards. DOH has also prominently placed on its website information 
about Chinese-manufactured drywall (http://www.doh.state.fl.us/
environment/community/indoor-air/drywall.html). Among other things, on 
this site citizens can learn ways to determine whether their home may 
contain Chinese-manufactured drywall, the latest results of drywall 
testing, answers to frequently-asked questions, and how to file a 
consumer complaint if fraud in testing or remediation is suspected. In 
addition, in a few days the site will allow citizens to sign up to 
receive e-mail notifications of the latest news on this issue.
    I have also requested targeted Federal assistance from the 
Environmental Protection Agency, the Centers for Disease Control and 
Prevention, and the Consumer Products Safety Commission. Specialized 
resources within these entities would greatly assist Florida in 
assessing any potential health hazards and establishing best practices 
for remediation of affected homes. Please find enclosed copies of 
letters I sent to our Federal partners on April 3, 2009 and earlier 
today asking for assistance.
    We will continue to work with all diligence on this important issue 
and will keep you apprised of any new developments.
            Sincerely,
                                             Charlie Crist,
                                                          Governor,
                                                      State of Florida.
                                 ______
                                 
   Prepared Statement of Richard J. Kampf, Retired Federal Employee, 
                          Cape Coral, Florida
    Thank you, Chairman Pryor and members of the Committee for this 
opportunity to provide testimony to the Senate Subcommittee on Consumer 
Protection, Product Safety and Insurance. I would also like to express 
my personal appreciation to Senator Bill Nelson for his commitment to 
helping affected homeowners whose houses are contaminated by sulphur 
compounds emitted from Chinese drywall. I am convinced that these 
compounds are causing health and safety problems for my family and 
countless Americans.
    My wife Patricia and I are retired career Federal Employees and 
have been married for 35 years. We have two great children, Kristen, 
who resides in Philadelphia and Stephen who lives with us and attends 
High School in Ft. Myers. Our dream was to retire early, build our 
first ever new home in Florida, and share responsibility with my sister 
in caring for my 96-year-old Mother, Sophia.
High Expectations after Retirement
    After spending countless hours researching which home design and 
homebuilder we would prefer, we settled on a local Cape Coral builder, 
Aranda Homes., Inc. In July 2007, we finally moved into what we thought 
would be our dream home. Little did we know we would be embarking on a 
journey consisting of countless breakdowns of our air conditioning 
system, a number of computer equipment failures, and various family 
health problems.
    Beginning in July 2007, our air conditioning system failed fifteen 
(15) times in 1 year. Since we did not have air conditioning, we could 
not care for my mother and the full burden of caretaking fell to my 
sister and her husband, Carol and Delbert Cochran. During the many 
visits by the air conditioning company the unit was charged and 
recharged with R22 refrigerant, as many as ten (10) times, all of which 
leaked into the air ducts and throughout our home.
    Our air conditioning coil has been replaced four (4) times. The 
most recent coil was installed in December 2007. The manufacturer, 
Trane Inc., sent the coil to Aero-Marine Engineering, Inc., located in 
Texas, prior to installing it in our house. Aero-American Marine's 
literature indicates the coil is protected ``with Technicoat 10-2'', an 
anti-corrosion coil coating.
How We Found We Had A Problem
    With so many breakdowns of the air conditioning unit, we asked the 
manufacturer, Trane Inc., if we could purchase an extended warranty. 
They have never responded to that request. The only time we ever heard 
from Trane was on October 24, 2007, when the Fort Myers technical 
representative informed us that we likely had contaminated drywall 
imported from China installed in our home. The representative said 
other air conditioning manufacturers were experiencing similar 
breakdowns and they confirmed that the drywall combined with high 
humidity exacerbates the corrosion of the copper coils causing 
premature failure. We were devastated. Our first thought was, what 
about our health?
    We made many calls and wrote letters to our builder, Aranda Homes, 
Inc., asking for help. Their representative consistently pushed us off 
to the supplier of the drywall, Banner Supply Company in Fort Myers, 
Florida. Aranda's representative arranged for Banner Supply to inspect 
our home on October 27, 2007. Banner's representative (accompanied by a 
representative from Aranda Homes) confirmed that ``Knauf-Tianjin 
China,'' was embossed on the back side of the drywall. Banner's 
representative said, ``I can deliver 250 sheets of drywall in your 
driveway tomorrow.'' I declined because no offer was made to install 
it.
    We also made telephone calls to the Florida Health Department who 
referred us to the Sarasota County Health Department, who at the time 
was taking the lead on this emerging crisis. Mr. Robert Kollatte was 
very aware of the problem and informed us that the only remedy at this 
time would be complete removal of the drywall. Mr. Kollatte also said 
that other factors need to be addressed in the remediation, including 
removal of any corroded copper piping, electrical wiring and possibly 
other metals. He explained that the corrosion caused by sulphur, once 
started, continues even if the contaminated drywall is removed. Try to 
imagine how many products used in your daily lives contain copper? Mr. 
Kollatte also said the corrosion is not limited to just copper. Again, 
we thought, if it's doing this to copper and other metals, what's it 
doing to our lungs?
    We started looking through our home, and found mirrors turning 
black, electrical switches stopped working for no reason, our son's 
computer and game console both broke down three times and were finally 
replaced by the manufacturers under warranty.
Realizing Our Dreamhouse May Be Killing Us
    Nearly every day I have a nosebleed; some days they are not as 
severe as others, but none-the-less, I did not have them before moving 
into my home. Stuffy noses and raspy throats are commonplace in our 
household; there is not a night that goes by that I don't wake up 
worried that I may be harming my family by allowing them to stay in the 
house. My wife, Patti keeps vials of eye drops at her bedside because 
her eyelids become so dry that they are difficult to open if she wakes 
up during the night. My son, Stephen, who is very healthy and rarely 
sick, came down with a respiratory ailment recently. He lost 5 days of 
school and we made 2 visits to the physician in that same period. The 
doctor could not understand why he was not responding to the 
medication. Stephen was tested for mononucleosis and the flu, both 
which were negative. Finally after being bedridden for seven 
consecutive days he was able to return to his classes. But he continued 
to complain of weakness for at least a week or two afterward. He even 
took naps after school which we have never seen him do. I am convinced 
that the background sulphur contamination emitted from the drywall 
contributed to his lengthy recovery.
Aranda Homes, Inc., Response
    Feeling abandoned by our builder, we hired an attorney who filed a 
latent defect complaint against Aranda Homes, Inc., under Chapter 558 
of the Florida Statute. The 558 Notice claims that Aranda Homes, Inc. 
is responsible for installing defective drywall in our home and 
provided Aranda Homes 45 days to respond as to how they intended to 
remediate.
    On March 4, 2009, Counsel for Aranda Homes, Inc., responded to the 
Chapter 558 Notice. The response says, ``Notwithstanding the assertions 
in the notice that scientific tests have proven that the Knauf 
plasterboard causes corrosion of interior metal fixtures and 
electronics, potentially posing a risk of fire and a risk of human 
health, Aranda Homes, Inc., has neither received any such test results, 
nor heard of any such test results''. It further states, ``Aranda 
Homes, Inc. has made several inspections of the premises and cannot 
conclude there are any construction defects that need a response.'' 
Needless to say, we are disappointed with and insulted by this 
response.
    Shortly before receiving the builder's response we were informed by 
our law firm that our attorney was no longer with the firm and we have 
not retained another attorney since.
    We also inquired with Aranda Homes, Inc., as to who their insurance 
carrier was. The Counsel for the builder said that our claim was sent 
to their insurer. However, Aranda Homes, Inc. has refused to tell us 
who their insurance carrier is.
Regulatory Response to Our Drywall Problem
    The Florida Health Department has been in the forefront trying to 
confirm whether any health or other risks exist from the drywall 
emissions. Dr. David Krause, in particular, has been a wonderful 
resource to us and we want to bring this to your attention.
    We also had the opportunity to have our house inspected by the U.S. 
Consumer Products Safety Commission, the U.S. Environmental Protection 
Agency, and the Agency for Toxic Substance and Disease Registry. 
Representatives from these agencies sampled our home for potential 
sources of contamination caused by the drywall. In addition, we 
provided one of our smoke detectors to the Florida State Fire Marshall 
for inspection to determine if the corrosion could cause our fire alarm 
system to malfunction during a fire.
    Lastly, we have been asked to allow the U.S. Environmental 
Protection Agency's Emergency Response Team and the Florida Department 
of Health to install indoor air monitors in our home during the first 
week of June 2009 for a 3-day period, during which we may be asked to 
vacate. Coincidentally, we are attending a wedding in Pennsylvania 
during this time period. We are only too happy to accommodate these 
agencies in their efforts for the benefit of all those impacted by this 
unfortunate tragedy.
I Ask That the Committee Consider the Following Ideas:
  <bullet> Establish a Federal Task Force led by U.S. EPA or FEMA and 
        made up of Federal agencies charged with looking at existing 
        regulatory authorities to fund the removal and remediation of 
        the drywall contamination. This would be similar to having a 
        response to a hurricane, earthquake or other natural 
        catastrophe. I suggest this activity be coordinated with the 
        appropriate State and local entities, which can provide their 
        expertise in the various elements of the remediation process.

  <bullet> Direct the U.S. EPA and U.S. Department of Housing and Urban 
        Development the responsibility of establishing a protocol for 
        cleanup and remediation. This protocol should provide standard 
        guidelines so that remediation of the drywall and corrosion 
        problem is consistent from State to State or builder to 
        builder.

  <bullet> Require the U.S. Consumer Products Safety Commission to 
        issue a recall of the defective drywall, and a directive that 
        no other drywall imports from China be permitted until such 
        time as minimum health and safety standards can be developed by 
        this agency.

  <bullet> The manufacturers of the contaminated drywall need to be 
        held accountable for any remediation costs rather than the 
        taxpayer. I think that enforcement of this effort could be 
        performed by several Federal agencies with the lead agency 
        efforts being undertaken by the U.S. Consumer Products Safety 
        Commission.

  <bullet> In developing the costs of remediation, I would suggest that 
        the Federal Task Force consider other costs for complete 
        remediation as: moving and relocation expenses of the 
        homeowners during reconstruction, including utilities; storage 
        costs for contents of their homes; replacement of all corroded 
        items including but not limited to: televisions, computers, 
        smoke detectors, refrigerators, mirrors.

    In conclusion, I would like to again express my appreciation to the 
Committee and to Senator Nelson for this opportunity to provide 
testimony on this important issue. I stand ready to answer any 
questions the Committee may have. Thank you.
                                 ______
                                 
 Prepared Statement of Randy Noel, President, Reve, Inc., on behalf of 
               The National Association of Home Builders
Introduction
    Chairman Pryor, Ranking Member Wicker and Members of the 
Subcommittee, thank you for this opportunity to testify today on the 
topic of Chinese drywall and how the home building industry is 
attempting to respond to this unexpected crisis. My name is Randy Noel 
and I am a builder from the New Orleans area of Louisiana. I'm here 
today also in my capacity as a former president of the Louisiana Home 
Builders Association, and a current National Life Director of the 
National Association of Home Builders Board of Directors. With more 
than 30 years in the industry, I have had extensive experience not only 
with the day to day operations of a residential construction company, 
but also with building code development and general liability insurance 
issues in the state of Louisiana, and at the national level.
    I want to talk with you today about what the National Association 
of Home Builders knows on the Chinese drywall situation, and to discuss 
the perspective of home builders on the issue. NAHB is committed to 
offering a constructive role in resolving this issue.
    The National Association of Home Builders is a Washington, D.C.-
based trade association representing more than 200,000 members involved 
in home building, remodeling, multifamily construction, property 
management, subcontracting, design, housing finance, building product 
manufacturing and other aspects of residential and light commercial 
construction. Known as ``the voice of the housing industry,'' NAHB is 
affiliated with more than 800 state and local home builder associations 
around the country. NAHB's builder members will construct about 80 
percent of the new housing units for 2009. Taken collectively, the 
residential construction industry has been estimated to contribute up 
to 15 percent of the annual Gross Domestic Product (GDP). Given the 
downturn in the housing industry and the larger U.S. economy, many of 
NAHB's members are currently struggling to remain afloat and the annual 
estimate of new home construction has fallen from an average of 1.6 
million per year, to about 500,000 for 2009, making the current 
economic crisis the worst housing downturn since the Great Depression.
Potential Scope
    NAHB first became aware of the problems with Chinese drywall in 
late 2008, when a consumer approached association staff concerned about 
rumors he had heard that some ``Chinese drywall'' in newer homes in 
Florida was causing problems with copper wiring and creating potential 
health concerns for homeowners. At the time, staff attempted to 
research the rumor only to find that there was no information publicly 
available about any problems or concerns in the Florida market, or the 
surrounding region. In fact, even a Google search failed to return any 
hits on the term ``Chinese drywall.'' Following up on the issue, staff 
began canvassing the membership to look for members who had found 
problems with drywall, and ultimately, media coverage of concerned 
homeowners began to move the issue forward very quickly. Since that 
time, NAHB has been working aggressively to educate itself about the 
various aspects of the issue, attempting to determine the scope of the 
potential problems, and talking to its membership about the ways in 
which the industry can address and resolve the problems.
    In keeping with media reports, NAHB has found that a vast majority 
of the builders experiencing problems with drywall are in the state of 
Florida. Thus far, we have been unable to produce an accurate estimate 
of the number of homes that are potentially impacted in Florida, but 
continue to attempt to determine the scope. My fellow Louisiana 
builders have attempted to identify the scope of problems in our state, 
and have done preliminary estimates that indicate that perhaps 500 
homes in the state are impacted, and we have begun the work of trying 
to determine which builders would have received the product. At the 
present time, we believe that most of the Chinese product imported into 
the state went predominantly to a few medium- and larger-sized 
builders. We are aware of a few drywall issues in Virginia and 
litigation against a builder in North Carolina. While many builders 
have heard of multiple news reports and stories on the issue, they have 
not brought any active cases in their states to NAHB's attention.
Use of Drywall in Home Construction
    Gypsum board, known commonly as `drywall', has been used without 
incident throughout residential and commercial construction and has 
been since the 1950s. In an average home [2,500 sq. ft.], there is 
approximately 8,740 square feet of drywall, with 6,285 sq. ft. 
contained within the walls and 2,455 sq. ft. within the ceilings. 
Approximately another 235 square feet of surface area of a house is 
made up of wood/concrete, or other building materials. In most 
instances, builders use \1/2\" thick drywall boards in home 
construction.
    State and/or local building codes determine how drywall is 
incorporated into a residential structure. Building codes identify the 
minimum requirements for using and installing building components in 
all single and multi-family residential construction. These codes 
derive from model codes developed by the International Code Council 
(ICC), which incorporate national standards for product performance 
such as the American Society for Testing and Materials (ASTM). Current 
standards related to drywall concern packaging, marketing, shipping, 
handling and storage of gypsum panel products and characteristics of 
the drywall such as the need for water resistance and fire resistance. 
They do not relate to the composition of the drywall beyond the 
requirement that the core consist essentially of gypsum.
    For the typical NAHB member, a small business with fewer than 10 
employees who builds fewer than 25 homes per year, subcontractors 
perform the drywall work. A home builder will contract with a drywall 
subcontracting firm to do the work on one or more houses in a year, and 
it is the job of the subcontracting firm to obtain the product that 
will be used in the completion of the home. The builder typically does 
not specify a particular brand name, or source, of the drywall, but 
rather specifies the amount of product required, the characteristics of 
the product (as it relates to dimension or thickness) and the timing 
required to complete the work. Subcontractors in turn coordinate with 
their suppliers--many of whom work only with professional builders and 
subcontractors and who do not sell to the general public--to obtain the 
product they need to meet their contractual obligations with the 
builder. It is notable however that in the past few months, NAHB has 
been made aware of builders who did specify in their subcontracts the 
use of domestic drywall only to find out years later as this issue 
unfolded that Chinese drywall was installed.
    The use of drywall sourced from China spiked during the housing 
``boom'' years of 2005-2007 when several separate situations converged 
to create a severe drywall shortage in the United States. First, with 
mortgage rates at historic lows and the associated factors leading to 
more home purchases in the U.S., a building boom was instigated by a 
dramatic increase in home buying activity. Second, the domestic 
producers were experiencing a lag in production capacity, with many 
domestic producers attempting to move quickly to bring new capacity on 
line to meet demand for drywall. Third, the historically devastating 
Hurricanes Katrina and Rita led to a sudden and unexpected need for 
additional drywall for repairs and remodeling of hurricane-ravaged 
homes and businesses in the Gulf region. While the U.S. had typically 
sourced the majority of its drywall from domestic producers, with 
Mexican and Canadian producers providing the balance, these three 
factors led to the increase in supply sourced from China.
    It's important to note that in all of the cases that NAHB is aware 
of, it appears that the problems with the drywall did not become 
evident until long after the homeowner had taken possession of the 
house. In discussions that NAHB has had with builders on their use of 
drywall in home construction, builders note that had drywall that was 
off-gassing a foul-smelling odor been on-site or installed in a new 
home under construction, their site supervisors would have called in 
their subcontractors to address the issue and replace the drywall. Many 
builders cite the common sense conclusion that as the home builder they 
would not move forward with the sale of a house that was off-gassing an 
offensive odor because not only would it have been completely 
inappropriate and unprofessional, but the home buyer would have 
immediately contacted the builder to rectify the situation after taking 
ownership of the house.
Industry Goals
    NAHB and its members praise the work being done by Congress, the 
Consumer Product Safety Commission (CPSC), and other Federal agencies 
to investigate the source of the drywall problem, and determine the 
appropriate response and necessary outcomes. While NAHB members who 
have homeowners impacted by Chinese drywall are continuing to work on a 
daily basis to respond to the situation, we find that we are 
increasingly coming to the same conclusion: that the CPSC and other 
Federal agencies must provide both homeowners and builders/remodelers/
contractors with the information necessary to not only fully and 
finally identify the cause and source of the problem so that it will 
not be repeated, but to also provide a reliable test for drywall 
problems and a method to appropriately remediate in cases where the 
problem has occurred. While NAHB has spoken with its own NAHB Research 
Center and other research entities about the possibility of looking 
into the situation on our own, we believe that the best possible 
scenario would be for a national consensus to be developed on these 
issues based on the work currently being done by the Federal 
Government. Understanding the time constraints presented in trying to 
perform the necessary tests on drywall to determine answers to these 
questions, NAHB urges the government to move as quickly as the science 
will allow to provide information to consumers of the product.
    As noted above, NAHB is determined to play a constructive role in 
resolving this issue. Our members are trying to be responsive to 
homeowners and others who raise the question of whether drywall in 
their homes is made in China and whether the drywall is causing current 
issues or will likely develop them in the future. As builders, we live 
or die by our reputation. Home building is a very competitive business 
and a builder who does not pay attention to quality, value and customer 
service won't be in business very long.
    One of the challenges we face as an industry is illustrated by our 
decision to decline an on air interview on the Nightline television 
program that was scheduled to air last night regarding the Chinese 
drywall situation. We talked with the Nightline producers on background 
and provided them with industry information but despite our best 
efforts, we could not locate a builder member to appear on camera to 
discuss this matter because of the current uncertainty about how to 
identify the affected drywall, and how to fix it.
Testing and Remediation
    At present time, we are not aware of any consensus on the 
scientific cause of the issues with drywall, and as the CPSC has noted, 
there is no definitive test to determine if a home has a drywall 
problem. Consequently, NAHB supports the CPSC's current efforts to 
identify the actual scientific cause of the problem, and develop an 
appropriate testing protocol to identify problematic drywall. Once the 
cause is identified and a testing protocol established, it will greatly 
help builders identify potential homeowners who may have problems.
    Over the past few weeks, NAH B has been made aware of a concerning 
new development in the area of drywall testing: the dramatic increase 
in the number of companies in the marketplace claiming to have the 
capability to test someone's home to determine whether or not they 
have, or will have, a ``toxic drywall'' problem. One specific example 
involves a company in Louisiana who claims that for a ``documentation 
fee of $1100 (no travel charges within the Parish) and a fee of $1350 
per sample,'' they can identify homes that have, or will have a 
problem.
    Similarly, until the problem with the drywall is identified, it 
will be difficult to determine how it can be remediated. We are aware 
that some builders have opted to remove and replace all of the 
drywall--but that is very expensive--some estimates indicate that the 
cost is $100,000 per home or more, while others indicate that the cost 
to remediate each home would be approximately \1/3\ of the value of the 
house--and many of our members do not have the financial ability to 
incur such a cost without the benefit of insurance. It is imperative 
that research continue to determine whether there is a viable solution 
short of full removal and replacement of all of a home's existing 
drywall. Further, the remodelers in our membership are also interested 
in determining the best remediation strategy for homes in which only a 
portion of the drywall is identified as problematic. An appropriate 
remediation strategy should also touch on how to handle those homes and 
the wiring and electrical systems that they contain.
Potential Health Effects
    The health effects associated with the drywall present a serious 
issue that merits further research. NAHB supports research that will 
lead to scientifically sound and reliable data on whether scientific 
evidence exists linking chemical emissions and ``off-gassing'' from the 
drywall to the reported health complaints. This is vitally important 
not only to the homeowners who have been so incredibly impacted by the 
drywall problems, but also for those who will be going into the 
affected homes to remediate the problem.
Litigation
    The lack of current scientific conclusions on the causes, impacts 
and remediation strategies on the drywall issue has not stopped the 
litigation and threatens to obscure many of the legitimate issues. More 
than 60 separate lawsuits have been filed in 7 states--the bulk of 
those in Florida and Louisiana--and attorneys are advertising for the 
creation of class action lawsuits in multiple jurisdictions as they 
look for clients allegedly injured due to this exposure. Predictably, 
some have tried to use the dearth of science to take advantage of the 
issue, like those who use the term ``toxic drywall'' or ``toxic Chinese 
drywall.'' The obvious implication of such terms is clear--this drywall 
is poisonous and very dangerous to human health. In regard to Chinese 
drywall, the reality according to the CPSC is that at this time any 
such relationship linking chemical emissions from the drywall to the 
reported health complaints or long-term health effects are unknown.
    NAHB supports the right of all potentially injured parties to seek 
redress through the courts, but we believe that this attempted rush to 
judgment is premature and all concerned would benefit from a stay of 
the litigation until the CPSC and other agencies have concluded their 
investigations, identifying the scientific cause of the problems 
associated with the drywall, and establishing a workable remediation 
strategy. Litigation is an inefficient means to resolve construction 
defect and other contract disputes because it is expensive, time-
consuming and unlikely to produce the desired result. Moreover, 
litigation frequently leaves homeowners with insufficient funds to 
perform repairs once legal fees and costs are deducted from any court 
recovery they may receive (if any). We are encouraged by reports that 
the CPSC is developing a set of affected home criteria for dealing with 
the drywall.
    In the vast majority of cases, the result that homeowners and home 
builders most desire is very simple--a repair to an alleged defect or 
other similar correction, which is why NAHB spearheaded the effort 
several years ago to enact Notice and Opportunity to Repair (NOR) laws. 
These laws, which require homebuyers to provide builders with notice 
and opportunity to repair before filing suit, increase the likelihood 
that construction defect disputes will be resolved without costly and 
time-consuming litigation.
Insurance Coverage
    As noted above, as a commitment to their customers, some builders 
have opted to remove and replace the drywall.
    Builders, subcontractors, and remodelers who are sued by homeowners 
for damages caused by defective Chinese drywall may have coverage under 
their own liability insurance policies, or under policies issued to 
other parties--if they are an additional insured under these policies. 
Homeowners also will seek coverage for their losses under their 
homeowner insurance policies. However, one insurance company has filed 
suit against a builder seeking a declaration that no coverage exists 
for claims related to Chinese drywall based on policy provisions 
including the pollution exclusion, and it seems likely that other 
insurance companies will also seek to deny coverage.
    We urge Congress to continue to explore ways to identify possible 
sources of funding to help offset the costs of remediation, 
particularly if it is determined that the ultimate responsibility lies 
with manufacturing entities situated in China.
Potential Concerns Regarding S. 739, the Drywall Safety Act of 2009
    Again, NAHB applauds Congress for its active interest and quick 
response to the drywall issue. Specifically, we thank Senators Nelson 
and Landrieu for bringing attention to the issue through the 
introduction of S. 739, the Drywall Safety Act of 2009.
    However, of note is a concern that NAHB has with the draft of S. 
739 as introduced. Specifically, Section 4 of the legislation attempts 
to ensure that no potentially problematic drywall is still entering or 
being sold in the United States by banning as a product with a product 
defect any drywall that contains over 5 percent organic compounds by 
weight. We believe that this 5 percent parameter comes as a result of 
some preliminary analysis conducted by the Florida State Department of 
Health. While NAHB is not questioning the organic compound results of 
the sample analysis in this case, we are concerned that attempting to 
ban all products with 5 percent organic compounds by weight may 
actually lead to a massive disruption of the domestic drywall industry, 
and a potentially significant obstacle to a future housing market 
recovery. Put simply, the 5 percent organic compounds by weight 
parameter may accidentally capture most, if not all drywall in the 
United States, not simply the imported drywall that is subject to 
investigation at this time. The paper backing on all drywall is 
technically considered as an `organic' substance, as is--for example--
the wax emulsion that is contained in moisture resistant drywall which 
is used in places like bathrooms in order to protect against mold. In 
many instances, the paper backing alone could bring the organic 
compound weight of the drywall to 5 percent, regardless of the content 
of the drywall's core. We urge the Subcommittee and the bill sponsors 
to investigate other ways in which to target the drywall that is of 
concern, without potentially banning all drywall produced in the United 
States.
    Importantly, it is with appreciation that we note that the Senators 
sponsoring the legislation and their staffs have indicated an 
understanding of the industry's concerns with the 5 percent parameter, 
and that they are actively engaged in attempting to find a better way 
to identify the potentially problematic drywall.
Conclusion
    NAHB appreciates this opportunity to testify on the issue of 
Chinese drywall and to share our member's experiences and concerns. We 
look forward to continuing to work with Congress and the Federal 
agencies to provide any information we can on the industry and its use 
of drywall, and to disseminate and educate the Nation's home builders 
on the appropriate testing protocols and response to this issue. We 
share the goal of ensuring a satisfactory resolution for the homeowners 
who have been impacted by this situation, as well as to ensure that 
such a situation will never be repeated.
    Thank you.

    Senator Pryor. I'll go first, and then Senator Nelson, and 
we'll do the order from there. But, let me just start with a 
couple of very brief questions, if I may.
    First, Dr. Krause, you're at the Florida Department of 
Health. Is that right?
    Dr. Krause. Yes, I am, Mr. Senator.
    Senator Pryor. And how many homes do you estimate have this 
affected drywall in your State?
    Dr. Krause. Currently, we have approximately 300 that have 
called the Florida Department of Health and entered one of our 
registries. However, there is a barrier in--with the public, to 
calling the Departments of Health and letting us know, so we 
believe our numbers are grossly underestimating the----
    Senator Pryor. And what's the barrier?
    Dr. Krause. One barrier I've been informed of are attorneys 
that are--plaintiffs' attorneys who are representing these 
folks are telling their clients not to register with the 
Department of Health.
    Senator Pryor. OK. Do you know to what extent people are 
staying in their homes with affected drywall, or, on the other 
hand, to what extent they are leaving their homes? Do you have 
a percentage or a feel for how many people are staying and how 
many people are going?
    Dr. Krause. No. No, sir. We are including that in our 
questionnaire, and hope to have some information on that soon.
    Senator Pryor. And let me ask Ms. Saltzman, with the 
Consumer Product Safety Commission--Ms. Saltzman, do you have a 
sense of how widespread this problem is around the country?
    Ms. Saltzman. Yes, we've heard from 320 consumers in 16 
States and the District of Columbia.
    Senator Pryor. And is your understanding that the sale, at 
least temporarily, of this drywall has stopped in the United 
States?
    Ms. Saltzman. It's our understanding that it has, that 
there's no more that's coming in.
    Senator Pryor. And let me ask this--since the CPSC, is the 
lead Federal agency on this issue, can you tell the 
Subcommittee what the CPSC has been doing to try to determine 
what's going on out there?
    Ms. Saltzman. Yes, of course. We've actually--our program 
is based on three different tracks. We're looking at the--
trying to find the link between the Chinese drywall and the 
health symptoms. We're looking at trying to identify the link 
between the drywall and the corrosion of the metal components. 
And we're also tracing the origin and the distribution of the 
drywall.
    Senator Pryor. OK. And, with my last question--I see 
Senator Landrieu coming, and I'd like to expedite my questions, 
here, so that we could get to the other Senators--if I may ask 
Mr. Kampf--you're a homeowner in Florida. Is that right?
    Mr. Kampf. That's correct.
    Senator Pryor. And where do you live?
    Mr. Kampf. Cape Coral, Florida.
    Senator Pryor. And where?
    Mr. Kampf. Cape Coral, Florida. It's----
    Senator Pryor. OK.
    Mr. Kampf.--in Lee County.
    Senator Pryor. And you've had some experience with this in 
your own home.
    Mr. Kampf. Yes.
    Senator Pryor. Could you give us 2 or 3 minutes on what 
your experience has been and maybe the highlights of your 
testimony that I've asked folks to submit for the record? If 
you could give us the highlights of that, I'd appreciate it.
    Mr. Kampf. Yes, Mr. Chairman, I'd be happy to do that.
    My wife and I are both career--retired career Federal 
employees, and we had an opportunity to retire early. And we 
wanted to settle in Florida, and decided to purchase--or, build 
a new home. And that was--we took occupancy in that house in 
November 2006. However, we didn't move in until July 2007, 
because of our moving plans.
    Nonetheless, the day we moved in, in July 2007, the air-
conditioner broke. And at the time, we just thought it was 
something that happened. Within one year, we had 15 visits from 
the air-conditioning repair company. During that time, they 
recharged my air-conditioning unit ten times, all of which, 
with R-22 freon that was, in fact, then dispersed back through 
the ductwork in my house into me and my son and my wife.
    We had four coils in our house that are replaced. That 
latest one was shipped to Texas by the Trane manufacturing 
company, and had it coated. The coated coil seems to work. We 
have air-conditioning now. But, we also have another smell. 
There's a volatile organic compound that comes off the smell of 
the coated coil each time the compressor comes on.
    We have had a significant amount of deterioration of 
products in our home. Our mirrors are black, the copper piping, 
particularly on the water heater--I have plastic pipe in most 
of the house, but the copper piping in my water heater is 
black. All of the shutoff valves under the toilet closets, 
normally chrome, are completely black. The paint cans in my 
garage and things that I've bought just a month or so ago, for 
example, turned to a rust, complete rust.
    We have had illnesses. I am sick, today. Respiratory 
problems are prevalent. We're constantly going around the house 
drinking bottles of water. And my wife is complaining quite a 
bit about, at night, her eyes are burning. She has vials of 
teardrops on her bedside, as do I have bottles of water. When 
you get a respiratory illness, it's not unlike any other 
respiratory illness, only it's a lot worse and it lasts a lot 
longer, and it's a lot harder to recover.
    Senator Pryor. Let me interrupt right there, if I may, just 
for clarification. You're still living in the house.
    Mr. Kampf. I am still living in the house, yes.
    Senator Pryor. And is there any way of knowing right now 
what your estimated value of your home is now?
    Mr. Kampf. Yes, I could tell you that number. It's zero.
    Senator Pryor. OK.
    Mr. Kampf. There is no--I paid $315,000 for that house, 
and, as Senator Nelson pointed out, I'm paying a mortgage of 
$1,900 a month. My bank doesn't want to hear anything from me.
    My builder has basically abandoned me in trying to remedy 
any problem. He's not stood by my side. And I applaud the 
builders, like Lennar and Taylor Morrison and others, that have 
done that.
    But, the health effects go beyond that. We have--I have 
nosebleeds every day. I mean, it's just not an occurrence that 
happens once in a while; it is every day. We have a--we're 
always having raspy throats. And it's just--it's just an 
annoying situation, to go around your house and look at things 
deteriorate that otherwise may not have happened for many, 
many, many years.
    Senator Pryor. Right.
    Mr. Kampf. We just--you know, our Christmas present to 
ourselves was a very large flat-screen TV. It's--right now, all 
of the pixels, across the screen, showing, and it just doesn't 
go away. And we wonder, every single day, what happens--what's 
that doing to our health?
    Senator Pryor. Right.
    Mr. Kampf. What do we do about that?
    Senator Pryor. Thank you for your statement.
    Now, I'm going to recognize Senator Landrieu for her 
statement. She's actually chairing another subcommittee, so 
she's going to have to race out after the statement.
    Go ahead, Senator Landrieu.

               STATEMENT OF HON. MARY LANDRIEU, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Landrieu. Let me thank--begin by thanking Chairman 
Rockefeller and Ranking Member Hutchison for agreeing to this 
hearing, and particularly, Mr. Chairman, thanking you for your 
focus on this particular issue and the issue of defective 
products, this being just the latest in, unfortunately, a 
pattern that we are beginning to see of products coming into 
this country that are very questionable, in terms of their 
quality, and very, very concerning to our constituents.
    I'm just going to be very brief. I've submitted a much 
longer written testimony.
    [The prepared statement of Senator Landrieu follows:]

         Prepared Statement of Hon. Senator Mary L. Landrieu, 
                      U.S. Senator from Louisiana
    Thank you Chairman Rockefeller and Ranking Member Hutchison, for 
calling this oversight hearing on the health and product safety issues 
related to foreign manufactured drywall products. I also thank 
Subcommittee Chairman Pryor, Ranking Member Wicker, and especially 
Commerce Committee member, Bill Nelson, who has been a leader on this 
particular issue. I would also thank the Committee for allowing Randy 
Noel, a representative of the Louisiana Homebuilders to testify today. 
This hearing continues the important bipartisan work of this Committee 
to protect consumers from unsafe products. Last year, this Committee 
was instrumental in passing the Consumer Product Safety Improvement Act 
that provided new authority for the Consumer Product Safety Commission 
(CPSC) and authorized new resources for the agency. As homeowners 
nationwide face possible health and environmental risks from Chinese-
made drywall products, it is my hope that the oversight of this 
Committee will again spur action on an important issue facing impacted 
consumers.
    According to published reports, since 2006 more than 550 million 
pounds of drywall have been imported to the United States from China. 
This is enough to make tens of thousands of homes. However, these 
products may have come into the country as far back as 2000 and could 
be in over 100,000 homes nationwide. This is because since 2004, 
builders have turned overseas for materials because our own U.S. 
suppliers could not keep up with demand created by the U.S. 
construction boom, as well as a series of hurricanes and other natural 
disasters. This would include the 2004 Florida hurricanes, Hurricanes 
Katrina and Rita of 2005, and other disasters. The drywall entered the 
U.S. through numerous ports, including the Port of New Orleans. As I 
understand it, Florida was the number one destination for these 
products with over three million drywall boards. Louisiana was next 
with almost 660,000 drywall boards. In Louisiana alone, this could be 
as many as 7,000 homes. Overall to date though, the CPSC has received 
over 180 incident reports from 12 states. This problem spans the 
country, from California in the West to right here in the District of 
Columbia and Virginia. It is not just an isolated issue for Florida 
homeowners or the Gulf Coast--Chinese drywall is a nationwide problem.
    It is my understanding that the CPSC received its first consumer 
incident report from Florida in December 2008. In Louisiana, we began 
to see reports from homeowners in southeast Louisiana in late February. 
These reports were similar to those seen in Florida homes: a ``rotten 
egg'' smell within homes; health issues such as skin irritation, 
persistent cough, bloody noses, and asthma attacks; last homeowners 
noticed blackened and corroded metal components in their homes. 
According to the Louisiana Department of Health and Hospitals, the 
majority of these reports were centered around New Orleans in southeast 
Louisiana. Just to give you an example of how widespread this issue is 
in my state, we have seen hundreds of homeowners ranging from St. 
Bernard Parish Fire Chief Thomas Stone to New Orleans Saints Head Coach 
Sean Payton report this product in their homes. Many parents have been 
seeking answers on what might be making their kids sick or, now that 
more details are coming out, how they should safely remove this product 
from their homes. This defective Chinese drywall represents an attack 
on these families and presents another obstacle on our road to Gulf 
Coast recovery.
    In response to these reports, my office has heard from countless 
constituents on the need for consistent, scientifically-based 
information on the product, as well clear guidance on the public 
safety, health, and environmental impact. Families have asked for 
information on which Federal or State agencies to contact, in addition 
to any updates we have on the health risks posed by this product. Many 
families also called concerned about the impact of defective drywall 
not just on their children but also on pets. To address these 
questions, on April 23, my office issued a fact sheet for homeowners 
updating them on the Federal/State response, providing key contact 
information, and answering frequently asked questions. My office plans 
to update this document as new information becomes available.
    On the state level, it is my understanding that our Louisiana 
Department of Health has received hundreds of calls. These complaints 
have ranged from homeowners requesting home inspections, advice on home 
evacuations, in addition to inquiries on specific health information to 
provide their primary care physicians and veterinarians. A key question 
is that of remediation or possible financial assistance in order to 
deal with this problem. Many of my constituents received either Federal 
Emergency Management Agency (FEMA) or Small Business Administration 
(SBA) disaster assistance to rebuild these homes following Hurricanes 
Katrina and Rita of 2005. These families spent months in FEMA trailers 
and rental units following these disasters, they paid out of pocket or 
took on debt to rebuild. Now they find their rebuilt homes in worse 
shape than these post-disaster temporary units. In this situation, 
families are looking for answers and a timeline for when more 
information will be known on the definitive health impacts of this 
product.
    In response to these concerns from my constituents, I have been 
working closely with Senator Nelson on numerous legislative remedies to 
this problem. As you know, on March 30, we introduced S. 739, the 
``Drywall Safety Act of 2009.'' This legislation would require the CPSC 
to join with the Environmental Protection Agency and National Institute 
of Standards and Technology testing labs to determine the danger level 
of chemicals and compounds in the drywall. S. 739 would also impose an 
immediate ban on imported Chinese drywall, pending promulgation of 
drywall composition standards by the appropriate agency. I hope that 
this hearing will outline areas that our legislation can help impacted 
homeowners and whether increased safety standards are necessary on 
imported drywall products.
    The State of Florida has conducted preliminary testing which has 
confirmed that imported drywall is at the root of the problems. 
However, these tests have not been able to pinpoint the hazardous 
substances in the drywall. For its part, the CPSC has indicated that 
they have initiated preliminary tests of these drywall products but 
that more comprehensive testing and investigation is needed to 
understand the full health and environmental impacts of these products. 
To these ends, on May 4, Senator Nelson and I requested that the Senate 
Appropriations Committee include $2 million in the FY2009 Emergency 
Supplemental Appropriations bill. These funds would be used to do field 
studies, analyze the substances in the product, and most importantly, 
expedite lab results to provide clarity for impacted homeowners. Such 
tests would allow the Federal Government to fully understand the 
problem, especially any public safety risk. Funds would also allow the 
agency to set up a public information campaign on defective drywall, 
including a website and hotline to help consumers.
    I was disappointed that this key funding was not included in the 
bill reported out of the Senate Appropriations Committee last week. 
According to the CPSC, a Federal/State working group has been formed 
but it could take this group ``months'' to outline testing procedures 
and additional time to conduct additional testing. While I understand 
the need to be thorough and build a case that might stand up to future 
legal scrutiny, families in my state need answers now. Parents caring 
for sick children or pets need answers, workers removing these products 
from homes need to know potential health risks, and local health 
officials need to know what environmental impact may occur if this 
drywall is dumped into landfills. To these ends, I have joined Senator 
Nelson on a floor amendment to the Supplemental to give the CPSC 
necessary funding for this comprehensive testing. It is our hope that 
with this funding, the agency can return results in a matter of months 
versus the current time-frame which may take up to a year.
    In closing, I believe that the scope of this problem is huge 
because it touches on so many different stakeholders. The first thought 
is on the impact to homeowners and renters, as it should be for a 
health risk of this nature. However, medical professionals and 
veterinarians also are dealing with this issue as families report 
health problems. The possible public safety impact also draws in fire 
marshals, construction workers, and environmental inspectors. So this 
defective product is not just a concern for homebuilders or homeowners, 
but is a concern for many other professions in both the public and 
private sectors. That is why today's hearing is so important--we must 
ensure that there is a timely and effective Federal response in 
cooperation with local health authorities. I look forward to working 
closely with my colleagues on this Committee to support additional 
efforts to address this critical matter facing our homeowners.
    I thank the Chairman and ask that a full copy of my statement, as 
well as a copy of the May 4, 2009 letter to the Senate Appropriations 
Committee appear in the record.
                                                U.S. Senate
                                        Washington, DC, May 4, 2009
Hon. Daniel K. Inouye,
Chairman,
Senate Committee on Appropriations,
Washington, DC.

Hon. Thad Cochran,
Ranking Member,
Senate Committee on Appropriations,
Washington, DC.

Dear Chairman Inouye and Ranking Member Cochran:

    As the Committee reviews President Obama's Fiscal Year 2009 
Supplemental Appropriations request, we write to ask your consideration 
for the inclusion of emergency funding that will allow the Consumer 
Product Safety Commission (CPSC), in conjunction with other Federal 
agencies, to conduct a comprehensive investigation into the health and 
safety impacts of faulty Chinese-made drywall on thousands of American 
consumers.
    Since 2006, more than 550 million pounds of drywall have been 
imported to the United States from China. In the last 18 months, 
countless homeowners throughout the Gulf Coast region have reported 
noxious fumes and serious metal corrosion in air conditioning units, 
copper pipes and electrical wiring. In addition, a number of homeowners 
have also reported serious health issues that appear to be related to 
the drywall, including bloody noses, headaches, insomnia, and skin 
irritation. In total, the CPSC has received over 180 incident reports 
from 12 states and the District of Columbia, demonstrating that this is 
a problem not just on the Gulf Coast, but also a threat to homeowners 
across the country.
    Preliminary testing has confirmed that the imported drywall is at 
the root of the problem, but these tests have not been able to pinpoint 
the problem substances in the drywall. With this in mind, we 
respectfully request that the Committee include $2 million for the CPSC 
to fully investigate and evaluate the defective drywall. These funds 
would be used to do field studies, analyze the substances in the 
product and, most importantly, expedite lab results to provide clarity 
to impacted homeowners. Such tests would allow the Federal Government 
to fully understand the scope of the health and public safety risks 
posed by this product. Funds would also allow the agency to set up a 
public information campaign on defective drywall, including a website 
and hotline to help consumers.
    Attached, for your review, is a full breakdown of how these funds 
would be allocated within the CPSC. Thank you for your consideration of 
this important request.
            Sincerely,
                                               Bill Nelson,
                                             United States Senator.
                                          Mary L. Landrieu,
                                             United States Senator.
                               Attachment
 Drywall Elemental Analysis:
  Potential reimbursement of EPA's Emergency Response Team      $175,000
   (ERT) Lab
Drywall Chamber Emissions Study:
  Government Laboratory:
    Start-up Costs and running of Phase I                       $310,000
    Phase II                                                    $300,000
  Additional equipment to expedite lab studies:
    Gas Chromatograph/Mass Spectrometer                         $250,000
    Additional pre-conditioning chambers                        $ 10,000
Field Study (in-Home monitoring)--Contractor                    $500,000
Component Metallurgic Analysis:
  Government Lab--Electrical/Gas Components                     $ 30,000
  TBD Laboratory--Fire Protection Components                    $ 60,000
Component Advanced Aging Analysis                               $ 70,000
Functional Evaluation of Fire Protection Components             $ 40,000
Shipping Costs--Samples in Tedlar Bags to Lab, EPA              $  1,000
Compliance Field Investigators (Two)                            $150,000
Public Information:
  Website design and build                                      $  5,000
  Automated e-mail response management system                   $ 40,000
  Hotline operations, inquiry response, FAQs, regular           $ 60,000
   website updates
Travel:
  To Lab, to oversee Phase I and Phase II studies, 2 trips      $ 12,000
  Visit to U.S. gypsum manufacturing plant, 1 trip (five        $  8,000
   staff)
  To China, to visit manufacturing plants, 2 trips (up to       $ 66,000
   six staff)
                                                            ------------
Total                                                         $2,087,000
                                                            ============

    Senator Landrieu. But, because I am chairing a Small 
Business hearing at the same time, let me just say, Mr. 
Chairman, that I have received numerous, numerous contacts to 
my office, given that we believe that the State of Louisiana, 
has second to Florida, the greatest number of homes affected by 
this particular product.
    Just one, that I will read into the testimony this morning, 
is the fire chief in St. Bernard Parish, not a man or a family 
unfamiliar with tragedy, since every home in St. Bernard Parish 
was destroyed, except for five, just 4 years ago. The fire 
chief would be one of the guys that stayed, when everyone else 
left, to try to help save people and restore the parish. He 
himself has testified to me that the door hinges and shower 
heads and metal objects in his home are turning black. They are 
corroding inside of the home. He had a positive reading of 
hydrogen sulfide in the bathrooms of his homes after showers. 
Evidently, it's something to do with--the heat and humidity 
make the situation worse. He says, ``We've put everything into 
our home,'' just like this gentleman here has testified. They 
have no money to redo it. They were probably out of their home 
for 3 and a half, 4 years. They're still trying to pioneer in a 
parish that is struggling to come back. He spent his entire 
life savings finishing this home.
    This is just one example, Mr. Chairman, of our many 
constituents in Louisiana that are looking to this Committee 
for action and for support. They don't know where to turn. They 
don't know what to do.
    So, I hope that the bill that we're considering will give 
some immediate relief, but there's so much more that probably 
has to be done which is under the jurisdiction of this 
Committee.
    Let me also say, for those that want someone even more well 
known than the chief of St. Bernard Parish is--the head coach 
of the New Orleans Saints now is living in a house that he 
doesn't think that he can keep his family in. And this just 
goes on and on and on, from constituents in, you know, modest 
neighborhoods to middle-income neighborhoods, to very-high-end 
neighborhoods.
    So, I don't know, Mr. Chairman, what the solution is, but I 
wanted to come give voice this morning to my constituents, who 
are looking to us for answers. And I thank you for your work 
that you've done in this area.
    Senator Pryor. Thank you.
    Senator Nelson?
    Senator Nelson. And as Senator Landrieu goes, I just 
received word that they are working out that our $2 million for 
this next round of testing is going to be in the supplemental 
bill that we're going to pass today on appropriations.
    Senator Landrieu. That'll help.
    And thank Mr. Noel for being here.
    Senator Nelson. I want to ask a series of questions. And 
Senator Warner and Senator Klobuchar, whenever you all want to 
interject, just please do. We have a time constraint because 
we're going to have a vote, momentarily.
    I want to see, first of all, why we have not had 
responsiveness from the EPA. It's my understanding that the 
CPSC and the EPA started receiving reports that there was a 
problem with this drywall late last year. On February 13 of 
this year, I sent a letter to the EPA requesting that the 
agency look at this problem. I didn't receive a response until 
early May, and that was a letter dated April 30. February 13 to 
April 30. May I get some assurance here today from the EPA that 
you're going to be more responsive in the future, Ms. 
Southerland?
    Ms. Southerland. Absolutely, Senator Nelson. We have moved 
out quite rapidly. We've already given the Subcommittee the 
copy of the report we've done of the initial drywall analyses. 
We actually got--ATSDR gave us two Chinese drywall samples 
taken right out of homes in Florida, and we, on our own, went 
out and bought four U.S. drywall samples. And we've gotten 
those analyses done.
    We're also moving out with a large group of people from all 
the Federal agencies, as well as from Louisiana and Florida 
Health Departments, to develop an indoor air monitoring 
protocol, and we will begin testing that protocol, checking it 
out, the 1st of June. We've already selected houses for 
Florida, and we're in the process, this week, of selecting 
houses in Louisiana where we'll test out that protocol. And 
right now we hope to have a fully Federal/State agreed-upon 
indoor air monitoring protocol done by the end of June.
    Senator Nelson. Senator Warner?

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Can I just interject, here? I mean----
    Senator Nelson. Sure.
    Senator Warner.--this is not a Florida- or Louisiana-only 
problem. And I can tell you, we've got folks in Virginia, and 
particularly down in Hampton Roads--I know, Congressman Nye, 
who represents Virginia Beach in the Hampton Roads area, 
actually visited some of the homes that were affected. And if 
we are going to start doing this testing procedure, I want to 
make very clear that this should not only take place in 
Louisiana and Florida, but all affected communities need to 
have this testing taking place. We have, I believe, folks here 
from Virginia in the audience. I'm sure Senator Klobuchar's 
going to add that this perhaps concerns some of her 
constituents, too.
    I want assurance from the EPA that actions taken in Florida 
and Louisiana will also be taken in other States that have had 
the reports of this kind of disaster taking place, because this 
is a health disaster, and it is--Mr. Kampf indicated--a 
financial disaster. I want to commend Senator Nelson. I know he 
and Senator Martinez put forward legislation on this. They've 
been the early warning lights for the Senate, overall. But, 
this is a national problem, and we expect a solution where all 
communities affected are going to be taken into consideration.
    Ms. Southerland. Yes, sir. The testing I was referring to 
is just to test out the indoor air protocol. We've got a draft 
of that circulating now amongst the technical experts, and we 
just need a few houses to test----
    Senator Warner. But, let me be clear. I mean, from Senator 
Landrieu's comments, and I would imagine, from some of Senator 
Nelson and Mr. Kampf's testimony here today, it seems--what I 
have heard is that some of this may be affected by humidity, it 
may be affected by other weather patterns, and--great respect 
for our colleagues in Florida and Louisiana, but their weather 
patterns are different than the patterns in Virginia. So, 
that's not a good enough answer. You're saying you're going to 
be testing out in the climates of these two states, when we've 
got this problem happening, I imagine, around the country. So, 
I expect that testing to take place elsewhere.
    Ms. Southerland. Yes, sir. And I think CPSC has a full plan 
for that.
    Ms. Saltzman. Good morning, Senator Warner. I'm Lori 
Saltzman. I'm with the Consumer Product Safety Commission. And 
you are absolutely right, this isn't just an issue that focuses 
in the southern region of our country. We are well aware that 
there are issues in the Norfolk area in Virginia. We've 
actually collected some samples down there, and we do have some 
investigations that are going on in some of the homes there. We 
do plan on sending a team down to look at some of the homes and 
take a look at some of the corrosion issues, just as----
    Senator Warner. I think there may be some people----
    Ms. Saltzman.--just as we did----
    Senator Warner. There seem to be folks that are actually in 
the community nodding ``no'' in the background, so you--you're 
saying to me that you have got teams----
    Ms. Saltzman. What I'm----
    Senator Warner.--that have taken samples in Norfolk.
    Ms. Saltzman. We have received some samples from--the 
Chinese drywall, and we do have some investigators that are 
going to be doing in-depth investigations----
    Senator Warner. In Norfolk.
    Ms. Saltzman.--in the homes----
    Senator Warner. When?
    Ms. Saltzman.--talking to the consumers. They've----
    Senator Warner. When?
    Ms. Saltzman.--been assigned. They should be happening 
within, you know, a week, and that we also are going to be 
sending a team of investigators down, much as we did in 
Florida, and then we have plans for that.
    Senator Warner. So----
    Ms. Saltzman. And we are well----
    Senator Warner.--again, for the record, you are sending an 
investigating team into Virginia----
    Ms. Saltzman. Yes. They----
    Senator Warner.--within the next week?
    Ms. Saltzman. They should be down there, doing an in-
depth----
    Senator Warner. So, I'll expect a----
    Ms. Saltzman.--investigation----
    Senator Warner.--report back on--when that investigating 
team is in Virginia and the results of that investigation?
    Ms. Saltzman. Yes.
    Senator Warner. And we can see that within the next 2 
weeks?
    Ms. Saltzman. Yes.
    Senator Warner. Thank you.
    Senator Nelson. Ms. Klobuchar? Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much. And first, thank 
you, Senator Pryor. I am a member of the Consumer Subcommittee, 
and we worked very hard, as you know, last year on the Chinese 
children's products issue, and got some results on that. I want 
to thank Senator Nelson, as well, for his work on that, and 
Senator Martinez.
    And, as Senator Warner said, we have, what, 13 States now 
that are seeing this? Is that correct, Ms. Saltzman?
    Ms. Saltzman. Sixteen.
    Senator Klobuchar. Sixteen States.
    Ms. Saltzman. And the District of Columbia.
    Senator Klobuchar. OK. And this may be just the tip of the 
iceberg? What I'm looking at is further down. If your tests 
show, as Mr. Kampf has testified here, that this is a major 
problem, what would be the logistics of a recall of products 
like this? Just how would this work?
    Ms. Saltzman. As you've indicated, this is--the logistics 
could be an issue. It is not like a recall that we've had with 
toys. It would take into account a lot of different factors, 
and we'd have to rely upon, in addition to CPSC's authorities, 
some of the authorities for some of the other agencies, and it 
would require our legal division and also our compliance 
division, after we've provided the technical data to them, to 
work something out with the other Federal agencies.
    Senator Klobuchar. Do we have any idea how many homes this 
drywall was used in, nationally?
    Ms. Saltzman. No, we don't.
    Senator Klobuchar. Does anyone else have an answer?
    [No response.]
    Senator Klobuchar. Do we have any historical example of 
when there has been a recall like this in multiple constructed 
homes?
    Ms. Saltzman. No. I am not aware of any that I can speak 
to, at this point.
    Senator Klobuchar. Now, I know you had said that the CPSC 
has been in contact with our counterpart agency in China, and 
there is continuing exchange of information. What kind of 
information are you exchanging?
    Ms. Saltzman. We have posed a number of questions to them 
about the origin of the lined product and also about the 
process, and perhaps what kind of additives may have been 
included in the drywall. We want to learn a little bit how it's 
made.
    We've actually--plan on going to visit China, and we 
anticipate that the Chinese officials will be here next week, 
and we are hoping for cooperation.
    Senator Klobuchar. And do we know how many factories this 
came from, this drywall? Is it multiple producers, or is it 
one?
    Ms. Saltzman. Knowledge that we have is that it's more than 
one.
    Senator Klobuchar. All right. I would echo what the other 
Senators have said here. When you hear Mr. Kampf's story and 
the story of these other people, this is something that we have 
to do on an expedited basis. But, if, in fact, the tests show 
and verify what we're hearing here, this is going to be a major 
logistical issue for the country and the Consumer Product----
    Ms. Saltzman. I agree----
    Senator Klobuchar.--Safety Commission.
    Ms. Saltzman.--and--excuse me, I'm sorry for interrupting, 
but I----
    Senator Klobuchar. That's OK.
    Ms. Saltzman.--I can guarantee that the staff from--the 
staff, all the way up to the Commission, that we're really 
working diligently on this, and we feel very passionate about 
it. We're consumers and homeowners, ourselves. And this is a 
very high priority for the agency. We've----
    Senator Klobuchar. OK.
    Ms. Saltzman.--put a lot of resources into it, and, in 
addition, as I said, the staff is very passionate about helping 
the homeowners. Many of us have been there for decades----
    Senator Klobuchar. Yes.
    Ms. Saltzman.--and this is our life's work, and we feel 
very----
    Senator Klobuchar. Very good. OK.
    Ms. Saltzman.--compassionate about it.
    Senator Klobuchar. Thank you.
    Senator Nelson. Mr. Chairman, in addition to Mr. Kampf's 
testimony, I have testimony here from five other homeowners in 
Florida. I want to make that a part of the record.
    Senator Pryor. Without objection.
    [The information referred to follows in the Appendix to 
this hearing.]
    Senator Nelson. Now, I think, Ms. Southerland, you get the 
gist, that in an emergency letter that comes to you, a reply, 
two and a half months later, is not acceptable. And I would 
expect on the basis of what you're hearing now, that the EPA as 
well as the Consumer Product Safety Commission, within the 
jurisdiction that you have be prompt.
    Now, let me ask you about the tests that you've already 
done. As I stated earlier, Chinese drywall has three different 
elements, different than American drywall. One was sulfur, two 
was strontium, and three were organic compounds that are found 
in acrylic paint. What do you think about these substances?
    Ms. Southerland. Well, I think all of them have the 
potential for being a potential health-effect problem. We're 
working with ATSDR and CDC. Of course, they cannot use this 
kind of elemental composition information to guess at the 
exposure to humans by these compounds. So, the next step is to 
do the chamber studies that CPSC has underway, and the indoor 
air monitoring, because that will allow us to see which of 
these compounds that are in the drywall will actually be 
exposed to a person living in the home. So, we have to do that 
exposure analysis.
    Senator Nelson. Now, as I understand it, there has been 
some jurisdictional flap, here, about who is going to pay for 
this next test that is critical to simulate the conditions of 
heat and humidity to see what gases come off of this thing. And 
that's why you threw it back in our laps, in order to get $2 
million for you, which we're going to do today in the 
supplemental bill. But, were something to happen like that, 
whereby we didn't get it through the supplemental 
appropriations bill, it is our expectation, within the monies 
that you have in your two respective agencies, that you'll go 
on and get this next test done. Is that understood?
    Ms. Saltzman. Yes, Senator. In fact, at the Commission, 
we've already made some adjustments and shifted some of the 
resources around so that we can work on this issue, and do it 
as expeditiously as possible. We're not waiting for that $2 
million that--we've already made some changes. But, thank you 
very much. We do appreciate the efforts on our behalf to be 
able--and on behalf of your constituents--to be able to get 
these studies done.
    I think, as Ms. Southerland has indicated, the next steps, 
after their preliminary study, is to do some of the chamber 
testing and the indoor testing. But, I do want to assure you 
that, in addition to doing the scientific testing, we're doing 
the appropriate investigative work, as well. We are inspecting 
firms. We have sent letters out to the major importers. And, 
most importantly, we have issued information to the homeowner 
on what to do if they are--have health effects or they see 
corrosion of the metal. And that has been up on our website, 
and we're also working to have a website up, that should be up 
momentarily, kind of a one-stop shop for the homeowners, where 
they can get information from all the agencies. So, we're 
moving along simultaneously on a lot of different tracks to be 
able to resolve this. And we want to resolve it and be able to 
provide the appropriate remedy for the homeowner, as well as be 
able to have the basic science and the factual information so 
that we could hold accountable responsible parties.
    Senator Nelson. You understand that I don't want words, I 
want action.
    Ms. Saltzman. I understand that----
    Senator Nelson. OK.
    Ms. Saltzman.--completely.
    Senator Nelson. Now, let me just assure you that, soon, 
you're going to get a new chairman and two new members, and, 
since they have to come through this committee, I can assure 
you they are going to be educated, by the time they get 
confirmed, about Chinese drywall.
    Ms. Saltzman. I can assure you they will be educated.
    [Laughter.]
    Ms. Saltzman. If they're not already educated.
    Senator Nelson. I can tell you, the Chairman-to-be is 
already educated. So----
    Ms. Saltzman. Well, this----
    Senator Nelson. So, you're going to have the leadership 
that is going to try to tackle this issue.
    Now, let me come back to Ms. Southerland. Of these three 
elements that you found in this test, would you expect to find 
those elements in American-made gypsum drywall?
    Ms. Southerland. The four samples of gypsum that we took, 
we didn't find any sulfur at all. We did find some strontium, 
at lower levels, granted; but, again, it's just four samples. 
And the propanoic acids that we found look like they're 
associated with paint, so we actually do have to do further 
checking there to see if it's really the gypsum itself or it's 
the paint that was on the gypsum.
    The Chinese drywall was taken from a house, so it was 
painted; where, the U.S. drywall we looked at was unpainted, it 
was stock material. So, we have a little additional work we 
have to do on that.
    Senator Nelson. Here is some Chinese drywall for you. It is 
not painted. We sawed it out of the wall, in that picture that 
I showed you, so I've got some for you, right here, without 
paint.
    Ms. Saltzman. In addition, we have some samples that 
haven't been put into homes yet, and so, that's a very valuable 
type of sample, from a scientific standpoint, because it's 
something that isn't in the home and it hasn't had the ability 
to absorb anything else. So, we do have a number of samples 
that we'll be testing.
    Senator Nelson. Ms. Southerland, is it possible that the 
Chinese added some chemical or element during the production 
process, like a fungicide?
    Ms. Southerland. Our data doesn't show that, to date. What 
we're going to have to do, I think, is take a look at, once we 
get into the chamber testing, exactly what is off-gassing from 
the drywall. All we have from our samples--unfortunately, these 
elemental characterizations just tell you the total number of 
compounds that are actually inside the drywall, and don't give 
you an idea of what a human would be exposed to. I----
    Senator Nelson. Is it possible that the Chinese company 
would have recycled old gypsum board as part of the production 
process for this so-called new wallboard?
    Ms. Saltzman. Actually, those are some of the questions 
that we are trying to answer, ourselves.
    I do want to indicate, also, that--not to get too bogged 
down in the science of some of the testing program, but to 
follow on to what Ms. Southerland has mentioned--is that, after 
we conduct some of the elemental analysis to find out what's in 
some of the drywall samples, again, the chamber studies that 
we're going to be conducting, we're going to be able to isolate 
and characterize specific emissions. And then we're also going 
to be doing an in-home study, where we're going to look at the 
emissions that are within the home environment. And we're also 
going to be able to look at the emissions behind the walls, and 
that's going to be a great bonus to the scientific evidence, to 
be able to pinpoint it and link it back to the drywall.
    Senator Nelson. Ms. Southerland, if, in this subsequent 
testing, the EPA finds something in the drywall that is a 
regulated chemical, hazardous to human health, what will the 
agency do about it, and how fast will you do it?
    Ms. Southerland. Well, I think then we would have to look 
at the evidence that we have and the authorities we have 
available. So, we have some opportunity, under our Toxic 
Substances and Control Act, to look at the regulation of 
products, but I think that would just have to be something that 
we looked at after we got some evidence.
    Senator Pryor. Let me, if I may, give a brief update--we 
hear that there is a vote coming on the Senate floor soon. We 
heard it was going to be at 11 o'clock, and it's 11:20, they 
haven't called it, so--that's what we call ``Senate time'' 
around here. But, anyway, they're working through that, and 
they're trying to get that called.
    So, let me go ahead and turn it over to Senator Warner and 
get him to ask some questions, and then we'll go to Senator 
Klobuchar.
    Senator Warner. Thank you, Mr. Chairman.
    I guess one question I would have is--and I think Senator 
Nelson is asking the right questions, in terms of finding the 
analysis, the source, and how bad it is. But, for either Ms. 
Saltzman, Ms. Southerland, Dr. McGeehin or Dr. Krause, what do 
you say to Mr. Kampf during the meantime?
    Ms. Saltzman. I think what I----
    Senator Warner. Do you say, ``Just suck it up?'' What do--
to you--what's the answer----
    Ms. Saltzman. No----
    Senator Warner.--in the meantime?
    Ms. Saltzman.--absolutely not. I think that what we have 
said, and what we will say, is that if a homeowner does have 
health symptoms, they absolutely, the first thing, should 
consult with their physician. And if they find that there is 
corrosion in their home, and they are concerned, and they feel 
that it's affecting the wiring in their home, then they need to 
contact an electrician. If there's a belief that there is 
something that's affecting the gas fuel piping, absolutely get 
out of the house, call up the utilities.
    Senator Warner. And other than saying, ``Go see a doctor,'' 
what relief?
    Ms. Saltzman. We don't have the relief, we don't have the 
answer, at this point. We don't know the causative agent. And I 
think the relief is going to be something that's probably more 
than what the Consumer Product Safety Commission will be doing 
alone. As we indicated before, this is going to be an effort 
that's going to have to be addressed by other agencies.
    I do want to remind you, though, I'm a toxicologist. I 
really can't speak for the agency. I can't speak to the legal 
issues. And I can't speak to the compliance or the policy 
issues.
    Senator Warner. Mr. Kampf, I don't know whether that was 
the reassuring answer you were looking for.
    Mr. Kampf. With all due respect to the answer, I'm not 
sure--I'm not the only one in this situation. There are----
    Senator Warner. I understand that, sir.
    Mr. Kampf.--many other families that I would like to make 
sure that I represent during this testimony.
    But, it's disheartening to know that--I worked for the 
Federal Government for 37 and a half years, and I know how long 
it takes to get things done. And it's unfortunate that if I'm 
going to--I'm on the other side of the table now. If it takes 
that long to do it, to get remediation, I can't afford to just 
lift my family up and move to another house. I still have--as 
Senator Nelson said, I still have a mortgage to pay, and the 
banks are going to come after me if I don't pay it. So, I would 
like to see something done quickly, more quickly that I'm sure 
anybody at this table would like to say, but I want it done 
quickly. I don't know how that can happen, but I just really 
feel--I feel left, sort of, up in the air, and I'm not sure 
what to say.
    Senator Warner. Senator Nelson, I know you and the Chairman 
have taken the lead on this. Is there any ability to look at 
FEMA assistance or other assistance? The notion that we're 
going through the appropriate scientific analysis--but the 
appropriate scientific analysis, sounds to me, could take 
additional months. In the interim, you have, again, a financial 
hazard, but, even worse, a health hazard.
    I mean, Dr. McGeehin or Dr. Krause, do you want to make a 
comment, here?
    Dr. McGeehin. Senator, we are moving as quickly as we can. 
And I think everybody at this table realizes the urgency of 
this, but we do have to have scientific data on which to base 
it.
    Right now, I haven't seen any data that really tells me 
what the people are being exposed to. I have some pretty good 
ideas, based on what was found in the elemental work and what's 
happening to the metal in the homes. I think there's no doubt 
that there are corrosive materials in the air, and, I think, 
based on the information I've looked that came out of Louisiana 
and Florida, that there's no doubt that that corrosive material 
is causing health problems. I think that's true.
    I still think we have to get good exposure data on which to 
base our decisions, and we're moving as quickly as we can on 
that. Once that happens, from what I have seen of this issue, I 
think it's going to be difficult to determine what the next 
step will be, because one of the--when we dealt with a similar 
issue with formaldehyde in trailers, we had a nice listing of 
who was living in which trailers, and we were able to sample 
around that, and we had FEMA that had a roster of people, and 
they were able to move the people out of the homes. One of the 
questions that's come up repeatedly in this issue is, Do we 
know how many homes are affected? Do we know where those homes 
are? Do we know how many people are in those homes? There's a 
tremendous number of variables that have to be dealt with 
before we can even talk about what the remediation might be in 
this situation.
    But, I want to convey to the Senators that the agencies 
that are working on this do have a sense of urgency about it, 
and do understand what this gentleman and other people are 
going through, since we all have houses and we all have 
mortgages, and we all know what would happen if that happened 
to us. But, we do have to have at least some scientific data 
that tells us what the compounds are and where they're coming 
from before we can decide on what the remediation should be.
    Senator Warner. Dr. Krause, do you want to add anything?
    Dr. Krause. Senator, Florida has moved forward in a 
direction to, not only identify some of the compounds that have 
been--that are being emitted from the gypsum drywall imported 
from China, we've identified three compounds that can be 
detected in the laboratory. And we've also reached out to some 
of the consultants for builders who have conducted testing in 
homes. We've seen what is, considerably, a small database of 79 
samples taken in homes by one builder's consultants, Environ 
International. However, these data are very sparse. The 
concentrations that are demonstrated are very low, in the low 
parts-per-billion range. And these--it's difficult to reconcile 
the amount of corrosion that we're seeing in these homes with 
the low concentrations.
    However, the symptoms that are being described by 
homeowners are fairly consistent, but they're also very 
ubiquitous. It would be hard to find a group of people that 
hasn't experienced some of these symptoms.
    We do need to validate the estimated number of homes that 
are affected, because that tells us how many homes we need to 
be testing and looking at, overall. We also need to conduct the 
wide-scoping study to measure these chemical exposures.
    I'm not only concerned with the primary corrosive gases, 
but the interactions those gases may have with other household 
chemicals--paints, varnishes, and the like--and secondary 
compounds that are created from those chemical interactions. 
And that has not been examined to any detail.
    We also need to determine the risks of--the corrosion has 
with fire and electrical-shock hazards in the homes. We've 
reached out to State fire marshal's lab, and they're moving 
with some preliminary studies to evaluate the effects on smoke 
alarms and carbon monoxide alarms.
    Senator Warner. Is there interim advice you can give to 
these homeowners, in terms of fans or other things that would 
circulate?
    Dr. Krause. Well, we have. On our website, we have what we 
believe to be some of the most comprehensive data and 
information to, first, determine if your home is affected. We 
have a self-assessment guide that includes photographs, images, 
a walk-through for the homeowners, but which does seem to be 
very helpful, and at least people who think they may have the 
problem, they can at least rule themselves out as to not having 
this problem. And we've received positive feedback there.
    We've also got links for the people to communicate and 
participate in a survey with our county health departments 
that's capturing some demographics information, as well as to 
register a complaint with the attorney general's office.
    Senator Warner. What do you tell them to do to mitigate the 
circumstances if they can't afford to move out in the interim?
    Dr. Krause. We currently do not have evidenced-based or 
scientifically based recommendations. Here's one of the 
problems. In Florida, we have a lot of heat and humidity, as is 
well recognized. Simply opening the windows could exacerbate 
the problem. By increasing the humidity in the homes, you may 
actually increase the rate at which the compounds come out of 
the drywall. Also, in--opening the windows increases the amount 
of condensation that forms on the air-conditioning coils, 
causing them to fail at a faster rate.
    Filtration has been recommended, or is being look at by 
some of the manufacturers. However, I have very tempered 
expectations for these filters to actually be able to remove 
these compounds from the air at a decent rate.
    Senator Pryor. Senator Klobuchar?
    Senator Klobuchar. Thank you very much.
    Dr. Krause, I was listening, here, thinking, in Minnesota 
we like to open our windows when it gets warm because we're 
closed in. And the thought that these people who have these 
homes--and they're in areas like Florida, Louisiana, or 
Virginia--can't even open their windows because they think it 
might make it worse. It shows to me how enormous this problem 
is and how little we know about how extensive it can be and 
what they should do. I mean, I can't imagine having a home and 
being told, ``Oh, you can't open the windows, because it might 
make your kids sick.''
    And so, one of the questions I had is for Dr. McGeehin. I 
know that Senator Warner explored this with you some, but you 
said you were not exactly sure what the causes are, but you 
have some suspicions. And I would think the corroding that 
you're seeing with the shower stems and those kinds of things 
certainly is a clue. But, you said you have some ideas. Could 
you elaborate on that?
    Dr. McGeehin. Well, I think we have--we have data that's 
pointing us toward sulfur products. The elemental analysis that 
was done by EPA/ERT found sulfur in the Chinese drywall. And 
I--my understanding is that some of the preliminary data that 
was taken by builders and others found some sulfur products in 
the air.
    Again, I think you're getting it from all panel members, 
that we need more valid data, and we need to have it in 
realtime situations, in the homes, with the temperature and 
humidity.
    But, I--what'll happen is, what--went the scoping visits 
are done, and the more comprehensive analysis is done, what 
this normally does is, it begins to focus in on the compounds 
that might be causing the problem, and then the future analysis 
can focus on those. It could be done more rapidly, and it could 
be done more extensively.
    I would think that we may end up focusing on sulfur 
products, but there may be some other compounds in the air that 
we need to look at and eliminate first.
    Senator Klobuchar. I chair the Subcommittee, in the 
Environment and Public Works Committee, on children's health. 
And a lot of times we see, with these types of problems, that 
kids aren't just little adults, that they actually can suffer 
more and be more affected by toxics in the air. Do you think 
that's possible here?
    Dr. McGeehin. Yes, it's possible here, Senator, for the 
various reasons that you just mentioned. They're not little 
adults. They breathe at--actually at a different breathing zone 
for gases; it may be important. They are developing many of 
their systems that can be affected. And--including the 
respiratory system--and they, in fact, frequently are impacted 
to a greater extent by environmental contamination than full-
grown adults.
    Senator Klobuchar. And are there kids who are showing some 
of these symptoms?
    Dr. McGeehin. From the data that I have seen from Louisiana 
and from Florida, that many of the people who are calling in to 
the hotlines are reporting that their children are having 
symptoms similar to what the adults are seeing--upper 
respiratory irritation, sometimes asthma exacerbations, 
scratchy throat, runny and burning eyes, that sort of thing.
    Senator Klobuchar. And you mentioned that it's possible 
these are symptoms you'd see with other colds or other 
diseases. Is it also possible--is it also possible we're seeing 
an under-reporting because people think they have colds and 
other things?
    Dr. McGeehin. Oh, certainly. I think whenever the--when you 
have reports of people who have to call in to hotlines, you can 
have under-reporting, you can have biased reporting. But, it 
does give us an indication, when we're seeing, through two 
different States, through two different systems, some symptoms 
that are showing up regularly. And I think that we are seeing 
some consistent symptoms.
    Senator Klobuchar. And----
    Ms. Saltzman. I can tell you that we've had consistency in 
the data that we've collected from the 16 states where we've 
had reports, that there is a commonality to the symptoms.
    Senator Klobuchar. And do a high number of these show this 
corrosion on, like, the shower heads and things like this, too?
    Ms. Saltzman. Yes.
    Senator Klobuchar. I would think that once you see that, 
and then you see the symptoms----
    Ms. Saltzman. Right.
    Senator Klobuchar.--it's hard to think that they may not be 
connected.
    Have you seen this, Mr. McGeehin, in other construction 
materials before--not these exact symptoms, but there have 
been--are there examples--I keep--I keep trying to draw on 
history, here, because, to me, this seems like such an enormous 
problem with these construction materials and figuring out, 
then, what to do with these homes, and recalling and tearing up 
walls. And I just--have you seen this with other construction 
material? I suppose asbestos has been a problem in the past. Do 
you have other examples?
    Dr. McGeehin. Well, basically, what you're seeing with some 
of these symptoms are what we frequently see when we have 
indoor air contamination. Something you may have heard of, 
called ``sick building syndrome'' frequently has symptoms like 
these, where people have upper respiratory, they have--more 
often, they have colds and flu-like symptoms. So, it's not 
unusual to see these types of symptoms when we're dealing with 
environmental contamination.
    Now, your specific question, Senator, Have I seen this with 
building materials? CDC hasn't done a lot of work with building 
materials. And I think--if you're thinking about history, I 
think this particular exposure, and the way it's developing, is 
historical. I don't think we've seen this before.
    Senator Klobuchar. How about in China? It's pretty humid 
there. I was just there. Have they had reports, or in other 
countries, of things like this?
    Ms. Saltzman. We haven't heard of any in China. I'm not 
sure what kind of construction, building construction they 
have, if it's similar to the type of construction that we have 
in the United States.
    I do want to add something else. When our team did go down 
to Florida, they did experience the same kinds of symptoms that 
have been reported----
    Senator Klobuchar. You mean your team that went just to 
visit and do the----
    Ms. Saltzman. Yes.
    Senator Klobuchar.--testing?
    Ms. Saltzman. They did go--they went into the homes, and 
they--in fact, they were in the home with the gentleman down 
the----
    Senator Klobuchar. And so, it happened really quickly. It's 
not just----
    Ms. Saltzman. Yes.
    Senator Klobuchar.--cumulative over time?
    Ms. Saltzman. Yes. Yes. They noticed, when they came into 
the house, that they experienced some of the symptoms, as well. 
And I think last month, when we were here talking to Senator 
Nelson, we did discuss that with him.
    Senator Klobuchar. OK.
    Ms. Saltzman. That----
    Senator Klobuchar. Well, that's somewhat startling, I would 
say, that people can just get it from walking in the house.
    My last question, here, would just be--I know that you 
said, Dr. McGeehin, or maybe it was you, Ms. Saltzman--just the 
problems of trying to trace all these construction materials 
and this drywall, and how you would ever do this. I would say, 
in response to that, we have traced faulty products before. And 
we've done this. People have to say, where they got their 
products, where they ordered them, and then you have to trace 
them back to what manufacturing place that they came from. I 
mean, that's what you've done with other kinds of products. So, 
I don't buy that it's just impossible to figure out where these 
products came from.
    Ms. Saltzman. We're not saying it's impossible, we're 
saying that it's challenging, but we are taking----
    Senator Klobuchar. OK.
    Ms. Saltzman.--an approach, and a very----
    Senator Klobuchar. All right.
    Ms. Saltzman.--aggressive approach.
    Senator Klobuchar. OK, very good. Thank you.
    Senator Pryor. Let me make one observation for our Federal 
and State witnesses, and that is, this is a very time-sensitive 
problem. And I'm reminded a little bit of a conversation I 
recently had with Secretary of Commerce Locke, where, when they 
were trying to figure out how to allocate some of the stimulus 
money and take care of some of that, his professional staff 
said, ``Well, it's going to take us about 6 months to go 
through this process.'' And he said, ``You know, this is 
economic stimulus money. We don't need 6 months. We need it in 
6 days.'' And so, he cracked the whip, and he got them to do 
it.
    And I know that everybody's working hard on this, but I 
would encourage all the Federal and State agencies to work 
overtime trying to get to some clarity on what we're talking 
about here. And I understand, with the scientific issue, some 
of that does take time, and you've got to be careful, and you 
have to do it right, and I'm not saying cut corners and don't 
do it right. But, I would just strongly encourage our Federal 
and State folks to really work together and get to a good 
understanding of what we're dealing with here, and then take 
the appropriate action.
    Senator Nelson?
    Senator Nelson. Dr. McGeehin, as you put together the draft 
fact sheets for medical personnel, share with the Committee 
what symptoms you're telling the doctors to look for.
    Dr. McGeehin. The same symptoms that you had spoken about, 
Senator, and that I mentioned earlier and that we're seeing 
with two--both hotlines from the States, the upper respiratory 
irritation, the eye irritation. I can't remember the fact sheet 
verbatim, Senator, but I believe we do talk about the potential 
for asthma exacerbations, but I'm not certain of that. But, the 
symptoms that we are seeing in both of the States that have the 
hotlines going.
    Senator Nelson. Have you seen these kind of symptoms in 
exposure to other chemicals in other cases?
    Dr. McGeehin. Well, these--in industrial settings, yes, 
sir.
    Senator Nelson. And give us an example. What type of cases?
    Dr. McGeehin. Well, these sorts of--these sorts of symptoms 
can come up when you're dealing with sulfur compounds in 
industrial settings. Hydrogen sulfide can cause these sorts of 
symptoms. Carbon disulfide can cause these sorts of symptoms. 
There are other reagents and products that may cause these 
symptoms. But, this--these symptoms would not be out of line 
with what we might see with hydrogen--I mean, sulfur compounds.
    Senator Nelson. Dr. Krause, you're the State toxicologist. 
How many homes do you think need to be tested before we get 
helpful test results?
    Dr. Krause. Senator, we may be able to see something in the 
preliminary testing of the three homes. If something's--jumps 
out and is obvious--an obvious health hazard from that, we 
would certainly report that.
    However, the more perplexing question comes if nothing--no 
specific or group of chemicals appears to be at levels that 
would explain the symptoms or the corrosion, where a much 
greater understanding is necessary. That goes back to 
understanding the number of homes that this may have been used 
in and test--and installed. So, it's going to be well--you 
know, well past and into the dozens, if not hundreds, of homes 
that need to be examined.
    We may not reach statistical significance, is the point I'm 
trying to make. However, we can achieve some useful information 
by looking at a variety of the construction styles, types, 
sizes of homes, whether it's a townhome or a 7,000-square-foot 
home. We need to look at a variety of construction types and 
styles.
    Ms. Saltzman. Senator Nelson, if I might add that, looking 
at some of the drywall samples in isolation in the chamber 
studies that we're going--testing that we're going to be doing, 
will also provide some evidence for what actually is coming off 
the drywall, and it would actually then dovetail into in-home 
studies. I can assure you, we don't have to wait til every 
single piece of data is collected in the chamber before we 
start the in-home sampling. And as we're going through the in-
home sampling, if something looks like it's jumping out at us, 
and that seems to be the direction we need to go, we will 
actually take every step we can to expedite the testing and 
move in that direction.
    Senator Nelson. If you find that there's something 
hazardous, and you come to that conclusion, do you recommend, 
then, to the board of the CPSC, that they take immediate action 
with regard to stopping importation of this material?
    Ms. Saltzman. As a scientist, I would provide that data to 
the senior managers, and it would be up to them to make those 
kinds of decisions.
    Senator Nelson. OK. Also, let me ask you, the CPSC has 
entered into talks with the Chinese government; specifically, 
the Chinese product safety regulator. And I think that they 
call it the Administration for Quality Supervision and 
Inspection and Quarantine.
    Ms. Saltzman. Yes.
    Senator Nelson. What information have you received from 
them?
    Ms. Saltzman. There have been regularly scheduled phone 
conversations. We have posed a number of questions to them. We 
are hoping that they're going to be cooperative, and we'll 
receive answers to those questions when they're here, early in 
June.
    Senator Nelson. Three, possibly four, Chinese drywall 
specimens have been identified--Dragon, Tashon, and CNM--and 
they are associated with the Chinese National Building 
Materials Company. And it's fully owned by the Chinese 
government. So, has that organization that I talked about, the 
Administration for Quality Supervision and Inspection and 
Quarantine, or the Chinese Ministry of Commerce--have they 
turned over any records from those companies to you, the CPSC?
    Ms. Saltzman. I'd like to be able to get back to you on 
that. I wouldn't be at liberty to discuss, in public, 
particulars about companies, but we'd be very happy to get back 
to you on that.
    Senator Nelson. Have they agreed to allow any plant 
inspections?
    Ms. Saltzman. We're planning to go over to China. I don't 
believe that we've gotten a commitment at this point. I will 
have to get back to you on that.
    Senator Nelson. Well, how about another company, Knauf 
Tianjin, have they turned over any records?
    Ms. Saltzman. Again, I can't discuss specific companies, 
with the public here. I--but, we'd be happy to get back to you.
    Senator Nelson. All right, let me tell you, not only is the 
time clock clicking here with regard to people's health, but 
this is almost the 1st of June, and, later in the year, the 
President is going to China. And clearly, this should be on his 
agenda because at the end of the day, if this thing is really a 
problem, as it looks like it is, you're going to have to get 
the cooperation of the Chinese government to crack down on it, 
which, by the way, was the problem with the Chinese toys. The 
Chinese government was not requiring the Chinese manufacturers 
to meet the safety standards that they ought to have met before 
they exported the toys to the United States.
    Ms. Saltzman. Yes, we understand the importance of this 
investigation and of your questioning. We are looking at 
several different avenues. We have contacted a number of 
companies. We've done some inspections. As I said, we'll be 
happy to get back to you with some additional specific 
information.
    Senator Nelson. All right. You can answer this question 
because you have jurisdiction over stopping the importation of 
these products. Tell me, how much of this stuff was imported?
    Ms. Saltzman. I'm sorry, I can't give you that answer.
    Senator Nelson. Well, are you----
    Ms. Saltzman. I will get back to you on that.
    Ms. Saltzman. As I said before, I'm a toxicologist. I will 
get that answer back to you.
    Senator Nelson. Well, the lady behind you seems to have 
answers. Would you come up and identify yourself? Come on up to 
the microphone. Identify yourself.
    Voice. I'm the general counsel. And what I--Ms. Saltzman 
just doesn't have those facts.
    Senator Nelson. OK.
    Voice. But we can get you those facts.
    Senator Nelson. You do----
    Voice. I don't have them right with me, either, but----
    Senator Nelson. All right. You----
    Voice.--we'll get----
    Senator Nelson.--would have the answer to this question. 
Are you working with Customs and Border Protection to obtain 
this information of how much of this stuff was imported?
    Voice. Yes, they've given us that information, and, as we 
explained when we were here on April 30, the difficulty there 
is separating out the sheets of drywall for the walls from 
ceiling tiles, two different products. But, we're working with 
them on that, and investigating further on those numbers, and 
we'll provide you with all of that as soon as we have those 
numbers.
    Senator Nelson. Well, you just told me something I didn't 
know. We could have this problem in ceiling tiles?
    Voice. No, no. I'm just saying that the way that codes work 
for--the tariff codes--it covers more than just drywall sheets. 
So, we have to sort out how much of that's drywall sheets and 
how much of that is ceiling tiles, which do not appear to have 
that problem. So, we're just trying to get the right numbers, 
and it's an academic exercise. We've got 44 or more letters out 
to importers, trying to figure out who got the actual drywall 
sheets so we can have those answers for you.
    Senator Nelson. OK.
    Mr. Chairman, I've just got a couple of other quick areas I 
need to cover here. I thank you for holding this hearing 
because I think we're getting the word out on the problem.
    Senator Pryor. I want to thank you for your leadership 
because this really is your hearing. This is your request and 
you've done a great job asking good questions.
    Senator Nelson. Well, you're very kind, but we've got a 
problem, here, and we've got to get to the bottom of it.
    Now, because there is a problem, and we're all working on 
it, and we thank you for that, and, despite my irritation, I am 
appreciative to you for what you're doing. It's been way too 
slow, but I think we're now all in the harness, pulling in the 
right direction.
    Now, we've got another situation that we've got to address, 
and that is the lack of public information. In the last week, 
the CPSC has posted a drywall information package on its 
website, and we appreciate that. Do you think it might make 
sense for the agencies to work in a unified information portal 
so the public can see the information collected by all of you 
Federal agencies, and to see that in one place? Is this 
something that has been discussed?
    Ms. Saltzman. Yes. In fact, we are--we'll be launching 
something, in a very short timeframe, where it's going to be 
one portal, like we have for recalls.gov. It'll be something 
similar to that, where there'll be information from each of the 
Federal agencies.
    Senator Nelson. OK. My concluding comment would simply be, 
what I want you all to do--I won't take this stuff out, because 
I was handling it all of yesterday, and I washed and washed my 
hands afterwards. I want you to take a piece of the Chinese 
drywall and look at it in a cross-section. And then I want you 
to take a piece of American drywall. And hold them up next to 
each other. And what you'll see is, first of all, that it's 
much denser in the American gypsum drywall. And you can see 
that with your naked eye. Whereas, there is a lot less 
consistency in the Chinese drywall, and it's not nearly as 
dense. That suggests to you that there is obviously, just by 
looking at it, something different and that we are now finding 
out these compounds are coming off.
    So, let's all get in the harness and pull together and get 
this problem solved. And then, on down the road, we've got to 
figure out what in the world these people are going to do. They 
can't afford to rent and still pay their mortgage if they're 
not living in the house. I don't know what the solution to that 
is. Senator Warner has raised that problem. Does it come in 
with FEMA? I'm not sure that's a direct issue of FEMA. But, 
after a natural disaster like a hurricane or an earthquake, 
FEMA steps in to provide temporary housing for people. So, 
we're going to have to look at something like that because 
these people are no less affected by a tragedy than the victims 
of a hurricane or a flood or an earthquake.
    So, thank you, Mr. Chairman.
    Senator Pryor. Thank you.
    Senator Warner?
    Senator Warner. Thank you, Mr. Chairman. Just a couple of 
quick comments.
    One, thank you, Senator Nelson, for your advocacy on this 
issue and your leadership. And, again, Mr. Chairman, for the 
hearing.
    I'll be very brief. One, I want to thank Ms. Saltzman for 
that commitment that we'll have teams in Virginia within the 
next week, and that your agency will get back to me within 2 
weeks at least indicating how many places you've tested. And I 
thank you for that, and I'll expect to see that back within 2 
weeks.
    I would also tell you that--echoing what Senator Nelson 
suggested, I understand we've got to continue to do the 
testing. I understand we've got to continue to do the health 
analysis. But, for gosh sake, the sooner we can get out 
information to folks who are living with these circumstances on 
what they can do in an interim, until we get some total 
resolution, it's stunning to me that we have people going in 
and testing, and having symptoms from going into these homes to 
do the tests. We're leaving the homes and then saying to the 
homeowners, ``Hang in there.'' That's outrageous. And I 
understand that means you've got to translate that into 
constructive action. We will look, from the FEMA side, but we 
desperately need that advice for folks on what they should be 
doing during this interim period.
    And I, again, commend Senator Nelson. But, we hear you, and 
I think--again, Senator Klobuchar mentioned this earlier--with 
the number of States continuing to increase, I fear that we are 
at the tip of an iceberg of what could be a natural and 
national disaster that is both a healthcare disaster and, for 
many families, going to be a financial disaster.
    Thank you, Mr. Chairman.
    Senator Pryor. Senator Klobuchar?
    Senator Klobuchar. Yes, let me end by saying this--I became 
interested in the consumer product issue, the children's toys 
issue, and we had a little boy, named Jarnell Brown, who lost 
his life. He was 4 years old, and his mom got a pair of tennis 
shoes, and she got a charm with them, and he swallowed the 
charm. And he didn't die from choking, he didn't die from his 
airway being blocked; he died over a period of days, when the 
lead in that charm, which was made in China, went into his 
system. And it took years to pass that law in Congress to ban 
these kinds of products and to increase the work that was being 
done.
    And so, that's why I share my colleagues' urgency, here, 
that we do everything we can to test, to figure this out, that 
we can't just simply say this problem is too big to solve, 
these homes are too big to fail. We just have to say that we 
are going to figure this out, and, once we figure out how toxic 
this is and if it is truly causing these symptoms, including to 
workers that just go and inspect the houses, that we are then 
going to have to take some action.
    And it's going to be complicated if, in fact, the evidence 
bears out what we seem to be hearing, but we can't let that be 
the reason we don't do anything. Because, we heard that with 
the consumer products, as well, ``Well, it's too hard to trace 
where they are. We don't know where they're coming from. 
They're from foreign countries; we may not have jurisdiction.'' 
We got to the bottom of them, and, at least we have seen a 
reduction in the number of recalls in recent years. It's a very 
different type of analogy, but we heard some of the same 
arguments on the other side.
    So, I want to thank you, and urge you to move as quickly as 
possible so we don't have other Mr. Kampfs testifying here.
    Second thing I would say is, I'm very concerned of the 
effect on kids of this. We've seen, time and time again, that 
these toxic chemicals have a greater impact on small children 
than they do on adults. So, I hope that's something that you 
will be considering as you go forward.
    Thank you.
    Senator Pryor. Thank you, Senator Klobuchar. And, again, 
thank you for your leadership and for your advocacy on this.
    Mr. Noel, I would hate for you to get out of this hearing 
without answering a few questions. So, now it's your turn to be 
in the hotseat. Let me ask, if I may--you are a homebuilder, as 
I understand it.
    Mr. Noel. Yes, sir.
    Senator Pryor. And you are here on behalf of the 
homebuilders.
    Mr. Noel. Yes, sir.
    Senator Pryor. Tell me, if you can, about the homebuilders' 
experience with this product, when you found out there was an 
issue, and what you've done to try to take care of it.
    Mr. Noel. Yes, sir. As my documents show, I'm from New 
Orleans, and we had to live, after Katrina, trying to reproduce 
houses as fast as we possibly could, because so many houses 
were affected. And all--every one of those houses had to have 
drywall put in them. The demand for drywall was at an 
incredible height, and to get those houses and places for them 
to--people to live that were affected by the storms, we needed 
drywall.
    Typically, a homebuilder, when he orders the drywall, will 
order it, his subcontractor will get the material, you'll order 
the size of the drywall, but you won't specify the manufacturer 
of the products, and you count on the manufacturers testing the 
material and the government agencies making sure that the 
product comes over and it's safe, also that the material has to 
meet the building codes, the ASTM standards. And so, when we 
receive materials and build the homes, we don't particularly 
know what's in the product; we're not chemists. We're trying to 
get the homes up as fast as we possibly can.
    We first got information about problems with this in 
November of 2008. We had a reporter from South Florida call the 
Home Builders Association of Greater New Orleans, asked about 
the Chinese drywall and the problems with the air-conditioner 
coils. Immediately began to call our builders and our sheetrock 
suppliers to find out if we'd had any reports similar to what 
was in South Florida.
    The first report we got was in January 2009. A gentleman 
in--had reported that he'd changed out his AC coils three 
times. A local news channel ran a media report on the Chinese 
drywall for about a week, and then the reports began to flow 
in.
    The major concern--and I will say this about builders--
builders are hurting as bad as those people that are in those 
homes, because they want to do something with it. The problem 
is, it is a most inopportune time, because the economy is so 
bad and builders have seen values of their properties cut in 
half, the banks aren't cooperating, and it makes it difficult, 
because you don't have the assets or the liquidity to go in and 
help those folks. And it hurts.
    The larger builders, the publicly owned builders who have 
that revenue sources, can do those things, but the small and 
medium builders that don't, can't.
    The insurance companies have--so far, as like anything 
else, are backing up and don't want to step in and do anything 
about it. And the most important thing today is, we have to 
figure out how quickly we can get in and remediate these 
problems for these folks. Where is that money going to come 
from to do that? We're estimating this is probably $100,000 a 
house to gut the house and go back and put in new drywall. 
Meanwhile, they have to live somewhere, they have to move their 
furniture out, et cetera. And it's hard to help them when you 
don't have that kind of money.
    And we need--the only place that we can figure out that 
that might come from immediately might be the Federal 
Government, because ultimately the manufacturer of the product 
should be responsible for it. We've had product defects before. 
Generally, a manufacturer who wants to stay in business will 
show up and take care of the problem. In this situation, it was 
another country. And from our perspective, we can't--we need 
the Federal Government's help in that regard.
    Senator Pryor. Let me ask, if I may, a follow-up on all 
that. You indicated that you first became aware of this at some 
point--I think you said November 2008, and then in 2009, more 
cases presented themselves. Are you saying that none of your 
members recognized this on the way in, that there was something 
different about this board? I mean, did it have a different 
smell or a different texture? Were there any red flags before 
it was installed?
    Mr. Noel. That's what was interesting. We--when the 
reporter called, no one had heard about--we knew that there was 
drywall that was imported, that it was different; largely it 
was heavier, sometimes more brittle. But, no indicate 
whatsoever that it would off-gas or that there was a different 
compound in it that might cause a problem at a later date.
    The only thing I can think is--of course, when we build 
houses, they're open. And when we move people in, they rely on 
their air-conditioning system, and, at that point, since we're 
trying to make our homes more and more energy efficient, we're 
making them tighter and tighter and tighter, that that off-
gassing begins to show up in the air-conditioning coils, 
because all the air in that building is going through that air-
conditioning coil.
    Senator Pryor. OK. Let me ask this. And I'm just asking for 
your impression. I know you don't have any empirical data on 
this. I'm not going to hold you to that kind of standard at 
all. But, just based on your familiarity with the issue, it is 
your impression that all of the Chinese drywall that was used 
has this problem, or just a percentage of it, or can you give 
us a feel on that?
    Mr. Noel. Yes, sir. We--the builders that have used it, and 
discovered they used it, have began testing, using private 
firms, some of the same ones that are in Florida. And not every 
house is tested with the same materials. So, it's a presumption 
that some of the Chinese drywall has the sulfur in it, and some 
of it doesn't. That's part of the biggest problem, is we need a 
reliable protocol for testing that everyone can rely on to 
determine whether that product has it or not, because currently 
anyone that has China--``Made in China'' stamped on the their 
drywall, their house is--as Mr. Kampf pointed out, is 
worthless. And some type of certification process to say you 
don't have it would help tremendously in the marketplace for 
those folks that may not have it.
    Senator Pryor. And let me ask this. Again, I'm not going to 
necessarily hold you to, the exact precise correct answer, 
here, but is it your understanding that, generally, as an 
industry, you have all blacklisted this product? In other 
words, is anybody--if any is offered out there on the 
marketplace, are the homebuilders willing to continue to 
install it after this?
    Mr. Noel. Oh, I can--I can just about guarantee you there 
won't be any homebuilders buying ``Made in China'' sheetrock, 
because it would obviously be very difficult to sell a home 
that had that in it.
    Senator Pryor. Yes.
    Mr. Noel. Typically, when you find out there's a problem 
with a product and you're a homebuilder, because you have to 
market to the public, and particularly in this instance, where 
it is so public, you steer way away from any kind of product 
that might potentially have the problem.
    Senator Pryor. Let me ask another follow up that you 
alluded to earlier. You didn't really get into it, and I know 
it's an unpleasant topic, but your industry's going to have to 
deal with it, and that's your legal liability. I'm assuming 
that some of your members are in litigation on this right now.
    Mr. Noel. Actually, in the State of Louisiana, they have 
not included builders in the litigation. I know they have in 
Florida. I don't know why. But, largely it's been back at the 
suppliers and the manufacturer.
    Senator Pryor. And I assume you're not a lawyer, and I'm 
not asking for a legal opinion----
    Mr. Noel. No, I'm not.
    Senator Pryor.--here, but I know that one of the things 
that homebuilders have to deal with frequently is an implied 
warranty of habitability. And maybe some States may call it 
something else, but basically a warranty of habitability. To 
me, it seems that that implied warranty would come into play 
here if you have installed a product, even without your 
knowledge, but you've installed a product that may be harmful 
to the inhabitants and the systems and the value of the home. 
Have you all, as an industry, talked about that? I mean, don't 
you think that you have liability, based on the warranty of 
habitability?
    Mr. Noel. Therein lies the question, why we need a test to 
know for sure the habitability and the health effects of the 
product. All these things are still up in the air. Yes, there 
are places that have habitability in their warranty 
requirements, and--but, for the most part, the general 
liability insurance companies, the warranty insurance companies 
that warrant houses for construction defects, et cetera, are 
backing off. And the questions that need to get answered are, 
(a) what you've discussed all day today. What--how do you test 
it? What's an acceptable level, an unacceptable level? And how 
does it affect your health? Until we get some definitive 
answers like that, it's going to be difficult to answer that 
habitability question.
    Senator Pryor. Yes.
    Ms. Saltzman, let me ask you, if I may--you maybe touched 
on this earlier, but I don't think in detail--and that is, as I 
understand it, the CPSC has jurisdiction over this, up to a 
point. And am I correct when I say that once it is installed 
and becomes a fixture in the home, the CPSC may lose 
jurisdiction and other Federal and State agencies would have 
jurisdiction at that point?
    Ms. Saltzman. It is a complicated issue. As I said before--
I hate to repeat myself--I'm a toxicologist. I'd hate to be 
able--hate to be speaking about the jurisdictional and the 
legal issues.
    Senator Pryor. I think that's the status of the law, if I 
understand it. And the reason I bring that up is because, to 
me, that makes your job harder. The CPSC is, and actually 
should be, the lead agency on a lot of this, should be 
coordinating, should be working with CDC and others, and even 
EPA and all kinds of other folks. And you have to do that. And 
I understand that. But, at some point, you know, it probably 
will have to be a larger solution than just purely CPSC.
    Ms. Saltzman. Yes. I would----
    Senator Pryor. And----
    Ms. Saltzman.--tend to agree with you.
    Senator Pryor. And, again, what I would encourage all of 
our Federal and State folks to do is just work together and try 
to come up with that solution. And I do think CPSC will have a 
huge part of that, but there will be others that have to play a 
pretty major role in that solution, as well, as we go through 
this.
    Ms. Saltzman. Yes. I think I can speak for the other 
agencies that are here at the table, as well as staff from 
other agencies that we may have to call upon. As I said before, 
I think we're all working very diligently and aggressively. We 
are all homeowners, and we understand the issues and the 
concerns for the homeowner.
    Senator Pryor. And I hope that everyone will work with a 
sense of urgency just to try to get this done.
    Ms. Saltzman. Yes, we are.
    Senator Pryor. And also, Ms. Saltzman, before I let you go, 
I want to say that we really appreciate the professional staff 
at CPSC. We understand, as a subcommittee, because we've been 
trying to address a lot of the issues in that agency for a 
while now, about the funding restrictions and the attrition 
rate and the lack of a modern lab and all the other issues 
there. We're not asking you to make bricks without straw, and 
that's one of the reasons why Senator Nelson has been so 
insistent to make sure you get a few more resources, to make 
sure you have the ability to get this done, and get it done 
very quickly. And I appreciate your testimony earlier----
    Ms. Saltzman. Thank you.
    Senator Pryor.--about your not waiting on the 
appropriation. If new dollars do come, you're not waiting on 
that, you're going ahead and acting without that. So, we 
appreciate that very much.
    Ms. Saltzman. Thank you very much.
    Senator Pryor. And with that, what I would like to do is 
leave the record open for 2 weeks and allow Senators who 
couldn't be here today to ask questions.
    I apologize that we hurried so much in the beginning, 
because it's 12:10 now, and we're still waiting on that 11 
o'clock vote to start.
    [Laughter.]
    Senator Pryor. But our information at the time was that we 
were going to have a very abbreviated hearing, and we were 
trying to get everybody in.
    But, definitely submit your written statements for the 
record. We'll do that for you. And be available over the next 
couple of weeks; if Senators have follow-up questions, we would 
love to get those to you and get those answers from you as 
quickly as possible.
    Senator Pryor. And this is a very important issue, and it's 
imperative that we, as the government, the Federal and State 
folks, work together to try to come up with the right testing, 
the right science, and get all that straight, get our facts 
straight, and then come up with the right resolution on this.
    So, it's very important. And I hope I'm wrong, but I would 
think we'd see a lot more of it this summer, as the heat and 
humidity pick up around the country.
    Thank you very much for being here.
    And with that, the hearing is adjourned.
    [Whereupon, at 12:09 p.m., the hearing was adjourned.]
                            A P P E N D I X

        Prepared Statement of Robert D. Gary, Private Attorney, 
              Representing Victims of Contaminated Drywall
    Mr. Chairman and Members of the Subcommittee: My name is Robert 
Gary. I am an attorney with Gary, Naegele & Theado, LLC and, along with 
colleagues from other firms, have been representing the victims of 
contaminated drywall since February of 2009. I attended the hearings 
held before this subcommittee on May 21, 2009 and was invited by a 
staff member of the committee to submit a comment and questions related 
to the issue of whether the well documented problems associated with 
Chinese drywall may extend to drywall manufactured in the United 
States.
    During the course of the testimony on May 21, there were frequent 
comparisons to imported Chinese drywall which has been linked to the 
corrosion of copper in homes and health concerns to presumably safe 
``American drywall.'' In fact, the term ``American drywall'' 
encompasses three distinct forms of drywall which may not all be 
equally safe for use in home construction. Whether a particular wall 
board product is mined drywall or recycled American drywall made from 
fly ash or scrap, can usually be easily determined. The manufacturers 
brand name and information, i.e., `' Gold Bond,'' will indicate whether 
the particular drywall is synthetic (fly ash) or recycled (scrap 
drywall).
I. Mined Calcium Sulfate Drywall
    Most drywall in the United States is manufactured from mined 
calcium sulfate which is a naturally occurring benign mineral found in 
deposit in ancient seabeds. The mined gypsum is made into a paste and 
sandwiched between layers of paper. Drywall made from mined calcium 
sulfate is pure white and odorless while the Chinese drywall which is 
the subject of these hearings has a grey color and omits a distinct 
sulfur odor.
II. Synthetic Drywall
    Drywall manufactured with recycled fly ash is commonly referred to 
as synthetic drywall. Synthetic drywall has been reported to account 
for over 20 percent of the American drywall market. Synthetic gypsum is 
a mix of calcium sulfate and fly ash which is a byproduct from coal 
power plant exhaust gases. The solid waste fly ash comes from a process 
of scrubbing smokestack emissions. The TVA, Duke Energy, Tampa Electric 
and scores of other coal fired power plants across the country provide 
enormous quantities of fly ash for the manufacture of synthetic 
drywall. Some American drywall companies have built facilities devoted 
to the recycling of fly ash from our country's coal fired powered 
electricity facilities and an industry exists just for the purpose of 
selling waste fly ash to American drywall producers to create synthetic 
drywall.
    Recycled fly ash for the production of synthetic drywall has been 
presumed not to be a problem in America because our environmental 
regulations mandate that our Nation's coal powered utilities must scrub 
the sulfur dioxide from their gases. Theoretically it is only processed 
fly ash with the sulfur dioxide removed which is used in the production 
of synthetic drywall. It is a subject of speculation that a possible 
source of the problems with imported Chinese drywall is that it was 
manufactured with fly ash that may not have been properly scrubbed and 
as a result might contain unacceptably high levels of sulfur dioxide. 
Upon closer inspection it may very well be determined that our domestic 
drywall manufactured with fly ash also has unacceptable levels of 
sulfur dioxide. Without an understanding at what concentrations sulfur 
dioxide presents a threat, the potential scope of this problem is 
extremely difficult to even estimate.
III. Recycled Scrap Gypsum
    It is estimated that gypsum scrap from new construction constitutes 
at least 12 percent of all the waste from new construction in North 
America. As a result of the generation of this huge volume of waste 
drywall a new industry has been created in which scrap drywall is 
collected and recycled for use in the manufacture of new drywall. 
Within recent years, recycling companies have developed working 
relationships with the manufacturers of American drywall to provide 
manufacturers more efficient access to scrap drywall for use in the 
manufacture of new product.
    Containers are placed at building sites and waste transfer stations 
and processed for resale to United States gypsum manufacturers. In 
addition to the collection at construction sites an additional source 
of scrap drywall is drywall which is removed from landfills. In the 
manufacture of drywall using recycled scrap drywall the ratio is 
generally 15 to 25 percent recycled material which is combined with 
mined gypsum. As with synthetic drywall using fly ash, recycled scrap 
drywall has an ever increasing share of the American drywall market.
IV. Potential Problems with Drywall Manufactured with Fly Ash And/or 
        Scrap Drywall
    It is beginning to emerge in limited numbers that some homes that 
have been constructed with American manufactured drywall which used 
either recycled fly ash or scrap drywall are exhibiting the very same 
problems as have been reported with Chinese drywall. These homes which 
have been identified as having been constructed with American drywall 
are experiencing the failure of their appliances, blackening of exposed 
copper and respiratory complaints. To date one lawsuit has been filed 
alleging that fly ash is the source of the problem for American 
drywall. The submitted testimony of Brenda Brincku (Alba, FL) is 
illustrative of the problems that some homeowners with American 
recycled drywall are experiencing. The small number of such reported 
complaints may mean the problem is an isolated one or that, as with 
Chinese drywall, it took time for the scope of the problem to percolate 
to the surface.
    The potential problem with fly ash is that it comes from a variety 
of sources and vast quantities are used. It is possible that, as in 
China, in some instances high sulfur content drywall is being used to 
manufacture synthetic drywall.
    There is also the very real possibility that the recycled scrap 
drywall harvested from containers and or landfills may contain 
discarded toxic Chinese drywall. Well before the problem with Chinese 
drywall was identified scrap drywall was being reprocessed and recycled 
into new product by American companies. In addition, there is possible 
cross contamination from a variety of materials from drywall removed 
from land fills.
    In view of the tragedy created by the unanticipated and unexpected 
crisis created by the toxic effects of Chinese drywall prudence 
dictates that potential questions surrounding recycled drywall 
manufactured in this country be addressed and answered even if the 
result only serves the purpose to provides reassurance that the 
potentially dangerous side effects of recycled American drywall is an 
isolated problem.
    Questions Pertaining to the Safety of Recycled American Drywall
        1. Are there any purity standards for the fly ash used in 
        synthetic drywall?

        2. At what levels will the sulfur content of fly ash produce 
        toxic gasses when exposed to high humidity?

        3. Is any imported fly ash used in the production of domestic 
        drywall?

        4. Should the domestic recycled drywall be required to specify 
        if it is manufactured with fly ash or scrap drywall?

        5. Should manufacturers of synthetic and recycled drywall be 
        required to provide information as to the ratios of fly ash or 
        scrap to mined drywall?

        6. Have the government agencies which are comparing the 
        characteristics of American to Chinese drywall distinguished 
        mined drywall from recycled drywall?

        7. If the answer to 6 is yes, has synthetic drywall 
        manufactured with fly ash been distinguished from drywall 
        manufactured using scrap drywall?

        8. How can it be determined if scrap Chinese drywall has 
        contaminated American manufactured drywall through the 
        recycling process?

        9. Are there any standards for the reclaiming of scrap drywall 
        from landfills?

        10. Are there any standards for the reclaiming of drywall from 
        collection sites?

        11. Are their any uniform requirements as to the ratio of 
        recycled scrap drywall to mined drywall in recycled drywall?

        12. Are there any requirements as to the ratio of fly ash to 
        mined calcium sulfate in synthetic drywall?

    Obviously these proposed questions do little more than raise the 
question if in fact there is the potential for a repeat of the Chinese 
drywall debacle with our own domestic recycled product. It is beyond 
debate that given the specter of even a handful of homes with American 
recycled drywall evidencing the same problems as Chinese drywall it is 
the best interests of the American home owner to be both aggressive and 
proactive.
    Thank you for the opportunity to present my concerns and questions 
to the Committee.
                                 ______
                                 
        Prepared Statement of Brenda Brincku, Florida Homeowner
    I want to thank the Subcommittee for the opportunity to submit this 
statement. I also want to thank Senator Nelsen for his determined 
efforts to help the home owners of Florida and elsewhere who are 
experiencing this devastating problem.
    My name is Brenda Brincku. Our story begins in February 2004 when 
we began construction of our new home. We were the owner-builder of 
this home. The home was completed on October 5, 2004. By May 24, 2006, 
approximately 18 months later we replaced our first air conditioner 
evaporator coil due to corrosion (turned black and would not operate). 
Within the next 2\1/2\ years we replaced 6 other coils for the same 
reason. According to Nemeth Air Conditioning this is not a normal 
occurrence. We were concerned, but unsure as to the cause. 
Additionally, we began to notice other unexplainable issues such as 
wiring of light switches, electronic and appliances becoming faulty. 
Other metals such as jewelry, faucets, fire sprinklers, furniture, and 
light fixtures became corroded with a black substance and pitting 
occurred. Again, we were concerned, but did not understand the cause of 
these issues.
    On December 20, 2009, an article in the Fort Myers News Press 
pertaining to Chinese Drywall, described all of the issues we were 
experiencing. Upon reading the article we began to research Chinese 
Drywall thinking this may be the cause of these unexplainable 
happenings. We then contacted Clark Elderidge at the Florida Department 
of Health. He suggested we contact David Krause, the State 
Toxicologist. Upon contacting Mr. Krause, he informed us that in the 
end of January they would be testing homes for Chinese Drywall in the 
area.
    In the mean time, we began our own investigation of our drywall and 
after reviewing pictures taken of the upstairs drywall before the 
installment, we determined at least in the upstairs we had no Chinese 
drywall. All of the pictures indicate the only drywall used upstairs 
was from National Gypsum Goldbond. Additionally, our subcontractor 
insisted he used only American drywall in our home. At that point we 
were confused since we did not find any Chinese drywall in our home.
    We began searching the Internet for answers. We contacted Thomas 
Eagar, Sc.D., P.E. of Massachusetts Institute of Technology (MIT). We 
explained our situation and our health concerns regarding our 8-year-
old son, Harrison. He agreed to help us by testing samples of our 
drywall and other corroded items from our house. On January 5, 2009, we 
submitted samples to Thomas Eagar and Dr. Harold R. Larson, both of 
MIT. The samples consisted of drywall from National Gypsum Goldbond, 
National Gypsum Gridmarx and U.S. Gypsum (all of which are recycled 
wallboard), corroded copper pennies, copper wiring and metal from our 
jewelry box.
    From the samples sent, MIT only tested the National Gypsum Goldbond 
drywall sample taken from our air conditioning closet upstairs. They 
indicated our electrical system must be inspected and possibly replaced 
as the sulfurous gases causing the corrosion have accelerated the aging 
process of wiring by tenfold or more. In other words, our 4-year-old 
home has the wiring of a 40-year-old home. Based on the report we 
received, both Professor Thomas Eagar and Dr. Harold Larson believe our 
drywall to be defective.
    On January 29, 2009, David Krause the Florida State Toxicologist, 
Tim Wallace--State Environmental Specialist and Bob Kallotte came to 
the house and obtained samples and photographs. Based on the official 
signs determined by the state, these men determined our home contained 
defective drywall. As a side note--several of the photos of our home, 
taken by the state, are now being used on State Department of Health 
website as indicators to help people determine if they may have 
defective drywall.
    Currently, the Florida State Department of Health is testing the 
samples obtained in January. We are awaiting the results of those 
tests. Bob Kallotte from the Florida Department of Health based on his 
observations, our home appears to have the worst case of defective 
drywall he has witness to date.
    After receiving the results from MIT we contacted Jack Walker, an 
officer of National Gypsum. We communicated MIT's findings and informed 
him of the Florida Department of Health's investigation. He initially 
stated he would come to our home and take a look at our findings. 
However, after several phone calls and a month later, he had not 
observed our findings. At this time we felt we needed to seek legal 
assistance.
    We contacted Robert D. Gary of Gary, Naegele & Theado, LLC. Upon 
Mr. Gary contacting their General Counsel Sam Schiffman, National 
Gypsum initiated the request to test our home and we requested that 
they provide us the results. This occurred on March 5-11. National 
Gypsum and Packer Engineering opened every wall in our home and 
determined 219 wallboards were National Gypsum Goldbond and/or National 
Gypsum Gridmarx and 18 boards were from U.S. Gypsum. All of these 
boards came from recycled materials. They did not find any Chinese 
drywall in our home.
    Of the 237 wallboards, 15 samples of drywall (11 National Gypsum) 
were taken, however, only 6 of the 11 National Gypsum boards were 
tested. After completing their initial evaluation, observations and 
testing of our home National Gypsum concluded that we had no defective 
drywall. However, we meet four of the five criteria determined by the 
Florida Department of Health. The only criteria we did not meet, was 
the presence of Chinese drywall.
    According to National Gypsum's press release, air testing was also 
performed and determined there were no detectable levels of sulfur 
compounds in the home. However, all of the testing was performed during 
a very low humidity time of year and no air conditioning had been used 
nor needed in the weeks prior to testing and during the testing. It has 
been well documented that the chemical reaction causing the sulfuric 
gases occurring in the wallboard occurs during times of very high heat 
and humidity.
    National Gypsum acknowledged there was a serious problem in our 
home, but denied any issues with the drywall.
    During the testing we experienced several respiratory issues--
uncontrollable coughing, respiratory drainage and eye irritation. We 
believe this is related the gases being released after cutting into the 
drywall. In addition, over the past 4 years our family has experienced 
various health problems including nose bleeds, respiratory issues, 
irritated eyes, dizziness, shortness of breath, severe headaches and 
fainting.
    Due to our concerns regarding our health and the potential of fire, 
related to the faulty wiring, we made the difficult decision to move 
from our home and find other living accommodations. We are currently 
renting a house and therefore have been unable to pay our mortgage on 
top of our rental payments. We contacted Wells Fargo our mortgage 
company and requested a payment suspension for 6 months until we are 
able to determine the outcome of the current investigations. Wells 
Fargo denied our request and they are threatening foreclosure 
proceedings. The foreclosure process is scheduled to begin June 9, 
2009.
    In conclusion, this ordeal has completely consumed our lives from 
the loss of our home, health concerns to the decreased attention to our 
landscaping business. With that said we are deeply committed to finding 
the truth. Our in depth research and findings have lead us to truly 
believe that not only is there a Chinese drywall problem in our 
country, but an American drywall problem, as well. It is yet to be 
determined if the cause is due to recycled drywall or something not yet 
uncovered. Regardless, attention and further detailed investigations 
need to occur in order to uncover the truth and restore not only our 
home, but those of the thousands of families that are being affected by 
this tragedy. I hope that my statement will serve as a catalyst to 
examine the health and safety issues that may involve American as well 
as the Chinese dry wall. Again, thank you for this opportunity to share 
my family's story.
                                 ______
                                 
Prepared Statement of Joan D. Glickman, Town Home Homeowner in Pompano 
                             Beach, Florida
    I am a married woman, with two children in college. My husband and 
I purchased our intended retirement home in October 2007. We decided to 
put down a large down payment to keep our expenses in line. Our new 
home is a town house in a development called Ocean Park Estates in 
Pompano Beach Florida. This town house was purchased as our full time 
residence and we had no intention of leaving in the foreseeable future. 
Then IT starts to happen. We had a plumbing leak, an A/C coil failure, 
multiple electrical problems, and always that new house smell.'' In 
addition, all the exposed copper starts to turn black. Time marches 
forward, but living here we don't feel great. We are tired all the 
time, sore throats, headaches, cough, why?
    Now I know, our dream home has imported drywall from China. As 
described in the DOH guide lines, all exposed copper in our home is 
black, appliances are failing, plumbing fixtures are pitting and as 
mature adults we don't feel like ourselves. What we want is answers! 
What is happening here? What should we do now? We have called and sent 
letters to Master Builders. To date we have had no response. We call 
our insurance agent they have no answers. We contact the attorney 
general's office, they are looking into it. We put calls in to Consumer 
Product Safety Commission and the EPA, is our home making us sick? Is 
the Chinese drywall rotting our home from the inside out? They tell us 
they are looking into it. Should we stay or should we go? No one knows. 
If we leave, we lose the home we love because no one will buy it with 
toxic drywall. What happens to the $100,000s of dollars we put down? 
What happens to our life savings, is it gone? No one seems to have 
answers. Are we going to loose everything? Even the bank doesn't 
respond (BofA) As homeowner if walk away this truly becomes a toxic 
asset. Our town home is worth less than the ground it sits on. Even the 
experts we bring in, contractors and disaster specialists cannot decide 
how to fix this issue. We need to get out now, while the experts find 
the answers.
    As homeowners with imported drywall we need to get immediate 
answers, with one voice from the governmental agencies. There are so 
many questions that remain unanswered. How do we leave our home, rent a 
residence and continue our mortgage payments? We have the additional 
problem over of college tuition payments and our largest asset being 
worthless. No one will buy a home with Chinese drywall, yet on paper 
our home has value and we cannot qualify for any type of financial aid. 
What is the proper way to repair this problem and not only ``fix'' the 
issues associated with the drywall but bring back the ``value'' of my 
house? What do we do with the drywall when it is torn out? Does it go 
into landfills? Is the sulfur content leaching into the ground and 
ground water? What about my personal property, is it forever 
contaminated and is it safe to bring into another home?
    I represent small portion of those affected by this drywall wall 
crisis because have ``shared walls'' and I am an older demographic. But 
I represent all homeowners in trying to get answers.
                                 ______
                                 
      Prepared Statement of Jennifer Rzewnicki, Bradenton, Florida
    The purpose of this statement is to express to the U.S. Senate 
Committee the horrific impacts that the importation of Chinese drywall 
into the U.S. has had on my life and the life of my two children. Let 
me first start by saying that I would have really liked to be able to 
present my story in person. Unfortunately right now the Chinese drywall 
has impacted me financially as I am paying for a house I can't live in, 
as well as a rental agreement to ensure the health and safety of my two 
small children and myself. There is nothing left in my rainy day fund 
to travel up to Washington D.C. The Chinese drywall problem is a 
crippling situation for both myself and many other homeowners. 
Physically the long-term effects are yet to be understood. Those of us 
who have lived and are still living through this nightmare know full 
well the emotional, physical, and financial burden it has put on our 
families.
    The Chinese drywall in my home has caused corrosion and damage to 
my A/C unit, copper plumbing, water heater pipes, mirrors, wiring, as 
well as appliances and personal property. Some of the personal property 
such as family jewelry is irreplaceable. Other property damage is 
clothing, linens, carpets, mattresses, furniture, bedding, window 
shades and curtains which all have absorbed the harmful, toxic odor 
which washing does not remove the odor. In addition to structural 
damage to the home, my two children and I have had health complications 
including bloody noses, headaches, persistent scratchy throat, fatigue, 
and dizziness. I am a single mother who purchased a house in good faith 
that it would be safe for the three of us. I didn't know I would be 
poisoning my children and myself with gaseous sulfuric compounds and 
elemental sulfur each time we entered our home.
    I feel that I am at my wits end with this problem, as I am truly 
not getting any closer to a resolution or relief than I was when the 
problem was first uncovered.
    My homebuilder, Taylor Morrison Homes, has made an effort to remedy 
the damage. However, the HOMEOWNERS are not receiving these repairs 
under the premise of the original warranty under the material defect 
clause. Instead, homeowners are forced to sign an agreement with the 
homebuilder that waives the rights as a homeowner for additional 
recourse in the instance that once the problem has been ``fixed'' in 
the eyes of the homebuilder. Though possibly, in reality, the house 
still contains corrosive gases and in essence is still toxic. I haven't 
even mentioned the guaranteed loss of market value due to the stigma 
and uncertainty of health effects that are attached to a house with 
Chinese drywall. The agreement also puts a cap on the amount of 
personal property damages that the homeowner can recover at $3,200. The 
homebuilder doesn't even have a step-by-step plan of what exactly they 
will be fixing, replacing, and leaving as is, as Chinese drywall is a 
new problem, aka uncharted waters. So knowing now that the homebuilder 
has not clearly defined the problem, nor have governmental agencies, as 
everyone is ``investigating'' the problem. It doesn't seem fair or 
legal to have homeowners sign an agreement for repair when the protocol 
of repair, or even the assessment of damage has not been defined. I 
also would like to mention that the agreement presented by the 
homebuilder was hard to understand and ambiguous. I consider myself to 
have slightly more knowledge in the area of construction than your 
average homeowner, as I possess a Florida license as a Professional 
Engineer with a practice area of civil engineering. Yet, I still found 
the repair agreement to be very confusing.
    I have contacted my mortgage company on this issue. I was hurt and 
insulted at how they treated me. On April 20, 2009, I contacted the 
Wells Fargo Customer Service Center. The reason for my call is as 
follows. I have had my mortgage with Wells Fargo since Wells Fargo 
purchased my original mortgage with SunTrust about 1\1/2\ years ago. I 
have never been late on a payment. In fact, when the representative, 
Pam Wares, checked my account, she informed me that I was paid ahead 
until June 2009. I informed Pam Wares at Wells Fargo of the problem 
with my home. The problem is that my home was built with Chinese 
drywall. The Chinese drywall problem has been in the national news, 
national newspapers, along with local coverage in Florida. However, 
this was the first time the representative ever heard of such a 
problem.
    I informed Pam Wares that due to the defects in the home and the 
adverse health effects, I have been forced to leave the home. She, 
seeming very uncaring, told me that it was a homeowner's insurance 
issue. I further explained to her that needing a safe place to live, I 
would not be able to continue paying my mortgage on my toxic residence, 
along with paying for a lease on a new safe place to live. She told me 
again to contact my homeowner's insurance company, and if I had no luck 
with them, to call Wells Fargo again.
    I called my homeowner's insurance company and they informed me that 
there isn't a homeowners insurance policy out there that would cover 
Chinese drywall, mold yes, but Chinese drywall, no. Therefore, I did as 
Pam Wares at Wells Fargo directed me and called Wells Fargo again. This 
time I spoke with Tasha Adicks. She told me she heard about this 
problem; put me on hold, when she returned she told me that she just 
read on the Internet that the Consumer Product Safety Commission is 
doing an investigation. This was really no news to me as I have been 
living this Chinese drywall nightmare for a long time now. She then 
told me to write to the Attorney General. I reiterated my issue that 
she obviously was missing, that I couldn't pay my mortgage with Wells 
Fargo while I now must pay to live somewhere else. She transferred me 
to the Collections Department, to a person who was extremely rude to 
me. She didn't care that Wells Fargo, her company, was backing the 
mortgage on a house that has created health effects in my family and 
that is now unsafe and is a fire hazard due to the elemental sulfur and 
sulfuric compounds emitting from the Chinese drywall. She said for me 
to write to the attorney general. I asked if she had that number and 
she rudely told me to look in a phone book.
    That conversation was very disconcerting. What I took away from 
that conversation is that: (1) Wells Fargo representatives have no idea 
what is going on with Chinese drywall and (2) Wells Fargo has a good 
customer in myself who is ahead on her payments and they were unable to 
offer any sort of assistance.
    After my call with Wells Fargo, I contacted the Attorney General's 
office, which referred me to the Consumer Product Safety Commission. I 
contacted the Consumer Product Safety Commission and was referred to 
the Attorney General. So basically, these two agencies are aware of the 
problem and are ``looking into it". In the meantime, that does nothing 
to help my children and I get out of a toxic house which is presenting 
imminent health hazards and fire hazards.
    No one knows for sure the long-term health effects that my two 
children and myself have been exposed to. I am paying for a house I 
can't live in. I am paying for a house that has been devalued due to 
the material defects. I am paying for a house that I owe approximately 
$280,000, and the house in the current market would be worth possibly 
$150,000. With the Chinese drywall in this home ,the house is rendered 
unsellable. Compounding the problem, it is unknown how far the damage 
is behind the drywall. If the harmful gases have absorbed into the wood 
studs then just replacing the drywall will not solve the problem caused 
by the drywall. The problem may still persist if those gasses remain in 
the walls. This is a very serious problem especially as more homeowners 
become aware that they have this problem. There is a potential for 
36,000 homes in Florida alone to be affected with this problem. If 
there is no other aid, homeowners will begin to abandon ship and 
default on their mortgages as there are no other options available.
    I am asking for some assistance with my problem. This is a matter 
of human health, safety, and financial distress. U.S. Senator Bill 
Nelson (FL) has been in my home and is aware of this problem in and I 
applaud his efforts in trying to help us hardworking individuals who 
purchased a ``product'' in good faith. From where I am sitting though 
it is become an overwhelming burden as I sit and wait while the problem 
is ``investigated.'' My family and I need ACTION, now.
                                 ______
                                 
        Prepared Statement of Holly D. Krulik, Florida Homeowner
    Chairman Pryor, Ranking Member Wicker and Members of the 
Subcommittee:

    I appreciate the opportunity to come before you to discuss the 
catastrophe created by imported Chinese drywall. My name is Holly 
Krulik and I am a resident of the City of Parkland in Broward County, 
Florida. My husband and I purchased our home in February of 2007. We 
lived there with our two young children for the past 2 years. In late 
March of this year we learned that our home was constructed of Chinese 
drywall. Since that time I feel as though the rug has been pulled from 
underneath me.
    Like so many of our neighbors, we have also experienced an unusual 
amount of sinus problems, bloody noses, headaches, eye infections, skin 
irritation and respiratory issues. Freon leaks, air conditioning 
problems and appliance failures are a common occurrence at our home.
    Certainly the health issue is of paramount importance. For those of 
us who have moved out of our homes, we worry about the long term health 
effects. For those families who have no choice but to remain in their 
homes, the answers to the health concerns cannot come fast enough. And 
for those agencies addressing the health issues, we urge you to act 
swiftly, while analyzing this product fully. We expect a complete and 
thorough study that will provide us with the answers that we are 
desperately seeking.
    I have heard little mention at all about the remediation process. 
While studying the adverse health effects, we ought to be researching a 
remediation protocol and coming up with a consensus as to a true and 
appropriate fix. Without any momentum in that area, you have families 
that are languishing as their physical health declines and their 
financial health continues to suffer.
    If I wanted to start remediating tomorrow, how could I possibly do 
so? How far do we need to tear down the house? We know the drywall has 
to come out. The electrical is certainly compromised. How about the 
HVAC system, the nails, the screws, the trusses and the wood and 
concrete? Nobody wants to fix their home, particularly at their own 
expense, only to find out later that we did not take it down far enough 
and now it needs to come down all over again.
    The fix needs to be one that everyone can rely upon; from 
homeowners, renters, real estate agents, insurance agents, buyers and 
lenders. How else will anyone have the confidence to live in one of 
these homes and to be able to know that their children are breathing in 
clean air, that their smoke detectors will work if needed, that their 
dialysis equipment won't fail and that they won't be prey to a slow and 
steady poisoning. Homeowners demand these answers and so does the 
marketplace.
    With every passing day we are becoming more disheartened over the 
financial impact of this tragedy. Not many people can afford to 
continue to pay on a mortgage for a home in which they can no longer 
live and also pay rent for safe alternative housing. At the end of each 
month, homeowners sit around their kitchen tables questioning whether 
to make that next mortgage payment or to simply walk away, risking 
everything they've invested in their home and their credit.
    We need to get the mortgage companies to come to the table. If we, 
as homeowners, walk away from our home now, the banks are stuck with a 
truly toxic asset. I am not asking for a bailout. My husband and I are 
responsible, hardworking individuals who fully intend to carry out our 
obligation. We are simply asking for a forbearance while we are unable 
to live in our home. And we do not want any blemish to our credit. This 
will allow us to seek a safe rental while the government studies the 
situation and comes up with a remediation protocol.
    Clearly, this is an unprecedented scenario. Creative solutions will 
need to be addressed. Perhaps some of the stimulus dollars can be 
earmarked to flow in this direction. I can't think of a better stimulus 
package to put thousands of people back to work--from carpenters, 
plumbers, electricians, manufacturers, suppliers, movers, realtors, 
maintenance workers, warehouses, landlords, truck drivers and more.
    At every turn in this nightmare of a journey there seems to be a 
roadblock. I have a builder who is in bankruptcy, a homeowner's 
insurance company that is denying coverage, a lender that is 
unsympathetic and a manufacturer and supplier who won't step up to the 
plate. And while I speak for myself and my family, our situation is 
hardly unique. I am in the same situation as tens of thousands of 
others.
    I am deeply appreciative of the attention given to this issue by 
Senator Nelson, Congressman Wexler and others. I implore each and every 
one of you to keep the pressure on and to come together to craft some 
remedies for this most devastating problem. Thank you again for 
allowing me to share my thoughts with you.
                                 ______
                                 
          Prepared Statement of John Medico, Husband, Parent 
                         and Florida Homeowner
    I appreciate the opportunity to come before you to discuss the 
problems with this defective home building product, and also discuss 
measures that will assist current owners of properties where this 
defective material was used, and remedies to help prevent further 
financial and health damages to everyone affected that result from the 
use of this dangerous product.
    My name is John Medico, and my wife Ban, and 11-year-old son, John 
III, moved into a home at 12728 Daisy Place, Bradenton Florida, on 
November 30, 2006 that was purchased from Lennar.
    The purchase price of the home was $420,000. We added another 
approximately $25,000 in home improvements. We have very good credit, 
put approximately 30 percent down on the purchase, and can afford the 
mortgage. We invested a majority of our savings, believing, we would be 
living there for many years. All of our hopes were shattered, and a 
nightmare began for us after less than a year in the home.
    Soon after moving in during December 2006, problems both medically 
and with the house HVAC system began.
    In January 2007, we required a service call on the HVAC system as 
it would not work in the heating mode.
    In March 2007, a second service call on our HVAC system resulted in 
the copper coils being replaced on the larger system due to Freon 
leaks.
    We have a 2-zone (independent of each other) HVAC system. One cools 
and heats the main portion of the home, 2BR's , FR, LR, DR, Kitchen, 2 
Bth Rms and Den and the other system supports the MBR and bath area.
    In July 2007, the smaller HVAC system had their coils replaced. 
Thru out 2007, my son John III and I would develop random nose bleeds. 
I began to get severe headaches as well. My doctor could not locate a 
specific problem even though I complained of unexplained illness and 
respiratory problems. I started to get Angina attacks that I never 
experienced since before my heart bypass surgery in 1997. Since living 
in this house I was given nitro stat patches to wear and began to carry 
nitroglycerin pills that I used almost daily.
    In 2008, three set of coils were replaced in our HVAC systems with 
the last one happening in November 2008. The house began to have a 
strange odor in it when we needed to use the heating part of the 
system. The A/C people in November said I should speak to Lennar 
because I may have a home infected with ``Chinese drywall.'' I placed a 
call to Lennar and was told by them that their records indicate I have 
a home constructed with ``Chinese drywall''!
    I did a ``Google'' search on ``Chinese drywall'' and it scared the 
heck out of me based on what I read. I immediately contacted Lennar and 
told them I wanted out of this house ASAP. They promised to get back to 
me right away. Two weeks went by with no word from Lennar so I hired an 
attorney to go after Lennar on our behalf. My attorney informed Lennar 
in writing we were making a claim per Florida Statute 550.
    Lennar assured my attorney that they would move the ``MEDICO HOME'' 
up to the top of their priority list as they were dealing with other 
homeowners in the Heritage Harbor subdivision with the same problem we 
were faced with.
    In mid December 2008, I was contacted by Lennar who said they 
wanted an Air Quality inspection firm to test my home for air 
contamination. I agreed to accommodate them ASAP. I was told by Lennar 
to set my A/C temperature at 68+ the night before the test so the house 
would be cool when their testing company came. I did this and 
``ENVIRON'' of Tampa, FL performed the air quality test the next day.
    I did a ``Google'' search on testing homes for Chinese drywall 
emissions and all indications were that the home should be warm not ice 
cold as I was told to do so.
    I received a letter from ENVIRON that no toxic gasses of any type 
were found in my home. I called the President of ENVIRON regarding the 
test results and indicated that I felt the test was set up to benefit 
them. I said my house smells awful and his results were in error. 
Several days later ENVIRON issued to me a second report that indicated 
Toxic sulfur emissions were detected in my home but the levels of 
toxicity were not harmful to our health. I questioned ENVIRON on making 
this statement and came to the conclusion that they had no medical 
qualification to make such a claim.
    The home became so foul smelling that I purchased a highly rated 
Air Purifier that I kept running constantly in the MBR area where I 
stayed with my wife and son. We avoided being in the rest of the home 
as much as possible and ate our meals out at restaurants constantly 
until we moved.
    From December 2007 thru March 2008 when we vacated the home we 
noticed a very fine black soot was appearing thru out the house on our 
furnishings, rugs, works of art, jewelry and especially on anything 
made of or containing silver.
    Our furnishing, oriental rugs, bedding, linens, etc., all smelled 
of sulfur and our jewelry and works of art all became heavily tarnished 
and pitted beyond anything I've ever seen before.
    Our personal property losses from CDW are well over $250,000 and we 
are making a claim request against Lennar for this loss.
    We thought that overall, we were lucky to have Lennar for our 
builder, but this may not be the case if repairs are not done properly. 
It wasn't until after we moved into a rental home, that we discovered 
just how badly all of our personal belongings and furnishings had been 
cross contaminated to the core. They were so badly contaminated, some 
of the guys doing the move, which had allergy sensitivities, were 
having a terrible time handling it. The rental home smelled like a 
Chinese drywall home with our belongings in it.
    We informed Lennar. They said they would send someone out to HEPA 
vacuum the belongings (they did this), and to then air it out and it 
would all be fine soon after. Well, it is 10 weeks later, and we are 
still getting exposure symptoms from the off gassing of our belongings, 
such as continued headaches, sore throats, stuffy noses, raspy voices 
and breathing difficulties.
    We are convinced that the exposure to the sulfur gases are in fact, 
the cause of all of our health problems, while living in that house.
    There is no decontamination solution for the personal property that 
Lennar must replace. We now have approximately $250,000 in belongings 
and furnishings that are contaminated and useless to us.
    We have also had to bear the expense, of buying some new furniture, 
as well as dry cleaning bills to remove the contamination from bedding, 
and clothing.
    No one is warning people who move out, that their furniture has 
also been contaminated, and that it may, still cause them trouble with 
exposure symptoms to the gases.
    In addition, after the home was gutted to wooden studs, trusses, 
plywood and block, after 5 weeks of airing out, it still reeks of 
sulfur gases, and can quickly in this hot and humid environment cause 
exposure symptoms within 10 minutes or so upon entering the home.
    Lennar is ignoring this continued contamination of our home and was 
continuing with repairs. I had the home inspected by a professional 
construction firm that has inspected over 100 Lennar homes for Chinese 
drywall contamination. They confirmed the presence of very strong odor 
within the home. I forwarded this report to Lennar as a courtesy.
    I believe Lennar intends to leave these cross contaminated 
materials in the residence, as well as reinstall cross contaminated 
wood cabinetry and window treatments. Unless Lennar can find a safe and 
proven decontamination solution, or agrees to replace all contaminated 
materials, I cannot feel it is safe to move my family back into this 
house.
    We will then have to bare the expense of paying rent elsewhere when 
Lennar declares themselves finished, and we will not be able to 
continue paying the mortgage and additional rent as well.
    We will face financial ruin, thru no fault of ours, over this toxic 
construction material that was allowed to come into the country.
    Lennar assured us in writing that we would virtually have a brand 
new home interior. This is turning out not to be true, as they are 
intending to re-install, numerous cross contaminated materials that 
still reek of sulfur. We had no way of knowing about the block and wood 
cross contamination at the time either. We truly were assured that the 
home, when completed would be 100 percent fully free of the toxic 
sulfurous compounds contamination and odor. However, it appears to me 
and others as well, that Lennar is not now doing this because of the 
unexpected climbing costs to do this.
    I implore you to aide in the removal of this dangerous blight, 
further weakening an already distressed housing market. These homes may 
be going into foreclosure, if the banks will even take them, will most 
likely become left abandoned, and further hurt neighboring home values, 
or further hurt new and unsuspecting owners. They should all be 
identified, torn down and taken to the toxic waste dump. Then they 
should be rebuilt, or the owners reimbursed, all at the expense of 
everyone who profited from this toxic drywall along the way.
    The housing market aware of this problem is scared right now with 
this toxic wild card out there. Far too many families, suffering 
deteriorating health, have yet to even learn that it may be the drywall 
in their homes causing their families chronic illness. We are still 
finding them in our neighborhood. This problem needs more regular 
press, without the added minimization of health and safety risks.
    In my experience, these structures are toxic gas chambers, not safe 
homes for families to even live in again.
    I am now personally aware of a 4-year-old girl living in a CDW 
home, diagnosed with emphysema, a 7-year-old boy rushed to the hospital 
a few weeks ago with seizures, another 7-year-old boy from our sub-
division, diagnosed with an auto immune disorder, and numerous children 
being diagnosed with asthma.
    Is the Health Department going to wait for children to end up with 
permanent brain, heart, lung, liver, kidney, or central nervous system 
damage or dead, until they get serious and consistent with their alerts 
for parents to find their children, safe havens away from these homes?
    Is FEMA ever going to step in to provide a temporary safe haven, 
for families that cannot afford a mortgage and rent, until a permanent 
solution is found? I think it is more then called for.
    Further, I would strongly advise any health or product safety 
authorities to not further minimize the health risks of chronic 
domestic exposure to these chemicals. You will only loose more consumer 
trust, and put more families at a greater health risk, for more serious 
chronic exposure effects. They have been waiting on direction from you, 
and you are failing them right now.
    In my experience, these structures are toxic gas chambers, not safe 
homes for families.
    I would like to thank Senator Nelson and his staff for answering 
our pleas for help and everyone who has taken the time to come visit 
these homes and families, to get firsthand knowledge of the gravity of 
this problem, and take action to help resolve it. And I thank you for 
the opportunity to share my first hand experience and suggestions for 
much needed, emergency assistance.
    I implore you, to find some way, to help people save their good 
credit, who could have maintained making mortgage payments, or tried to 
sell, and then couldn't because of a CDW disclosure, and had to flee 
for health reasons.
    They did not engage in an irresponsible financial act by moving out 
and foregoing mortgage payments if they had too. They are acting on 
behalf of securing the health and safety of their families. They are 
the ones being truly responsible parents, looking out for the well 
being of their children first, and should not be punished on their 
credit reports for that.
    What have we come to as a society, if we cannot support parents who 
do the right thing, but rather seek to punish them, just for caring for 
their families well being.
    I am asking legislatures for assistance in many areas on behalf of 
all those impacted by the use of this defective and dangerous 
construction material.
    Please provide adequate funding to the proper departments so they 
can do the job that tax payers pay them to do. That involves, banning 
and recalling defective and harmful products from the USA market place 
again.
    The CPSC claims it has not had the funding or resources to put a 
ban and recall on this product by now. Though I think they can at least 
do that, until more can be learned.
    I think it is shameful, that the health department has had to 
claim, they do not have the funding or resources, to better inform the 
public.
    I also recommend that you get the best of the best on this. I find 
it appalling, that so many so called professional toxicologists seem to 
have not a clue, about the cumulative effects of low level exposure to 
these chemicals, or knowledge, easily obtainable from NIOSH, that the 
immune system can lose tolerance to hydrogen sulfide at chronic low 
level exposure, and that higher level exposure.
    If we can so easily bail out Wall Street with billions, surely we 
can help the American people thru this mess that is not of their 
making.
    This is my testimony of my experience as a parent, husband, and 
owner of a Toxic Chinese drywall house, as I know it to be the truth. I 
also believe that I speak for many others who have not yet come out of 
shock and denial, and into anger and found their voice, experiencing 
the same nightmare my family has been living through, facing the same 
tough choices between their families health, or financial ruin.
    Thank you for your time.
                                 ______
                                 
           Prepared Statement of Cindy Shannon, Wife, Parent 
                         and Florida Homeowner
    I appreciate the opportunity to come before you to discuss the 
problems with this defective home building product, and measures that 
will assist current owners of properties where this defective material 
was used, and measures to help prevent further financial and health 
damages that result from use of this dangerous product.
    My name is Cindy Shannon, and my husband Todd, and daughter 
Arielle, bought and moved into a home at 12724 Daisy Place, Bradenton 
Florida, on October 6, 2006.
    The purchase price of the home was $559,000. We added another 
approximate $125,000 in home improvements. We have very good credit, 
put 20 percent down on the purchase, and can afford the mortgage. We 
invested everything we had into it, believing, we would be living there 
until our daughter graduated from high school. She is now in 6th grade. 
All of our dreams were shattered, and a nightmare began for us.
    I use to be able to brag about my stellar health, as well as have 
an optimistic outlook, positive attitude and love of life. So did my 
family, who rarely if ever visited the doctor.
    Very soon after moving in, our moods began to change, taking on a 
very depressed, and heavy negative disposition and angry outbursts. We 
also started experiencing heavy and chronic fatigue, insomnia, and 
irregular heart rhythms.
    Coming into the sixth month of living there, all hell broke loose. 
I started suffering day and night from cluster migraine headaches, 
increased heart arrhythmia, tightening of the chest and severe attacks 
to my sinuses. At age 38, I thought I was dying, considered writing out 
a will, and wanted to blow my head off to get relief from the 
suffering.
    It was at that time, I exclaimed to my husband, this house STINKS, 
and I think we bought a sick house. We learned that terrible 6-week 
episode was brought on, while one of our evaporator coils on the AC had 
completely leaked out all of its coolant, making the house unusually 
hot and humid, no matter how low I turned the thermostat down.
    I knew then by researching the symptoms, that we were under a toxic 
poisoning attack, of which included a neurotoxin I was sure, but did 
not know from what. I removed many suspect products from the home, 
started buying organic foods, purchased, detox products and books, as 
well as immune system builders. I also noticed the symptoms were worse 
when it was warm and humid in the house. I bought a dehumidifier and 
kept the AC low.
    During the next year, as the prior health symptoms persisted to 
varying degrees, new ones developed. `I was becoming increasingly 
sensitive to sunlight, experiencing nerve twitches, had the feeling of 
having a nervous breakdown, increased mental fog, and felt like I had 
aged 10 years in that last one, especially in the rapidly aging 
condition of my skin and increased chronic fatigue in just a year.
    My daughter was now also complaining of allergy symptoms.
    By a year and a half in the effected house, my daughters heart 
arrhythmia, and mine were getting worse. At night, I had to start 
sleeping sitting up, to keep my lungs from filling with fluids. My 
daughter started complaining a lot of flash headaches, dizziness, 
nausea, and fever. She had also been taking cough drops with her to bed 
every night, to help ease a chronic sore throat. Nothing explained why 
it was always sore for her.
    I also started having very disturbing levels of short term memory 
loss. It was like having mental paralysis. I was drowning in a deep, 
dark and heavy mental fog by then.
    In the early spring of 2008, my daughter started complaining of 
severe burning in her lungs, during Tae Kwon Do Class. It was so bad, 
she had to quit by late spring, just shy of receiving her black belt.
    In the spring of 2008, I pleaded with my husband to put the house 
up for sale and to get us out of there. In utter and complete distress, 
and desperate tears, I emphatically stated to him that something was so 
very wrong with that house, someone needed to take a wrecking ball to 
it. I hated that house because it was attacking my family and me. I 
felt nothing but anger toward it and wanted it destroyed.
    My husband agreed to list the home for sale in the summer of 2008.
    More new health symptoms soon came into the picture. My then 40-
year-old husband had rushed himself to the doctor one afternoon, 
believing, he was having a heart attack. His blood pressure had been 
extremely high for some time, shortly after moving in, and got much 
worse that day. He recalls always feeling irritable, with nervous 
anxiety in that home. He was put on blood pressure medication for 
readings that sustained 150 or 95. The medication was not helping and 
he went off of it.
    Coming into the fall, my daughter also started complaining about 
chronic heartburn and stomach ulcers. I also started getting the 
heartburn and ulcers regularly.
    It was October of 2008, during the now 6th, AC coil replacement, 
that our builder Lennar told us that they suspected something in the 
drywall was causing the coils to fail so often. They said nothing of 
what was in the drywall, where it came from, or that they had any 
solution for it. They did tell us that they would send an air quality 
testing company out, to assure us, that there was no health risk to the 
drywall, and would continue to cover the coil replacements under 
warranty.
    I use to joke that the drywall probably came from China. Little did 
I know that was the truth and I do not find it funny anymore.
    I ran a Google search looking for anything on drywall making people 
sick. Nothing other than mold came up, and we knew there was no mold in 
the house. I was at a loss, not knowing if the drywall was the smoking 
gun for our health problems or not.
    Well, I didn't feel so sure, or comfortable with having the house 
up for sale, not knowing what should be disclosed about this, but that 
something should be, and we didn't want to get sued. We took it off the 
market as we awaited the test results. They arrived in NOV. saying 
nothing was detected in the air.
    How did nothing eat through 6 AC evaporator coils, 3 new hard 
drives, 2 new DVD players, jewelry, that backs of my mirrors, cause 
lights to flicker, new bulbs to burn out quickly, and make the smoke 
alarm keep going off, as well as turn a healthy family chronically ill?
    Coming into the winter of 2008, symptoms for my daughter increased 
to chronic pink eye infections, chronic colds, and sore throats. My 
husband's headaches were getting worse, and my episodes of pulmonary 
edema became worse and more frequent. By then, I also noticed that we 
all had been bloating up while living in that home and nothing got rid 
of.
    The first press release on Chinese drywall came out at the end of 
the month. WOW!!! There was our story, being told by others and there 
was the smoking gun. We got information on the toxic gases being 
released, and where the drywall had come from. I looked up the 
chemicals and sure enough, exposure to them could be the cause of all 
of our symptoms. I quickly bought several more air purifiers, and we 
called an attorney, as Lennar never got back to us and we thought we 
would have to fight them in court to take care of this.
    The attorney, not fully aware of Florida statutes, noticed that we 
had signed Ito a mandatory binding arbitration agreement in our sales 
contract and said, we could not start a class action or get a jury 
trial. We were devastated with that news. It was the darkest day. I had 
learned that arbitration tends to favor the builder, and we couldn't 
afford it anyway. He further shared with us his experience with data 
related to hydrogen sulfide exposure, and told us, one way or another; 
we needed to get our daughter out of that house immediately.
    We couldn't afford to go rent somewhere and pay our mortgage. We 
also had no family nearby to go stay with. My husband also couldn't 
bear the thought of watching all of the money we had put into the home, 
go down the toilet, while having our good credit destroyed over missed 
payments.
    We soon read that Lennar was paying expenses to move families out 
and repair the home, in some cases. We had to meet with them and prove 
our case to them.
    In January of 2009, I also went to the family doctor, to let him 
know, we were exposed to the Chinese drywall chemicals in our home, 
what our symptoms had been, and asked if there was more we should be 
concerned about while living there. His eyes widened with disbelief and 
shock as he said to me, ``You mean, you haven't left yet?'' He said we 
needed to get out of that house ASAP.
    We also started having to spend many nights at hotels to get relief 
from the symptoms so we could sleep. We also learned in mid January, 
about a Florida Statute that waived the Mandatory Binding Agreement.
    Though we did NOT think the releases to rights to sue for any 
personal property damage, or loss of property value, or ineffective 
remediation if it turned out to be the case, as well as punitive for 
all we went through were fair to us in the least, signing their move 
out and repair contract was our only way out of that toxic gas chamber 
without ruining our credit.
    We did ask for the builder to purchase our home back at current 
market value, so we could be released from this nightmare. They 
refused. My life was first robbed, by the decline in health and 
constant monitoring and care of symptoms, to now, having to face a 
mountain of financial messes we can not afford to clean up on our own.
    It wasn't until after we moved into a rental home, that we 
discovered just how badly all of our personal belongings and 
furnishings had been cross contaminated to the core. They were so badly 
contaminated, some of the guys doing the move, which had allergy 
sensitivities, were having a terrible time handling it. The rental 
smelled like a Chinese drywall home with our stuff in it.
    We informed the builder. They said they would send someone out to 
hepa vac it, and to air it out and it would be fine soon. Well, it was 
7 weeks later, and we were still getting exposure symptoms from the off 
gassing of our belongings, such as continued headaches, sore throats, 
chronic colds, sore and stuffy noses, raspy voice and again bad nights 
of pulmonary edema attacks, bad enough for both my daughter and I that 
we had to flee for a hotel at one in the morning, on a school night. 
Two nights later, I was again, forced out to the lanai, to sleep for 
the night. We called the builder to have it all moved out and put into 
storage.
    Since we have removed everything contaminated by the drywall from 
the rental home, we have been feeling good and symptom free again, 
after 2\1/2\ hellish years of suffering. My husband's blood pressure 
has even returned to a normal and healthy reading of 110 over 70. A 
note able remaining symptom it seems is my short term memory loss, 
which may be a result of permanent damage to the memory part of the 
brain, from the neurotoxic hydrogen sulfide exposure.
    We are convinced that the exposure to the sulfur gases was in fact, 
the cause of all of our health problems, while living in that house.
    There is no decontamination solution for the personal property, 
Lennar refuses to replace it, and we waived our rights to sue for 
replacement damages. We now have approximately $75,000. in belongings 
and furnishings that are worthless and useless to us. We are forced to 
either have to throw away relatively new and expensive furnishings, or 
continue to pay for storage until, if ever, a decontamination solution 
is found.
    We have also had to bare the expense, of buying some new furniture, 
and bedding, as well as expensive dry cleaning bills to remove the 
contamination from bedding, and dry clean only clothing.
    No one is warning people who move out, that their furniture has 
also been contaminated, and that the continued off gassing from it may 
still cause them trouble with exposure symptoms
    In addition, after the home was gutted to wooden studs, trusses, 
plywood and block, after 6 weeks of airing out, it still reeks of 
sulfur gases, and can quickly in this hot and humid environment cause 
exposure symptoms within 10 minutes or so, of being inside the 
building.
    We have invited toxicologist David Krause, to come and inspect a 
home at this phase of Lennar's remediation, so they can better learn, 
about what proper remediation protocol should be. It is not what Lennar 
is doing. In my opinion, these cross-contaminated homes, where the 
toxic gases leeched into everything, need to be bulldozed, to 
completely remedy them of the problem.
    I have spent hundreds of hours, doing research, looking for a 
decontamination solution for my gutted house and furniture, as well as 
have spoken with many remediation experts. There is none to date. 
Further, with this being a new problem, a solution cannot be guaranteed 
for the long term, without the opportunity for long term testing 
available.
    We learned that our builder intends to leave these cross 
contaminated materials in the residence, as well as reinstall cross 
contaminated wood cabinetry and window treatments.
    Unless our builder can find a safe, and proven to stand the test of 
time, decontamination solution, or agrees to replace all contaminated 
materials, we cannot feel it is safe to move back in. We will then have 
to bare the expense of paying rent elsewhere when they declare 
themselves finished, and we will not be able to continue paying the 
mortgage.
    We also, under duress, waived our rights to sue for property value 
loss damages. We will face financial ruin over this toxic construction 
material allowed to come into the country.
    We also now believe that the builder engaged in misrepresentation 
of what signing their releases/repair contract was going to do for us. 
They told us that we would not have to disclose the repair.
    We only later learned that Realtors in our state are now requiring 
that any knowledge of Chinese drywall in the home, or homes repaired 
for it, need to be disclosed. We also recently learned that Realtors, 
the market and banks are black balling these homes, ``repaired'' or 
not, and rightly so.
    The builder told us that we would virtually have a brand new 
interior. This is turning out not to be true, as they are intending to 
re-install, numerous cross contaminated materials that still reek of 
sulfur. We had no way of knowing about the block and wood cross 
contamination at the time either. We truly were lead to believe, that 
the home, when completed would be fully free of the toxic sulfurous 
compounds contamination.
    This is my testimony of my experience as a parent, wife, and owner 
of a toxic Chinese drywall house, as I know it to be the truth. I also 
believe that I speak for many others who have not yet come out of shock 
and denial, and into anger and found their voice, experiencing the same 
nightmare my family has been living through, facing the same tough 
choices between their families health, or financial ruin.
    I am asking legislatures for assistance in many areas on behalf of 
all those impacted by the use of this defective and dangerous 
construction material.
    Please provide adequate funding to the proper departments so they 
can do the job that tax payers pay them to do. That involves, banning 
and recalling defective and harmful products from the market place, as 
well as putting in regulations that keep them from ever entering the 
market place. It's shameful that the CPSC claims it has not had the 
funding or resources to put a ban and recall on this product by now. 
Though I think they can at least do that, until more can be learned.
    This goes beyond drywall imported from China, to include any 
synthetic gypsum, made from the toxic waste of coal plant scrubbers. 
The end product used in the making of it, fly ash, contains excessive 
amounts of sulfur-based pollutants. The Material Safety Data Sheet for 
one such ``green'' product indicates that the product is stable under 
normal conditions but should avoid sources of ignition, elevated 
temperatures and humidity. Incompatible Materials are strong oxidizing 
agents and hazardous decomposition is produced. There are U.S. made 
brands, causing the same problems.
    I think it is shameful, that the Health Department has also had to 
claim, they also do not have the funding or resources, to better inform 
the public.
    I also recommend that you get the best of the best on this. I find 
it appalling, that so many so called professional toxicologists, seem 
to have not a clue, about the cumulative effects of low level exposure 
to these chemicals, or knowledge, easily obtainable from NIOSH, that 
the immune system can lose tolerance to hydrogen sulfide at chronic low 
level exposure, and that higher level exposure symptoms, can then be 
experienced.
    I am now personally aware of a 4-year-old girl living in a CDW 
home, diagnosed with emphysema, a 7-year-old boy rushed to the hospital 
a few weeks ago with seizures, another 7-year-old boy, diagnosed with 
an auto immune disorder, and numerous children being diagnosed with 
asthma.
    Is the Health Department going to wait for children to end up with 
permanent brain, heart, lung, liver, kidney, or central nervous system 
damage or dead, until they get serious and consistent with their alerts 
for parents to find their children, safe havens away from these homes?
    Is FEMA ever going to step in to provide a temporary safe haven, 
for families that cannot afford a mortgage and rent, until a permanent 
solution is found? I think it is more then called for.
    Further, I would strongly advise any health or product safety 
authorities to not further minimize the health risks of chronic 
domestic exposure to these chemicals. You will only loose more consumer 
trust, and put more children at risk, for more serious chronic exposure 
effects. They have been waiting on direction from you, and you are 
failing them right now.
    How many of you know that hydrogen sulfide gases, mimic oxygen in 
the body, tying up oxygen receptors, putting the body's organs, muscles 
and tissues through oxygen deprivation? Please consider the potential 
effects on pregnant women, and young developing children.
    When it comes to determining chronic exposure risks to Chinese 
Drywall, the truth is, no one knows, what the short term, low level 
exposure risks to the off gassing of this drywall is, except for those 
living in the homes. There has been no reference research done for 
chronic, low level domestic exposure to infants, pregnant women, 
children, the elderly, sensitive's or pets. Please be up front and 
honest about that. Any claim to the contrary is not a truth. These 
families are the material for the first case studies, for this 
unprecedented problem.
    You should continue to encourage that all of those impacted, make 
health and property damage reports to the proper departments 
researching this.
    You cannot minimize or cover up, what hundreds of thousands of 
families have been experiencing, without just angering them further 
into action, until the full truth and solutions are found. The problem 
is not going to go away. It gets worse with time, and will continue to 
get worse, until every last piece of contaminated and cross 
contaminated material, lands in a toxic waste dump.
    The truth of the potential damage to health, home and things, 
exposed to this toxic and corrosive drywall, is found in their health 
reports, visible damage to items, and nowhere else.
    I implore you to find some way, to get home owners insurance, 
involved with some of the relief, in the least, minimal furniture 
replacement, so as families moving out for safe haven, do not have to 
take the cross contaminated furnishings with them.
    I implore you, to find some way, to help people save their good 
credit, who could have maintained making mortgage payments, or tried to 
sell, and then couldn't because of a CDW disclosure, and had to flee 
for health reasons.
    They did not engage in an irresponsible financial act by moving 
out, and foregoing mortgage payments if they had too. They are acting 
on behalf of securing the health and safety of their families. They are 
the ones being truly responsible parents, looking out for the well 
being of their children first, and should not be punished on their 
credit reports for that.
    What have we come to as a society, if we cannot support parents who 
do the right thing, but rather seek to punish them, just for caring for 
their children's health and safety, through this terrible housing 
disaster that has befallen them. They played by the rules, and did 
nothing wrong, to have deserved this.
    I implore you to aide in the removal of this dangerous blight, 
furthering weakening, and an already distressed housing market. These 
homes going into foreclosure, if the banks even take them, will most 
likely become left abandoned, and further hurt neighboring home values, 
or further hurt new and unsuspecting owners. They should all be 
identified, and taken to the toxic waste dump. Then they should be 
rebuilt, or the owners reimbursed, all at the expense of everyone who 
profited from this toxic drywall along the way.
    The market aware of this problem is scared right now with this 
toxic wild card out there. Far too many families, suffering 
deteriorating health, have yet to even learn that it may be the drywall 
in their homes causing their families chronic illness. We are still 
finding them in our neighborhood. This problem needs more regular 
press, without the added minimization of health and safety risks.
    I implore you to pass a waiver on of all the unconscionable, one 
sided, and misrepresented release contracts builders gave to homeowners 
to sign, while under duress to flee to safety. By law builders are 
already responsible to repair or replace the damage caused. Why did any 
homeowner have to give up rights to legal claims for damages to 
personal belongings, failure of remediation to prove effective in the 
short and long term, and property value loss, stemming from the 
disclosure stigma.
    These builders took advantage of people in a very desperate 
situation, of chronic illness due to the slow release toxic gas 
chambers, these builders negligently sold them. Their despicable 
behavior should not be rewarded, by allowing those contracts to remain 
enforceable by law.
    I would like to thank everyone who has taken the time to come visit 
these homes and families, to get firsthand knowledge of the gravity of 
this problem, and take action to help resolve it. And I thank you for 
the opportunity to share my first hand experience and suggestions for 
much needed, emergency assistance.
                                 ______
                                 
            Prepared Statement of Michael J. Ryan, Esquire, 
                Attorney Representing Florida Homeowners
    Chairman Pryor, Ranking Member Wicker and Members of the 
Subcommittee,

    Thank you for the opportunity to come before the Committee to 
discuss the impending catastrophe for homeowners impacted by defective 
imported drywall. My name is Michael Ryan and I am an advocate for 
homeowners. Presently, as an attorney, I represent homeowners in South 
Florida whose aggregate home purchase prices prior to the discovery of 
defective drywall exceeded one hundred million dollars ($100,000,000). 
Now, their homes are unsellable except at pennies on the dollar. Many 
of my comments here today are shared by Mayor Michael Udine of 
Parkland, Florida, one municipality particularly impacted by this 
catastrophe.
    Communities and homeowners in the United States have been hit by a 
``silent hurricane''. In South Florida, we have become accustomed to 
warnings of impending hurricanes. We had no warning for this ``silent 
hurricane''. Homeowners had no time to prepare to move their families 
or protect their property. They never saw it coming. But, the affects 
are disastrous for some and certainly to the community as a whole.
    It has been estimated that tens of thousands of homes must be 
gutted right down to the concrete block. While there are no water marks 
on the outside of the homes and no trees damaged, the damage to each 
home is measured in hundreds of thousands of dollars. In a way, this is 
worse than a hurricane. Homeowners' insurance and Bonded Builder 
Warranty are refusing to cover the damage. Those responsible for the 
``silent hurricane'' in many communities are refusing to accept 
responsibility and help rebuild because they are bankrupt or lack the 
resources or are foreign companies.
    The ``silent hurricane'' was caused by toxic and defective drywall. 
In one community, Parkland, Florida, the builder who bought and used 
this toxic defective drywall is bankrupt. The predicament for those 
homeowners in Parkland is mirrored by other homeowners and communities 
around the United States where the builders are refusing or unable to 
accept responsibility.
    We, in South Florida, are not alone in this crisis. It is estimated 
that between 60,000 and 100,000 homes across the United States are 
impacted by this defective drywall. This estimate is based upon the 
nearly 500,000,000 pounds of drywall manufactured by the Chinese 
companies and imported to the United States between 2004 and 2007. 
Almost 200,000,000 pounds entered the ports in Southeast Florida. 
However, we wonder if the estimate of the number of homes impacted is 
too low; there are homes that only have a portion of the house where 
the defective drywall was installed. The affects are pronounced in 
those homes, too. There is no dispute some gutting of the home will be 
necessary for those homeowners as well. Throughout the country, some 
builders are agreeing to some form of remediation, others are 
abandoning the homeowners.
    Most distressing, the homeowners impacted by this defective drywall 
did nothing wrong. The homeowners could have not have done anything 
more to protect their homes and families. The builders never told the 
homeowners they were using defective drywall in their homes.
    The ``silent hurricane'' gases are corrosive to metals. Repeated 
failures of air conditioning evaporator coils, visible evidence of 
corrosion of copper ground wires in the house, evidence of corrosion of 
the copper plumbing, and a noxious smell of gases that acutely and 
chronically affects the nose, throat and eyes are all signs of the 
``silent hurricane''. There are reports of the circuitry in home 
appliances failing. Samples of drywall board pulled from the homes 
displaying the names of the Chinese companies or the German 
manufacturer, Knauf, only confirm what homeowners already know: they 
have been hit by defective drywall.
    Meaningful steps have been taken by Senator Bill Nelson, 
Congressman Robert Wexler and others in Congress to prevent this from 
happening again. And, yet again, there are calls for the changes in how 
we allow Chinese imports into our country. Lawsuits and litigation are 
beginning. There will be time to hold accountable those responsible for 
this disaster in courts of law.
    However, pregnant women today are being told by their trusted 
physicians they must leave the house to protect the health of their 
unborn child. There are elderly on fixed incomes who feel the affects 
of the toxic gases but who have nowhere to go. There are families with 
young children told by their pediatricians that the repeated sinus 
infections and respiratory problems are potentially made worse or 
caused by the toxic gases.
    While the health departments, the EPA, and the science community 
debate the long term health affects of this ``silent hurricane'', 
people are at risk of losing their homes. Most homeowners can not 
afford to continue paying mortgages for home in which they can no 
longer live and yet also pay rent on a home to which they must relocate 
their family. The homes with confirmed defective Chinese drywall can 
not be sold as the market rightfully demands disclosure of the 
defective Chinese drywall. Banks can not meaningfully assess the costs 
of remediation to lend to a homeowner because there is no consensus as 
to what fix is truly a fix; no one is telling the community how to 
rebuild safely and effectively to remove forever the toxic affects of 
the ``silent hurricane''. All the while, stellar credit of homeowners 
will be destroyed, foreclosures may begin, banks will own truly ``toxic 
assets'', and blight of abandonment threatens the entire community.
    I have literally watched tight-knit subdivisions transformed under 
the stress of this catastrophe. Streets where children pedaled their 
bikes until sunset under the watchful eyes of friendly neighbors and 
adoring parents have been replaced with moving trucks and abandoned 
homes.
    Our communities need a comprehensive plan to save those hit by this 
silent hurricane. We need help now.
    First, we need to be able to give assistance to those who have 
nowhere to go when builders are refusing to accept responsibility. 
These homeowners did nothing wrong. They were current on their 
mortgages. They were in homes they could afford. They were raising 
families responsibly, paying their taxes, and are productive members of 
our community. They are not asking for a bailout like so many others, 
they are screaming for a life raft. This is the highest calling of 
government--to help those in crisis. Most of the banks are not 
responding to our requests for abatement. Two banks have agreed to 
interim abatement and to not report the abatement to the credit 
reporting agencies. These banks, HSBC and SunTrust, recognize that 
foreclosure is in nobody's best interest, least of all the banks, and 
that this is not a problem of credit worthiness--it is a disaster. 
However, other banks are initiating foreclosure and are refusing to 
timely respond to the cries of these homeowners. I have provided to 
Senator Nelson's Office a list of mortgage lenders who have not yet 
been adequately responsive to this crisis.
    Second, we need to bring together the stakeholders in this 
process--the banks who are partners in this disaster, the realtors, the 
contractors, the builders, the insurance companies, the homeowners, and 
the cities--so we can devise and agree upon a true fix. We need to be 
confident the market will accept these homes as fixed when the 
remediation is complete so families can move back in and willing buyers 
in the future will be confident in their purchases.
    Third, we need to make sure the process of rebuilding from this 
``silent hurricane'' does not cause more problems. What are the health 
risks to construction workers? What are the disposal requirements to 
make sure cities and local governments do not become dumping grounds 
for toxic material that would be better shipped back to China? How are 
the building departments to inspect the remediation process to ensure 
integrity and transparency? When do we truly know a house is fixed?
    If the Federal Government and the stakeholders in this process do 
not respond with a greater sense of urgency, entire city blocks, 
subdivisions, and municipalities will be destroyed for years as 
homeowners abandon their property and the cities are left to pick up 
the mess. Unfortunately, because most of the big lenders are not 
responding to the cries of the homeowners, the shelf life on patience 
and hope is measured by the next month when families sit down around 
their kitchen table to decide whether or not to pay the next month's 
mortgage on a destroyed home.
    We know we will rebuild because we have always picked ourselves up. 
We have the same hope that was tested by the victims of Katrina and 
other natural disasters. Sadly, those same victims are tested again 
because some of their homes were even rebuilt with this toxic drywall. 
We, as Americans, always come through times of challenge even when it 
is a national disaster. We see neighbors offering available rooms in 
their homes to those who have nowhere else to turn during this time of 
crisis. We see subdivisions organizing themselves to call upon 
government for help. We see the heart-warming spirit of community all 
too common after a disaster.
    This does give some homeowners hope. It is not the life raft they 
deserve, but hopefully they can tread water while we all work together 
to find a solution. I implore you to send help with all the due haste 
and urgency this catastrophe demands.
    Thank you again for permitting to share these thoughts with you and 
I am look forward to answering any questions you may have.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
